<html>
<title> - FISCAL YEAR 2020 PRESIDENT'S BUDGET: REQUESTS RELATED TO VETERANS' READJUSTMENT BENEFITS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


  FISCAL YEAR 2020 PRESIDENT'S BUDGET: REQUESTS RELATED TO VETERANS' 
                         READJUSTMENT BENEFITS

=======================================================================

                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 OF THE

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        TUESDAY, APRIL 30, 2019

                               __________

                            Serial No. 116-8

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


        Available via the World Wide Web: http://www.govinfo.gov
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-958                       WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------        
        
        
                     COMMITTEE ON VETERANS' AFFAIRS

                   MARK TAKANO, California, Chairman

JULIA BROWNLEY, California           DAVID P. ROE, Tenessee, Ranking 
KATHLEEN M. RICE, New York               Member
CONOR LAMB, Pennsylvania, Vice-      GUS M. BILIRAKIS, Florida
    Chairman                         AUMUA AMATA COLEMAN RADEWAGEN, 
MIKE LEVIN, California                   American Samoa
MAX ROSE, New York                   MIKE BOST, Illinois
CHRIS PAPPAS, New Hampshire          NEAL P. DUNN, Florida
ELAINE G. LURIA, Virginia            JACK BERGMAN, Michigan
SUSIE LEE, Nevada                    JIM BANKS, Indiana
JOE CUNNINGHAM, South Carolina       ANDY BARR, Kentucky
GILBERT RAY CISNEROS, JR.,           DANIEL MEUSER, Pennsylvania
    California                       STEVE WATKINS, Kansas
COLLIN C. PETERSON, Minnesota        CHIP ROY, Texas
GREGORIO KILILI CAMACHO SABLAN,      W. GREGORY STEUBE, Florida
    Northern Mariana Islands
COLIN Z. ALLRED, Texas
LAUREN UNDERWOOD, Illinois
ANTHONY BRINDISI, New York
                 Ray Kelley, Democratic Staff Director
                 Jon Towers, Republican Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                    MIKE LEVIN, California, Chairman

KATHLEEN M. RICE, New York           GUS M. BILIRAKIS, Florida, Ranking 
ANTHONY BRINDISI, New York               Member
CHRIS PAPPAS, New Hampshire          JACK BERGMAN, Michigan
ELAINE G. LURIA, Virginia            JIM BANKS, Indiana
SUSIE LEE, Nevada                    ANDY BARR, Kentucky
JOE CUNNINGHAM, South Carolina       DANIEL MEUSER, Pennsylvania

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                           
                           C O N T E N T S

                              ----------                              

                        Tuesday, April 30, 2019

                                                                   Page

Fiscal Year 2020 President's Budget: Requests Related To 
  Veterans' Readjustment Benefits................................     1

                           OPENING STATEMENTS

Honorable Mike Levin, Chairman...................................     1
Honorable Gus M. Bilirakis, Ranking Member.......................     2

                               WITNESSES

Ms. Margarita Devlin,Principal Deputy Under Secretary for 
  Benefits, Veterans Benefits Administration, U.S. Department of 
  Veterans Affairs...............................................     5
    Prepared Statement...........................................    33

        Accompanied by:

    Mr. Dominic Cussatt, Principal Deputy Assistant Secretary, 
        Office of Information and Technology,U.S. Department of 
        Veterans Affairs

Mr. Brian Davis, Director, Defense Personnel and Family Support 
  Center, Department of Defense..................................     7
    Prepared Statement...........................................    37

Mr. Patrick Murray, Deputy Director, National Legislative 
  Service, The Veterans of Foreign Wars..........................    21
    Prepared Statement...........................................    42

        Accompanied by:

    Steven Henry, Associate Legislative Director, Paralyzed 
        Veterans of America

    Mr. Jeremy Villanueva, Associate National Legislative 
        Director, Disabled American Veterans

Larry Lohmann, Senior Legislative Associate, The American Legion.    23
    Prepared Statement...........................................    47

Mr. William Hubbard, Chief of Staff, Student Veterans of America.    25
    Prepared Statement...........................................    51

Mr. Sam Shallenberger, Deputy Assistant Secretary, Veterans 
  Employment and Training Service, Department of Labor, Prepared 
  Statement only.................................................    58

                       STATEMENTS FOR THE RECORD

U.S. Department of Housing and Urban Development.................    63

 
  FISCAL YEAR 2020 PRESIDENT'S BUDGET: REQUESTS RELATED TO VETERANS' 
                         READJUSTMENT BENEFITS

                              ----------                              


                         Tuesday April 30, 2019

            Committee on Veterans' Affairs,
                    U. S. House of Representatives,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 2:20 a.m., in 
Room 2253, Rayburn House Office Building, Hon. Mike Levin 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Levin, Brindisi, Pappas, Luria, 
Lee, Cunningham, Bilirakis, Bergman, and Mueser.

           OPENING STATEMENT OF MIKE LEVIN, CHAIRMAN

    Mr. Levin. Good afternoon. I call this hearing to order. I 
want to thank everyone for joining us today in the Veterans 
Affairs' Economic Opportunity Subcommittee.
    This Subcommittee's responsibility is extensive and reaches 
all the programs our veterans depend on as they begin their 
lives outside the Armed Services. Today's hearing will review 
the fiscal year 2020 budget for the Department of Veterans 
Affairs, as well as other relevant programs such as those 
within the Departments of Defense and Labor.
    The President's budget reflects his Administration's 
priorities and there are some areas in which we agree; however, 
this budget proposal is not without fault. I have several 
questions for our witnesses from the Administration regarding 
the scope of what they aim to accomplish in the coming fiscal 
year, and, perhaps more importantly, I would like to discuss 
whether or not the budget they are presenting today will give 
them the necessary resources to achieve their goals.
    I am pleased that the Administration has not proposed cuts 
to the overall VA budget as it has to virtually every other 
Federal agency. The Department of Veterans Affairs budget 
before us is an increase of 9.5 percent over fiscal year 2019 
appropriated levels, but this increase would not apply to all 
programs across the Department. The Veterans Benefits 
Administration, which administers most of the programs within 
this Subcommittee's jurisdiction, would receive only a 1.5 
percent increase. Some of the programs within the VBA would 
remain level or even be cut.
    For example, funding for veterans' homelessness programs, 
which are crucial in my congressional district, would remain 
static. And for the VA Education Service the budget requests a 
reduction of $6 million, despite projecting a higher volume of 
claims. This is especially concerning given the delays in the 
Forever GI Bill implementation, as well as the proliferation of 
school closures.
    Last week, this Subcommittee held a joint field hearing in 
San Diego where we discussed the harmful impact that predatory 
educational institutions are having on our Nation's veterans. 
This is not new, and I want to ensure this budget would do 
enough to crack down on these bad actors.
    Last Congress, this Committee had to provide over $300 
million to veterans by school closures, and we may need to 
assist our veterans once again if the VA and the Department of 
Education do not improve oversight of these colleges. The VA 
must be a better steward of veterans' resources and taxpayer 
dollars.
    And, lastly, while our Committee's primary jurisdiction 
relates to the Department of Veterans Affairs, we must remember 
that veterans' programs do not exist in a vacuum. Funding for 
every Federal agency in one way or another impacts our 
veterans. For instance, cuts to SNAP would affect benefits for 
1.7 million veterans.
    I am committed to working with my colleagues on the other 
authorizing committees, as well as the Appropriations 
Committee, to protect veterans from harmful proposals in their 
jurisdictions.
    I look forward to hearing our witnesses' testimony 
regarding each aspect of the budget and how it would serve our 
veterans, but first I will recognize my friend Ranking Member 
Bilirakis for 5 minutes for his opening remarks.

     OPENING STATEMENT OF GUS M. BILIRAKIS, RANKING MEMBER

    Mr. Bilirakis. Thank you, Mr. Chairman, I appreciate it, 
and I apologize for being late. You all know when you have that 
reoccurring dream, maybe it is just me, where you can't find 
your classroom.
    [Laughter.]
    Mr. Bilirakis. Well, I forgot the number of the room, and 
it looks like I will probably have that recurring dream 
tonight, and I apologize for being late again. Maybe I am the 
only one that has that dream, but in any case--
    Mr. Levin. No.
    Mr. Bilirakis [continued]. --it is a nightmare.
    Folks--thank you, Mr. Chairman, again--thank you for all of 
you being here today. Thanks for being with us for this hearing 
with the Subcommittee on Economic Opportunity as we examine the 
budget request for fiscal year 2020.
    The budget requests $220 billion, a 9.5 percent increase 
above fiscal year 2019 budget for all VA. And I know on this 
Committee our veterans are our top priority and it is great to 
see that the Administration feels the same way. While the 
fiscal year 2020 budget request has grown considerably, I am 
glad we are here today to focus on the programs under the 
Subcommittee's jurisdiction that are often overlooked, but do 
empower veterans' everyday lives.
    Like all of my colleagues here today, I believe the 
veterans and their families deserve the best services, 
benefits, and care that we can provide to them. However, at the 
same time I believe in protecting the American taxpayer and 
ensuring that our government is running efficiently, and there 
is no--we don't want to waste taxpayer dollars where they could 
be better invested elsewhere, but I can't think of a better 
place to invest them. If we are going to be spending the money, 
we need to spend it on our veterans, but it must be efficient.
    The programs we are examining today should be the crown 
jewel of the VA benefits and services as empower veterans to 
lead a more productive and fulfilling life. While I am 
supportive of this strong budget, the proof will be in the 
details and implementation that at times in the past has been 
lacking.
    Last year we witnessed VA fail to fully implement the 
Forever GI Bill, causing long delays in student housing 
payments. We also watched the Office of the Information and 
Technology spend $12 million a new case management system for 
VocRehab counselors that did not work and had to be scrapped 
entirely. However, I believe we may have turned a corner with 
the VocRehab, as I am encouraged by the funding that has been 
provided and requested to hire additional counselors and 
improve systems.
    With that being said, I am still skeptical of the funding 
being provided for the Education Service. This request includes 
a reduction of $6.5 million for the Education Service's budget 
compared to fiscal year 2019. I know that the reasoning for 
this reduction is for the assumed efficiencies that will come 
with the changes to the GI Bill IT system, but, as we saw last 
year, we should not count on these systems to always work. I 
look forward to hearing from our VA witnesses what their back-
up plan is in case of another IT failure, as we can't let what 
happened last year ever happen again. This is very, very 
important and we can't have that happen again. So we are going 
to ask the questions and we are going to hold the VA 
accountable.
    I am also interested in learning what the Department's plan 
is to go back and pay veterans what they are owed from the 
changes that were supposed to be implemented on August 1st, 
2018. The other item that I am interested in learning more 
about today is how the proposed budget for VA, the Department 
of Labor, and the Department of Defense supports the changes to 
the Transition Assistance Program, or TAP, that were enacted as 
part of the fiscal year 2019 National Defense Authorization 
Act. These changes included one-on-one transition counseling 
for transitioning servicemembers, very important, and an 
overhaul to the 5-day structure of TAP that will provide 
additional choices in training, as well as other improvements.
    And we are going to make more implements, right, Mr. 
Chairman--
    Mr. Levin. That is right.
    Mr. Bilirakis [continued]. --to the transition program, but 
this was a good start last year.
    These changes were the most significant revisions to TAP 
since 2011, and I am interested to see how this budget will 
support their successful implementation when they are supposed 
to go live in just 5 short months at the beginning of fiscal 
year 2020.
    Mr. Chairman, before I yield back, I wanted to comment on 
the lack of attendance by the U.S. Department of Labor. I share 
your frustration with DOL not sending a witness to testify at 
today's hearing. Congress has a constitutional role in 
providing oversight of the Department of Labor and it is 
unfortunate that today, like several times last Congress, the 
Department of Labor has refused to send a witness.
    However, Congress also has a constitutional role in 
reviewing and approving nominations submitted by the President. 
It is my understanding that the nominee for the Assistant 
Secretary for Veterans' Employment and Training has been 
languishing in the Senate for over a year now. The nominee, Mr. 
John Lowery, III, a decorated U.S. Marine Corps veteran with a 
strong track record in the private industry, was voted out 
unanimously by the Senate Committee on Veterans Affairs on June 
19th, 2019, and the approval of his nomination is being held up 
by at least one Senator of the minority party. We should expect 
DOL to do its job and provide a witness, and we should also 
expect the Senate to do their job and make decisions on 
President Trump's nominations.
    Finally, Mr. Chairman, I would like to take a moment to 
recognize and welcome back U.S. Marine Corps Reserve Staff 
Sergeant Will Hubbard, who is testifying on our second panel. 
Staff Sergeant Hubbard just recently completed a tour of duty, 
serving alongside the Special Operations Joint Task Force in 
Kabul City, Afghanistan.
    Staff Sergeant Hubbard, thank you for your service and 
welcome home.
    [Applause.]
    Mr. Bilirakis. Mr. Chairman, it is clear that we have a lot 
of work to do, a lot of ground to cover, so I yield back my 
time and say again thank you to our witnesses for joining us 
this afternoon. And I look forward to working with you and 
getting a lot done this year, Mr. Chairman--
    Mr. Levin. Well, thank you--
    Mr. Bilirakis [continued]. --and I am very grateful for the 
time. I yield back.
    Mr. Levin. Thank you, Mr. Ranking Member. Staff Sergeant, 
it is great to have you here.
    We did leave an empty seat for the Department of Labor 
representative, maybe he will show before this is over--
probably not.
    With that, I would like to introduce our witnesses. Thank 
you all, again, for being here.
    Appearing on the first panel are Ms. Margarita Devlin, 
Principal Deputy Under Secretary at the Veterans Benefits 
Administration--good to see you again--who is accompanied by 
Mr. Dominic Cussatt--did I get that right or is it Cussatt?
    Mr. Cussatt. Cussatt.
    Mr. Levin. Cussatt. All right, I won't mess it up again. 
Principal Deputy Assistant Secretary in the Office of 
Information and Technology at the U.S. Department of Veterans 
Affairs.
    Mr. Brian Davis, Director of the Defense Personnel and 
Family Support Center at the Department of Defense. Thank you 
for being with us, sir.
    On behalf of the Independent Budget, we have Mr. Patrick 
Murray, Deputy Director of the National Legislative Service for 
the Veterans of Foreign Wars, who is accompanied by Steven 
Henry, Associate Legislative Director of the Paralyzed Veterans 
of America, and Mr. Jeremy Villanueva, Associate National 
Legislative Director of Disabled American Veterans.
    We also have Mr. Larry Lohmann, Senior Legislative 
Associate with The American Legion, and Mr. William Hubbard, 
Chief of Staff of the Student Veterans of America.
    Finally, we had invited, as Mr. Bilirakis mentioned, the 
Department of Labor to join us to discuss the Veterans' 
Employment and Training Service and, while they did submit 
testimony for the record, I am equally disappointed they are 
not here to answer questions about their budget. I hope they 
join us soon, so we can learn more about how they intend to 
serve our Nation's veterans.
    Thank you to everyone who is here today to speak with us. 
You will each have five minutes, and, without objection, the 
witnesses' full statements will be added to the record.
    And with that, Ms. Devlin, you are now recognized for 5 
minutes.

                 STATEMENT OF MARGARITA DEVLIN

    Ms. Devlin. Thank you, Chairman Levin and Ranking Member 
Bilirakis, and Members of the Subcommittee. It is my pleasure 
to be here to talk about the Veterans Benefits Administration 
budget, with a particular emphasis on the economic opportunity 
programs.
    I will specifically address the budgetary request for 
Education; Vocational Rehabilitation and Employment, or 
VETERANS AFFAIRS&E; Loan Guaranty; and VBA's newly created 
Office of Transition and Economic Development, or TED.
    For Education, VBA requested $223.5 million in 
discretionary funds to sustain administrative expenses, which 
include the 1,985 FTE needed to support the delivery of 
education benefits, including the new initiatives of VET TEC 
and STEM. In 2020, we estimate more than 4.2 million education 
claims will be processed for over a million eligible 
beneficiaries. The funds will further sustain the continued 
enactment of Sections 107 and 501 of the Colmery Act.
    For VETERANS AFFAIRS&E, VBA requests $245.4 million in 
discretionary funds, which will benefit an estimated 124,000 
veterans participating in the program, and support our 
continued efforts to achieve the 1-to-125 hiring ratio. I am 
happy to report that out of the 169 new positions we have 
added, we have filled 160 and we have seven in the selection 
process. The budget request will also support the 
implementation of the Case Management Solution. This system is 
part of VBA's modernization efforts, which will allow 
counselors to efficiently manage their workload and dedicate 
more time to working directly with veterans to develop the 
skills they need to succeed in the competitive job market.
    For Loan Guaranty, VBA requested $200.4 million for loan 
administration to cover the costs of the housing loan programs 
and $20.8 million in discretionary funds to cover the 
Specially-Adapted Housing Program. This request will provide 
sufficient funding for 906 FTE to continue administering 
programs to over 562,000 beneficiaries.
    The budget will also support sustainment of the redesigned 
VA Loan Electronic Reporting Interface, or VALERI. Phase 1 of 
the system redesign launches next month. The redesigned VALERI 
will allow VA to monitor veterans who are in loan default and 
conduct oversight to ensure servicing activities completed by 
servicers are in the veteran's best interest. Future phases in 
2020 will incorporate all aspects of the loan life cycle and 
will dramatically enhance the ability to conduct program 
oversight, from eligibility to foreclosed property disposition.
    TED is the business line responsible for military-to-
civilian transition, as well as the development of economic 
initiatives that focus on empowering veterans to achieve 
comprehensive well-being. TED administers VA's portion of the 
Interagency Transition Assistance Program, or TAP. For 2020, 
VBA requests $82.4 million in the budget to fund discretionary 
portions of TED, which will support adding VA courses 
throughout the military life cycle, increase VA's TAP course 
from 6 hours to a full day, and conduct a 5-year longitudinal 
study to obtain data on TAP outcomes.
    As discussed in the hearing on April 9th, with the creation 
of TED we prioritize transition services not only 
operationally, but in our budget. For the first time, VA's 
investment in military-to-civilian transition and economic 
development has a clearly defined budget, which will provide 
full transparency into the resources and outcomes associated 
with this important mission.
    The voluntary course that we administer that is taken by 
servicemembers after participating in VA's TAP course currently 
reflects a 96 percent satisfaction rate. We also obtain rich, 
qualitative data by the comments, the open comments that 
servicemembers provide.
    Recently, a Navy sailor with less than 4 years on Active 
duty who participated in the VA TAP briefing in Southern 
California commented that our benefit advisers, quote, ``Have 
been amazing. You can truly tell they are all passionate about 
their briefings and are willing to answer any and all questions 
that we may have. They are all genuine and truly care about us 
having an easier transition out of the military,'' end quote.
    While my testimony today focused on VBA programs of 
interest to this Committee, the 2020 budget supports our 
holistic approach to the full complement of veteran benefits, 
which provide veterans the opportunity to achieve the American 
dream, to include overcoming the effects of illness or injury, 
and securing financial independence for themselves and their 
families.
    VA appreciates the Committee's support in improving 
services and resources offered to servicemembers, veterans, and 
their families through the requested budget. We look forward to 
working with the Committee, as well as our Federal and VSO 
partners, to maintain our focus on continuous improvement of 
our economic opportunity programs.
    Thank you, Chairman Levin and Ranking Member Bilirakis, for 
the opportunity to discuss our budget here today, and this 
concludes my testimony and I look forward to any questions you 
may have.

    [The prepared statement of Margarita Devlin appears in the 
Appendix]

    Mr. Levin. Thank you, Ms. Devlin.
    Mr. Davis, you are now recognized for 5 minutes.

                    STATEMENT OF BRIAN DAVIS

    Mr. Davis. Chairman Levin, Ranking Member Bilirakis--
    [Audio malfunction in hearing room.]
    Mr. Davis. Did you all hear any of that?
    Mr. Levin. I heard it.
    Mr. Davis. Oh, okay. The new requirement to start the 
process 365 days prior to their separation will ensure that our 
servicemembers have the appropriate time to focus on a 
successful transition. The initial face-to-face session with 
the TAP counselor assists the member in completion of a self-
assessments and develops an individual transition plan. Now, 
the individual transition plan becomes the roadmap for the 
servicemember in meeting their transition goals.
    A strong collaboration among the interagency partners, as 
we have here today, contributes to the success of our members, 
and DoD's partnership with the Departments of Veterans Affairs, 
Labor, Homeland Security, Education, Office of Personnel 
Management, and the Small Business Administration ensure 
delivery of TAP resources and services to the member, and this 
includes preparation for employment, education, vocational 
training, and entrepreneurship.
    But, most importantly, the program takes into account the 
well-being of the member, with the goal of assisting them and 
their families in preparation for their new chapter in their 
civilian life.
    As previously stated, the fiscal year 2019 NDAA has driven 
significant changes to TAP, and over the past year the 
Department has aggressively engaged with the military 
components in design and implementation of the legislation, and 
we will continue to develop and redesign delivery of TAP 
services to our transitioning servicemembers and their 
families.
    Career readiness in transition assistance preparation is an 
absolute must if servicemembers are going to experience a 
successful transition to civilian life. We recognize that 
preparing servicemembers through their military life cycle to 
be career-ready upon transition is essential to sustaining the 
all-volunteer force. In order for DoD to continue to attract 
the high quality and dedicated volunteers to serve in our Armed 
Forces, we must equip this generation of servicemembers with 
the ability to positively contribute to the national workforce 
and thrive in their military communities.
    However, the Department cannot do this alone. We must have 
the continued strong collaboration with our interagency 
partners, the support and hard work of our military components, 
collaboration with other external stakeholders, and we need 
you, the Members of Congress.
    So, in summary, what I am going to tell you, I will be 
honest with you, I have never testified in front of a House 
Subcommittee before. So, I am so very pleased and proud and 
happy to be here today, and really the word I am looking for is 
honored.
    Just 2 and a half years ago, I retired from the military. I 
was in the Air Force, I was a Wing Commander, and I 
transitioned out. And I loved my career, I love what I did, I 
loved my job, but as I went up the leadership chain, as I took 
roles of responsibility, what I became passionate about, it is 
actually what you are passionate about, are the people and 
their families. And today I find myself in this really unique 
position where as the Director of DFPC--I'm sorry, I couldn't 
even say my acronym right--that once again in my life I get 
this opportunity, I get this chance to take care of the people 
who have taken care of the mission. I mean, these are the men 
and women who every day, every day--and I just met a bunch of 
veterans back here, but every day they choose, they choose to 
put on the uniform, they lace up their boots, and they go about 
the very serious business of fighting and winning our Nation's 
wars, and at sometimes a great cost.
    So, as I said, it is an honor to be with you today. I look 
forward to answering any questions you have and I look forward 
to your feedback. Thank you for your time.

    [The prepared statement of Brian Davis appears in the 
Appendix]

    Mr. Levin. Thank you, Mr. Davis. It is extremely well said 
and thank you for your service too.
    Mr. Davis. Thank you.
    Mr. Levin. I now recognize myself for 5 minutes to begin 
the question portion of this hearing, and I will start with Ms. 
Devlin.
    During the Full Committee budget hearing earlier this 
month, I asked about VBA's plan to implement Sections 107 and 
501 of the Forever GI Bill by the spring of 2020. Specifically, 
I asked how the Administration is preparing for potential 
hiccups in the adoptions of changes to the IT system.
    Under Secretary Lawrence stated, and I quote, ``Worst-case 
scenario is we will continue to process it as we have been,'' 
end quote. However, as I mentioned earlier, VBA is proposing 
that Congress eliminate the additional funding we provided in 
fiscal year 2019 for the purpose of implementing the Forever GI 
Bill. Meanwhile, your written testimony states that the VA has 
202 temporary employees supporting the additional workload 
associated with implementing the Forever GI Bill.
    So my question to you is, can you explain how VBA is 
preparing for unforeseen circumstances to ensure it fully 
implements the Forever GI Bill?
    Ms. Devlin. Thank you for the question.
    We feel confident, first of all, that we will accomplish 
the mission and have the Sections 107 and 501 deployed on 
December 1st, as promised. I have my IT partner here next to 
me, we are very committed. Dr. Lawrence is paying very close 
attention to this, as is the CIO. We don't feel we need a plan 
B; however, having said that, in the event that we did not 
implement by December 1st, we would continue paying veterans on 
time at the current rates. And I believe that's what Dr. 
Lawrence was indicating is that this will not harm veterans 
should it not come through, but we have 100 percent confidence 
that it will.
    Mr. Levin. Thank you for that clarification.
    I wanted to turn to an issue that was a subject of the 
field hearing that I referenced when I was back in the district 
the last couple of weeks, along with the Education and Labor 
Committee. We had a joint field hearing on the GI Bill and 
specifically some of the issues around predatory lending and 
predatory institutions, you know, taking advantage of veterans, 
the 9010 loophole and the like. I am concerned about this 
getting worse, not better. Some of the oversight that was 
present may or may not still be present. And I wanted to ask 
about Section 4(e) of Executive Order 13607, which ordered the 
DoD and the VA to, and I quote, ``establish new uniform rules 
and strengthen existing procedures for access to military 
installations by educational institutions,'' end quote.
    Mr. Davis and Ms. Devlin, what is the status of your 
efforts to implement this directive?
    Ms. Devlin. I would have differed with my DoD partners on 
the directive as it pertains to military installations.
    Mr. Davis. Let me make sure I understood the question 
right, sir.
    Mr. Levin. Sure.
    Mr. Davis. What you are looking at is predatory--university 
and colleges' predatory practices on the members there and 
taking their GI Bill money and they are not getting a degree, 
is that what--is that the question?
    Mr. Levin. Yes, sir, and specifically the section of the 
Executive Order 13607 that ordered the DoD and VA both to, and 
I quote, ``establish new uniform rules and strengthen existing 
procedures for access to military installations by educational 
institutions.''
    So I just wanted to ask what the status was of your efforts 
to implement that directive.
    Mr. Davis. Okay, I can tell you what we are doing, exactly 
what we are doing. So this is why the 365-day TAP governs, we 
moved the--you know, moved it out to 365 days for the 
transitioning member, that gives us time when they have the 
face-to-face counseling and they have the self-assessment 
basically to figure out, okay, what do I need, what do I need 
when I transition out. And it also is on--and I will tell you 
this just from what I did in a past life, it is also with the 
commanders and their unit commanders and that community that 
helps them along. So they self--they assess.
    So let's just say that they want to be an electrician. So, 
what do I do, what courses do I have to take? And you can take 
those through transition assistance and not utilize the GI 
Bill, but what you utilize the GI Bill is for your higher 
education.
    So I believe what we are doing through our transition and 
our counseling is explain to them, okay, so if you want to be 
an architect, these are the things you need to look at. And so 
it gets them early on into the process, so they can decide, 
they can decide what they have to do. And there are all kinds 
of benefits and resources out there, from online to community 
college, they can prepare themselves with.
    But I hope I answered that question.
    Ms. Devlin. And if you look--
    Mr. Levin. Sort of.
    Mr. Davis. Okay.
    Ms. Devlin [continued]. --more information in terms of 
oversight. As you may know, the VA partners with state-
approving agencies who have the, by legislation right--so we 
don't have the authority to approve or disapprove schools in 
the VA, we partner with state approving agencies, we provide 
them with the criteria based on the legislative authorities and 
then they administer the criteria for us.
    So we watch over the state approving agencies, but we 
partner with them; we have contracts with them, we have 
specific and clear expectations, and we do watch to ensure that 
they are complying with their oversight requirements as well.
    Mr. Levin. Thank you. And I know I am short of time, but if 
my colleagues will entertain one more question.
    Ms. Devlin, in your written testimony you mention VA will 
soon begin a 5-year post-separation TAP longitudinal study. And 
I am curious, what metrics will you be tracking in the study 
and how will the information be used to improve the TAP 
program?
    Ms. Devlin. Thank you. Yes, we are starting it this year. 
We got the survey approved by OMB and we will be administering 
the survey at three touch points post-transition, at 6 months 
post-transition, 1 year and 3 years, so we can really take a 
look at the outcomes of TAP.
    The domains that we are looking at with the survey include 
employment, entrepreneurship, mental and physical health, 
social relationships, financial situation, and housing.
    Mr. Levin. Thank you.
    Ranking Member Bilirakis is now recognized for 5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman, I appreciate it.
    Ms. Devlin, on a scale of 1 to 10, with 1 being complete 
failure and 10 being fully functioning, where do you believe 
the IT system for full implementation of the Forever GI Bill 
Section 107 and 501 will be December 1st, 2019--
    Ms. Devlin. As I indicated--
    Mr. Bilirakis [continued]. --on a scale from 1 to 10?
    Ms. Devlin [continued]. --I am 100-percent confident I 
would give it a 10.
    Mr. Bilirakis. All right. Okay. Well, that is encouraging. 
We will check back on the 1st of December.
    Ms. Devlin, one of the most important provisions of the 
Forever GI Bill are the changes against Section 107 and Section 
501 of the law, which calculated students' living stipend based 
on the location at which the student takes the majority of 
their classes. How does this budget support the implementation 
of this section and when will the final policy guidelines, the 
guidance on how VA will go back and make students impacted by 
the significant delay in implementing this section whole be 
released by the Department?
    Ms. Devlin. Our funding allows for the continuation of the 
staffing levels, so that we can maintain the human intervention 
on claims processing that doesn't get accomplished by 
automation. So our contractor is required to meet the current 
automation rate, which is 37 percent, and then our FTE will 
manage the off-ramped claims that have to be touched by a 
human. So our budget supports that additional FTE.
    And also, I just wanted to mention, we are conducting 
roundtable discussions with stakeholders in schools to really 
talk about the impact on schools and the impact on students and 
make sure that, as we are developing these policies for the 
school location for Section 107, that we incorporate the 
feedback of the schools, because really they are the ones that 
are going to have to be processing the paperwork to enable us 
to pay the student at the correct amount. So we are working 
with them, we are getting a lot of great insights and, once we 
implement Sections 107 and 501, our key priority is going to be 
to make sure that veteran students get paid on time; the second 
priority is going back and retroactively making them whole for 
the semesters that they did not get the proper rate, if the 
rate would have been higher.
    Mr. Bilirakis. Okay, very good.
    Okay, Mr. Davis, one of the changes to TAP enacted in last 
year's NDAA was the requirement for transitioning 
servicemembers to undergo one-on-one transition counseling. The 
services have expressed their concern to the Subcommittee staff 
that additional resources are needed to complete this 
requirement. How does the budget proposal account for this 
change?
    Mr. Davis. So, sir, to answer that very quickly, the 
budget--so it will be the military component who decide their 
budgets, to manage their budgets, how they do that. And I can't 
answer that right now, but I can certainly put, I believe you 
say, for the record and get that information to you--
    Mr. Bilirakis. Yes, please do, because that is so very 
important.
    Mr. Davis. That is very important. And if I can, if I have 
got just a second, I want to go back to the Chairman's 
question, because I didn't answer it.
    Mr. Bilirakis. Okay, go ahead. No, no, please.
    Mr. Davis. And I am sorry about that--
    Mr. Levin. It happens all the time around here.
    [Laughter.]
    Mr. Davis. I am finding that out.
    Mr. Bilirakis. But we do want--we want an answer, so go 
ahead, please.
    Mr. Davis. And, sir, I can get you that. And so we will in 
coordination with the military components find out, because 
they control their budgets and they manage their budgets. But 
as for us in the governance of TAP, that is not something we 
have visibility on, but we will get it.
    But for you, sir, the one question that I want to have 
answered is what you asked me, because if universities and 
colleges are preying on our veterans, that has got to stop. And 
so I--okay, that is for the record, right? I say that is for 
the record, it is for the record, and we will get you an 
answer. I will work to get you an answer.
    I was answering his question and then yours.
    Mr. Bilirakis. No, no, no, I understand. And we passed 
legislation a few years ago to address that issue as well. I 
would like to find out how that is working as well with regard 
to the predatory practices by some of these for-profit 
universities. Okay?
    Mr. Davis. Yes.
    Mr. Bilirakis. So give us some data on that.
    Mr. Davis. Absolutely. And I am completely transparent, I 
actually got the opportunity to visit a university about 4 
weeks ago in Florida, which is I believe where you are from--
    Mr. Bilirakis. Yes.
    Mr. Davis [continued]. --and what a magnificent university, 
what a magnificent veterans' association. They don't just have 
a veterans' office, they have got a veterans' suite. And they 
do what TAP does and they do what--and you probably know who I 
am talking about--
    Mr. Bilirakis. I bet I do. It might be in my district.
    [Laughter.]
    Mr. Davis. Well, I can't say that, but okay. But that was 
an amazing trip for me, and it was an uplifting and enjoying 
trip and I got to talk to a lot of veterans that were there, 
and how that university takes care of their students and their 
veterans was just amazing. So, if we can get all of our 
universities to do that--
    Mr. Bilirakis. Yeah, let's chat afterwards, because I want 
to find out which one it is.
    Mr. Davis. Okay, sir--
    Mr. Bilirakis. We could use it as a model for the rest of 
the country. I think it might be the one that I am thinking of 
too. All right, we won't say.
    All right, I guess I better yield back. Thank you, Mr. 
Chairman. I appreciate it.
    Mr. Levin. Thank you.
    Mr. Pappas is now recognized for 5 minutes.
    Mr. Pappas. Thank you very much, Mr. Chair, and to the 
Ranking Member for holding this hearing.
    Thank you very much for your testimony, Mr. Davis and Ms. 
Devlin, this morning--this afternoon, I guess. I am very 
encouraged by some of the things that I have heard, but 
continue to have some concerns about one particular program 
that I just wanted to explore a little bit with you, the 
Vocational Rehabilitation and Education Program.
    We have learned and I think we will hear a little bit later 
today from our VSOs that robust funding is critically important 
for that program, it is a lifeline for our veterans. And the 
coauthors of the Independent Budget highlighted a drop in the 
number of disabled veterans that are utilizing the VETERANS 
AFFAIRS&E program. There has been a decline from 2016 to 2018 
of 173,000 to 164,000 veterans, a drop of about five percent. 
VETERANS AFFAIRS&E's caseload dropped from 137,000 to about 
125,000, an 8.4 percent decline over that same period.
    I am wondering if you can explain what led to the decline 
in utilization of that critical program.
    Ms. Devlin. Thank you for the question.
    We share your concern and we are looking very closely at 
this. We don't know what caused it, but we have been looking at 
several factors that we think can impact more veterans 
participating in the program. For example, we did see--and this 
is historical, for quite a period of time--that veterans tend 
to not show for their first appointment for orientation. The 
process by which we schedule veterans for that first initial 
appointment is they get a letter with an appointment date and 
time. And in order for us to do what most industry does today 
with reminder calls to make sure that they know that their 
appointment is coming up, we would have to have people, 
VocRehab counselors, going through their files, figuring out 
who has got an appointment today, and making a phone call. It 
is not sustainable, so a lot of times those reminder calls 
don't get made.
    We are embarking--we just awarded a contract to conduct 
artificial intelligence-type activities to do things like give 
reminder calls to veterans when they have their first 
appointment. Obviously, if a great percentage of them are not 
showing up for their first appointment, they are not going to 
enter into a rehab plan. So that is one thing we are 
implementing in short order.
    The other thing that we are doing is we are taking a look 
at how many veterans who do show up for the first appointment, 
are found entitled and eligible, but don't participate in a 
plan, and in order to encourage more VocRehab counselors to 
work with their veterans to get them in a plan as quickly as is 
feasible for that veteran, recognizing it is an individualized 
program and every veteran has individual needs. We are asking 
our directors by putting it in their performance plan of the 
regional offices to increase the plan rate, which is the rate 
of veterans who are found entitled to participate in a plan, to 
have them work with their VocRehab officers and VocRehab 
counselors to ensure that they are paying attention to those 
eligible veterans and figuring out how do we make sure you 
actually take advantage of this important program and get into 
a plan of services, so we can start serving you.
    Mr. Pappas. Well, thanks for the response.
    Disabled veterans experience unemployment at a higher rate 
than the veteran population as a whole or the population of 
Americans as a whole, so it is critical that we continue to 
take steps to address that. I appreciate your response.
    Does the number of counselors at all play into this in 
terms of the decreasing utilization of the program?
    Ms. Devlin. While there isn't probably a direct 
correlation, there may be an indirect correlation, because if 
you have more veterans on your caseload to work with you might 
not have as much time to spread your attention across that 
veteran population that you serve. So we were very excited to 
be able to fund the 1-to-125 ratio and we are almost there in 
getting the people on board.
    Mr. Pappas. One follow-up. You said reminder calls are an 
important way to make sure folks don't miss appointments. Do 
you have text capability, is there another way to make sure we 
get to those vets?
    Ms. Devlin. That is exactly what this artificial 
intelligence will enable us to do is text messages, phone 
calls, both, right? Because we know a lot of our veterans are 
using their phones for texting and would rather receive a text 
message than a phone call.
    Mr. Pappas. Great. Thank you.
    I yield back.
    Mr. Levin. Thank you.
    Mr. Bergman is recognized for 5 minutes.
    Mr. Bergman. Thank you, Mr. Chairman, and thanks to the 
panel. Good to see you all again.
    At the last time we got together, I think, Ms. Devlin, you 
and I went back and forth a little bit and I requested some 
information, and thank you for providing it, because I think 
one of my questions was what is the breakdown percentage-wise 
between retirees and people just separating with less than, 
shall we say, 20 years. So I guess what I have got here is it 
is about 20 percent 20-plus-year retirees and about 80 percent 
before that time, first-term, second-term separations.
    So it is a norm that has been I think held steady for a 
long period of time, so we can--we really are thinking about in 
80 percent of the cases getting someone an initial start in 
their career life post-military, because the 20-plus-year 
retirees are--they are starting again, but they are coming out 
with a pension and they have got a little bit of a cast cushion 
to go forward at that point, and that focus really goes on that 
80 percent. So when you are getting an 80 percent bang for the 
buck, you are doing pretty well.
    And we also talked about, you know, the Guard and Reserve 
and how we are looking at that, and I guess there is a 
different platform.
    So I guess my question, you know, today would start with 
the Montgomery GI Bill allowed the Selected Reserve up to 36 
months for education benefits. Can you compare the percentage 
of Selected Reserve versus Active duty servicemembers using 
their GI Bill benefits? So, in other words, those who are 
eligible for the Montgomery GI Bill, are they using it as much 
as those leaving Active duty, or any thoughts? Do you want to 
take it for the record?
    Ms. Devlin. Well, I would have to take that one for the 
record; I don't have that data in front of me.
    I do believe we capture in our systems the status of the 
veteran in terms of Active duty or Reserve, but I am not 100 
percent sure. But, if we do track it, we can get you that data.
    Mr. Bergman. Well, the relevance of the data is that so 
many of our young servicemembers when they leave their service 
time, whether it is active or Reserve, they are focused 
elsewhere, and unless we find a way to maintain that contact at 
whatever loose level. So when all of a sudden, they wake up one 
morning and go, oh, yeah, I think I had education benefits or I 
think I had this, you know, how do we tap into that.
    And, having said that, what is the VA doing to--if you 
will, to be ready to when they do wake up to inform, include, 
facilitate, you know, Reserve participation in the GI Bill? I 
know largely through TAP it is going to be active; how about 
the Reserves, how about the Guard?
    Ms. Devlin. Well, for all servicemembers, whether Active 
duty or Reservists who get called up to Active duty and then 
participate in TAP, that point in time later on when you kind 
of go, okay, I have been through getting all this information, 
they say, you know, it is like through a fire hose, there is 
just so much information about my benefits coming at me, 
wouldn't it be great if we would reach out to them afterwards 
and kind of say, hey, you know, we are just reaching out to you 
to make sure you know about your benefits and what is available 
to you, we are in the process of standing that capability up. 
It was part of the executive order that President Trump signed 
a little over a year ago to help--it was in the interest of 
suicide prevention, to make sure that these servicemembers once 
they become veterans, they know that we are there for them and 
that we are doing this outreach.
    So we are calling it early and consistent outreach. We are 
setting up sort of a call-center capability where we will have 
data from DoD on when the servicemember exited the military, 
became a veteran, and we will contact them at consistent 
periods of time to just kind of touch base and say, you know, 
do you have your benefits all set up, are you interested, do 
you have any questions, and have that touch point, because that 
is the point at which they might go, you know, I am not sure. I 
was curious about this benefit or that benefit, and we can fill 
in those blanks and get them connected and get them applying 
for those benefits.
    Mr. Bergman. You know, based on the hearing we had last 
night with the Committee as a whole, you may want to include 
the question in there if you are going to reach out to them, 
how are you doing? Because sometimes they might be at risk and 
just that acknowledgment through the phone call, you are 
calling about something else, but how are you doing?
    Lastly, and I know my time is running short here, last 
Congress this Committee uncovered that VA had spent over $12 
million on the creation of a case management system for the 
VocRehab program that had to be scrapped because it wasn't 
meeting the needs of VETERANS AFFAIRS&E counselors. How does 
your budget invest in programs that will provide this 
functionality for counselors and how will you avoid the 
mistakes of the past?
    And I apologize for going over.
    Ms. Devlin. That is okay. We have actually--we took that as 
a very high priority when Dr. Lawrence and I got into our 
current positions back in May of 2018.
    One of the things that the Committee at that time asked 
was, why didn't you look at industry, to see if industry has 
off-the-shelf products that you could procure? Why did you 
spend all this money or all this investment in IT development 
without first looking to see if industry had products? So we 
did that research, and we looked, and we found that industry 
does in fact have products that you can either procure off the 
shelf or services that you can procure.
    So, in working with our IT partners, because there are 
different appropriations for IT versus GOE funding, we were 
able to identify the ability to pay with GOE dollars for a 
software as a service. And in fact just yesterday I signed the 
acquisition package to get that request for proposals out on 
the street and we are well on our way to get that procurement, 
so that we can purchase that software as a service.
    Mr. Bergman. Okay. Well, thank you.
    Mr. Chairman, I yield back.
    Mr. Levin. Thank you.
    We now recognize Ms. Luria for 5 minutes.
    Ms. Luria. Thank you. It is nice to see you again, Ms. 
Devlin.
    In your opening statement you said that the VETERANS 
AFFAIRS&E 2020 budget request supports performance measures 
designed to drive continuous improvement and achieve optimal 
outcomes for veterans. In fiscal year 2018, the VA revised the 
VETERANS AFFAIRS&E's performance measures to align with 
agency's goals and priorities.
    I have recently reviewed the 2019 annual performance plan 
for the VA and how many performance measures are in that plan 
related to the VETERANS AFFAIRS&E's program?
    Ms. Devlin. In the APPR?
    Ms. Luria. In the VA's annual performance plan.
    Ms. Devlin. I believe there is one, but I would have to 
take that for the record exactly to see which ones of our 
performance measures made it to the plan.
    Ms. Luria. Okay. I bring this up, because I also brought up 
the measure in that plan related to last night's hearing with 
Dr. Stone and it appears that that plan has been written, but 
in his level, not necessarily being evaluated and used as an 
actual metric for how the programs are working, and now I found 
a parallel in two cases with that particular instance.
    And so there actually were four performance measures that 
were then combined into one, so you are correct about that, but 
what is concerning to me is that there was actually no 
performance measure listed. So, no percentage accomplishment as 
a benchmark, it just says TBD in the plan. So for us to go back 
and evaluate or ask how you are making progress, there is no 
measure given in the plan.
    And so, as an oversight Committee, you know, I think that 
we need metrics to be able to judge whether, you know, the 
plans are being used effectively. And since there is not one 
listed in there, I went to this 115-page document, which is the 
annual report talking about the VETERANS AFFAIRS&E 
effectiveness. And as I read through it, it just seems to lay 
out trends over an every-2-year period, but there is really no 
milestone or metric in here to say whether it is effective. It 
just basically gives raw numbers, but then doesn't actually use 
that data to say whether the program is being effective or not.
    So I thought I would just provide that feedback as well on 
this document that you have provided each year to Congress.
    The last thing I wanted to touch on was the 12-year 
requirement that basically says after 12 years someone is no 
longer eligible for participating in the VETERANS AFFAIRS&E 
program. And I have personally heard from veterans' groups 
within my district that there are some concerns about that and 
that some veterans could potentially benefit from this program 
beyond the 12-year point. Can you give your feedback on that 
and have you heard similar remarks from veterans about the 
program?
    Ms. Devlin. Sure. The 12-year eligibility period begins 
either when you transition out of the military or when you get 
your first service-connected disability rating that makes you 
eligible. So, in some cases, veterans who didn't pursue their 
benefits at all and waited until later after being discharged 
from the military, their clock starts for their 12 years much 
later.
    The VETERANS AFFAIRS&E program is unique in that it is very 
tailored and individualized. So, while a veteran may have 
exceeded his 12-year--his or her 12-year eligibility period, 
that doesn't prevent them from applying and becoming eligible 
to sit down and have an evaluation with a rehabilitation 
counselor. It is at that point that the rehabilitation 
counselor makes a decision based on that veteran's unique 
circumstances whether the 12-year eligibility period can be 
waived.
    The waiver of the period will happen if the veteran is 
found to have a serious employment handicap and what that means 
is, for any veteran to be entitled to the program, they have to 
have an employment handicap. A serious employment handicap 
would be employment barriers above and beyond the standard 
legal requirement for an employment handicap.
    So a couple examples would be severe educational deficits, 
significant advancement in age where there might be bias on the 
part of employers, a visible disability such as disfigurement 
or prosthetics that might be visible to an employer that might 
result in bias. There are a lot of examples in the regulations 
that allow us to bypass that 12-year eligibility period.
    But if that was not present in that situation for that 
veteran, they didn't have any of those situations, then you are 
right that we would not be able to provide services.
    Ms. Luria. So if the 12-year requirement were to be 
eliminated, would you require additional resources then to 
implement the program? Do you believe there would be a larger 
audience of people attempting to access and use these benefits, 
and would that require more resources on your behalf to meet 
the 1-to-125 requirement that you are trying to reach?
    Ms. Devlin. Potentially. When we did the analysis for our 
cost estimate, and I don't have that in front of me, but we did 
do some analysis based on the number of veterans who had 
applied for the program, were past their 12 years, and were 
denied access, meaning they did not have a serious employment 
handicap. While I don't have those numbers in front of me, they 
were not very large, but we don't know what the impact of 
marketing that type of new information would do in terms of 
veterans who might not have applied because they were past 
their 12 years.
    So we would have to evaluate that and in the next budget 
cycle we would put in whatever requirement we had.
    Ms. Luria. And, lastly, if someone does apply past the 12-
year point and they are denied, is there any recourse for them 
to take that up past that one individual counselor who made 
that decision?
    Ms. Devlin. Yes, they have several options under the 
Appeals Modernization Act. They can ask for a higher-level 
review or they can appeal directly to the Board of Veterans 
Appeals.
    But also, I just want to mention, our rehab counselors are 
required by our regulations to also provide them other forms of 
assistance if they are not eligible for the VETERANS AFFAIRS&E 
program. So they work with Department of Labor through a close 
partnership, and they work with other non-profits and other 
organizations in the area to make sure that veteran gets a 
referral to other programs that they might be eligible for.
    Ms. Luria. Thank you.
    Mr. Levin. Mr. Meuser is now recognized for 5 minutes.
    Mr. Meuser. Thank you, Chairman Levin, Ranking Member 
Bilirakis. Thank you very much to our witnesses and for your 
important work.
    I represent Pennsylvania's 9th Congressional District. We 
are home to about 50,000 veterans, the Lebanon VA, as well as 
Fort Indian Town Gap. So we have got quite a military and 
veterans' presence.
    Ms. Devlin, I will ask you this, if I could, please. The 
VA's fiscal years we have mentioned for 2020 budget request 
contains a $20 million increase for Vocational Rehabilitation 
Employment programs. Clearly, this plays a very important, 
critical role in assisting disabled servicemembers and all 
veterans to find meaningful employment. Throughout my district, 
we have some really terrific vo-tech schools and career 
institutes. Is part of the program an outreach or an 
educational forum, so as veterans, disabled as well as not 
disabled within the VA, are they given information so as they 
can gain access to these schools, become aware, get introduced, 
and funding assistance?
    Ms. Devlin. Yes. We have several mechanisms for outreach, 
but predominantly it is our Transition Assistance Program, 
which, by the way, with the ability to increase it to a full 
day, we know that one of the areas we need to increase 
attention to in our TAP class for VA is vocational rehab.
    One of the things I heard consistently from veterans who 
had recently discharged is that they don't remember hearing 
about the VocRehab program when they were in TAP, even though 
it was clearly in the curriculum. So what does that tell us? We 
weren't quite getting it right. So we know we need to work on 
that.
    We are doing a process called human-centered design where 
we are meeting individually with servicemembers and veterans to 
ask them for their input on how can we do this better. We want 
this to work for you. We don't want you to leave the military 
and not understand this amazing benefit that is here for you if 
you have service-connected disabilities.
    The other thing that we do is we have a program called Vet 
Success on Campus, and we have vocational rehab counselors on 
many campuses across the country, not all of them, but we have 
many campuses that have these rehab counselors and they provide 
outreach to the entire veteran population on campus, not just 
the service-connected veterans. And the reason that is 
important is because there is another program that a lot of 
people don't know about, we tend to call it Chapter 36, it is 
educational and career counseling, and any veteran who is 
eligible for any kind of VA education benefit is eligible for 
that same rehabilitation counseling experience that a veteran 
who is eligible for VocRehab can get. They just don't get the 
funding for the training, because they would get the funding 
through their GI Bill or Post-9/11 GI Bill.
    So those counselors are out there pounding the pavement, 
making sure that veteran students know about that program.
    Mr. Meuser. And are the VA facilities throughout the 
country, as well as in Lebanon, Pennsylvania, made--do you go 
over that or do you have a team that assures that this is a 
regular part of the training?
    Ms. Devlin. I would have to look at Pennsylvania to see 
where we have VSOC sites, I am not sure off the top of my head, 
but, yes, we conduct outreach around the whole country.
    Mr. Meuser. I think they are doing very well at it and 
maybe even could be used as a model, as again we have so many 
strong vo-tech schools.
    Unemployment as a whole with veterans, what would you say 
able--or those who are able to work and willing to work 
veterans, what would the unemployment rate be approximately?
    Ms. Devlin. I don't have the unemployment rate here with 
me, but we do partner with DOL and in fact we sent out a VA 
benefits bulletin every month, and we connect to the Web site 
that DOL uses to put their labor market statistics and we do 
monitor them to see any trends. Right now, the trends, as I 
remember from the last time I looked, seemed pretty invest, but 
that doesn't mean we should not invest heavily in employment 
for veterans, because we never know when they are going to need 
assistance and what the labor market looks like in their 
specific community, because labor markets are very localized.
    Mr. Meuser. Right. Are the VAs or any branch of the 
services for veterans, do they attend job fairs, and do they 
participate with the local chamber of commerce for instance?
    Ms. Devlin. Yes. In fact, our TED Office conducted their 
first ever hiring event with Hiring Our Heroes, which is a 
chamber of commerce-sponsored organization in San Juan, Puerto 
Rico. And that was an economic initiative designed to bring 
economic assistance to the veterans in Puerto Rico and it was a 
huge success, 200 job offers.
    Mr. Meuser. I would encourage you to do your best to have 
Members of Congress be made more aware of hiring heroes, that 
could be something that we could really help promote quite a 
bit effectively.
    Ms. Devlin. We are happy to invite, and our next event is 
going to be in the Puget Sound area.
    Mr. Meuser. All right. Thank you.
    I yield back, Mr. Chairman.
    Mr. Levin. Thank you, Mr. Meuser.
    Ms. Lee is now recognized for 5 minutes.
    Ms. Lee. Thank you, Mr. Chairman and Ranking Member, for 
holding this important hearing. Thank you all as well for being 
here and the work that you do.
    You know, this is to me an important kink for us to figure 
out, especially after we had our hearing yesterday with suicide 
prevention, making sure that we are identifying and engaging 
with veterans as early as possible in putting them on a road to 
success.
    So, Mr. Cussatt, I wanted to ask you--I hope I didn't 
butcher that name--I wanted to ask you a question about 
information technology. The VFW, the DAV, and Paralyzed 
Veterans of America have all expressed concerns with the 
process for the VBA integration of the legacy systems into the 
transformation of several large programs, notably the Forever 
GI Bill. The VSOs note that the VBA must compete with other 
OI&T priorities for funding and the VA has asked for an 
increase of $240 million for OI&T for fiscal year 2020. I 
wanted to ask you, what are the priorities with that funding, 
how are you going to prioritize that?
    Mr. Cussatt. Thank you, Ms. Lee. I appreciate the question.
    So we do take a lot of time to prioritize, because, as you 
know, the demand is very high, and the supply is limited for 
our budget. We have a generous budget, but it certainly can't 
get us everything we need. So we have worked with--we work very 
closely with VBA. We do have a prioritized project list for 
2019 and 2020.
    So it is very clear among both parties where we are setting 
our sights, that we are going to declare victory on in any 
given year, and we make a commitment to that and focus on that. 
And then there are other projects on the list--
    Ms. Lee. Can we see that list--
    Mr. Cussatt. Absolutely--
    Ms. Lee [continued]. --please? Thank you.
    Mr. Cussatt [continued]. --we can share that list with you.
    Ms. Lee. Yes, just a question. There was concerns about the 
202 temporary positions, you know, do you plan on funding those 
positions and helping with this workload?
    Ms. Devlin. We are funding almost all of the positions in 
our 2020 budget, in the VBA budget. We do have sufficient FTE 
to manage the off-ramped or the claims that require human 
intervention that can't be processed through automation.
    Ms. Lee. Great. Thank you.
    Ms. Devlin, the Forever GI Bill provides some really 
promising opportunities for veterans in terms of increased 
education benefits and, as you know, the VET TEC pilot program 
will allow veterans to participate in information sciences, 
computer programming, you know, advance in an IT career. And as 
you mentioned in your testimony, you started to take provider 
applications and you mentioned--do you give sole responsibility 
to SAAs for vetting those applications or do you vet them as 
well?
    Ms. Devlin. So by statute the SAAs have the authority to do 
school approvals. I am going to have to get back to you on the 
record on whether VET TEC has any different stipulations in the 
legislation, I feel like there might be a bit of a nuance 
there. But, yes, we are taking applications for facilities and 
we have started taking applications from veteran students, even 
though it is not officially live yet for veteran students, we 
are taking the applications.
    Ms. Lee. Great. Yeah, I would like to know, just because it 
is a pilot program, whether or not you are putting some 
guardrails into place on that.
    Ms. Devlin, I also wanted to ask you, I understand that the 
VBA wants to round down to the nearest dollar the computation 
of COLA, the cost-of-living adjustment for veterans with 
service-connected disabilities, their survivors, and to those 
survivors receiving dependency indemnity compensation. VSOs are 
adamantly opposed to this measure and I have received letters 
from constituents concerned.
    What do you tell veterans who think this is a slippery 
slope to the erosion of their other veteran benefits?
    Ms. Devlin. What I would tell you is that we are focused on 
taking care of our veterans and making sure that we don't at 
any time think about cutting benefits. This is a way to 
continue veterans' benefits payments consistently, if they are 
eligible for service-connected disability or death and 
indemnity compensation, that they would continue to get those 
payments, they would just not receive the cost-of-living 
increase, which would be not an incredible amount of an 
increase in dollar value when you think about the monthly 
payments.
    Ms. Lee. Okay. Thank you.
    Real quickly, Mr. Davis. The American Legion testimony 
basically provided a suggestion that the TAP program possibly 
be implemented through intervals during a servicemember's 
career. Could you quickly comment on like the possibility and 
the oversight of that? And I am running out of time.
    Mr. Davis. I think I got my microphone on and I will say it 
just as quickly as I can talk, and I talk about--I think about 
as fast as I talk. But basically what we do is, it is a 
military life cycle is what we are going to, and this is what I 
really like. So, as a previous commander, I like the fact that 
the touch points for the individual, as they go through this 
military life cycle, when they get to their first base or the 
installation, they start preparing them for transition.
    And that sounds a little crazy, right? So you are coming 
into the military and you are preparing for transition, but it 
actually makes perfect sense. You are getting them ready for 
civilian transition in life, whether it is 20 years or 30 
years, it doesn't matter. So, if we talked about predatory 
schools, we talked about getting prepared for life, these are 
life skills.
    And so, yes, ma'am, I think I--I hope I answered your 
question. Yes, I think that is what they are talking about. So 
when I talk to my friends that are in the VFW and those, that 
is what they are looking for.
    Did that answer your question?
    Ms. Lee. Yes, thank you.
    I yield.
    Mr. Levin. Well, thank you to our witnesses, thank you to 
my colleagues for your great questions.
    With that, I would like to excuse our first panel, and I 
would like to invite our second panel to join us.
    [Pause.]
    Mr. Levin. All right. Well, we already introduced you all 
before, so we will jump right in.
    Mr. Murray, you are recognized for 5 minutes.

                  STATEMENT OF PATRICK MURRAY

    Mr. Murray. Chairman Levin, Ranking Member Bilirakis, 
Members of the Subcommittee, on behalf of the authors of the 
Independent Budget, DAV, PVA, and the VFW, we would like to 
thank you for the opportunity to present our views on this 
year's budget request specifically related to economic 
opportunity programs.
    Making sure that veterans are being employed in the right 
career for every one of them is incredibly important. One very 
important program veterans can use is the Vocational 
Rehabilitation and Employment Program, or VETERANS AFFAIRS&E. 
It provides critical counseling and other adjunct services 
necessary to enable service-disabled veterans to overcome 
barriers as they prepare for, find, and maintain gainful 
employment. Ensuring veterans achieve meaningful and prosperous 
careers will improve their financial situations, thereby 
mitigating issues such as unemployment and homelessness.
    VA budget documents state that the VETERANS AFFAIRS&E 
program will meet and sustain the congressionally-mandated goal 
of 1-to-125 counselor-to-client ratio; however, the latest data 
in VA's budget document also shows that from 2016 to 2018 the 
number of participants dropped by more than five percent, and 
during that same period the caseload also saw an 8.4 percent 
decline.
    It would appear that VA is able to meet the 1-to-125 goal 
by serving fewer veterans. However, it is important and 
beneficial, the VETERANS AFFAIRS&E program, for disabled 
veterans by providing them with the ability to increase their 
economic independence. Why are fewer veterans taking advantage 
of this program? Has VETERANS AFFAIRS&E instituted any new 
policies or practices that have deterred disabled veterans from 
seeking these services? What action is VA taking to increase 
awareness of the availability of this benefit and service? And 
we are concerned that maybe the lack of counselors over the 
past few years finally caught up to VA and participation in the 
program had dropped because of this.
    The IB is also concerned about the lower funding request 
for VA's education program. VA requested $6 million less than 
the amount appropriated in the previous year and we think that 
is taking a step back for this very important office. By VA's 
own projections, they will see an estimated increase of almost 
800,000 claims over the next 2 years. And there are also 
additions to the GI Bill, such as the STEM extension and the 
VET TEC program, along with implementation of the basic 
allowance for housing changes due to roll out in December. VA's 
emergency overtime budget was almost depleted last year due to 
the challenges with Forever GI Bill implementation and the IB 
believes that VA should be ready for additional overtime during 
the implementation this time around as well.
    Additionally, VA's aging IT infrastructure routinely 
requires additional resources and last-minute work-arounds in 
order to administer the education benefits. With these 
challenges, the IB believes the VA should be seeking more 
funding to make the necessary changes, not less.
    Each iteration of the GI Bill has come with its own 
challenges during implementation and the Forever GI Bill is 
just another example of that. While it is difficult to budget 
for breakdowns and failures, the method of planning for the 
worst and hoping for the best is something VA should look to do 
when making changes to the GI Bill. This lower budget request 
seems like VA is planning for the best and hoping for the best, 
without taking past challenges into account.
    Our organizations are encouraged to see the number of 
homeless veterans has decreased over the years, but the 
challenge is not over. Many of VA's programs help get veterans 
off the streets and many of the other programs aim to keep them 
from going back there.
    VA's homeless programs are comprehensive, including 
medical, dental, and mental health services, as well as 
specialized programs for post-traumatic stress disorder, sexual 
trauma, substance abuse disorder, and vocational 
rehabilitation. VA adopted a model of housing the veterans 
first rather than requiring them to be in recovery or treatment 
for mental health or substance abuse prior to receiving this 
housing assistance. Homeless prevention coordinators and peer 
mentors are essential to the success of the program, and help 
veterans navigate the system to get the services they need.
    We recommend VA increase the use of peer specialists, 
particularly those who, you know, went through recovery from 
substance abuse or have experienced homelessness. Peers who 
have had similar experiences are often able to connect on a 
more personal level and can help homeless veterans overcome 
challenges, actively engage in treatment, and maintain a 
healthy lifestyle.
    Lastly, we would like to see VA's adaptive grant programs 
revised. The adaptive vehicle and housing grants have monetary 
and usage caps that don't align with modern-day users. We would 
like these adaptive programs to be revised to allow more 
flexibility for disabled veterans to improve their activities 
of daily living.
    Mr. Chairman, this concludes our testimony. Again, the 
members of the Independent Budget thank you and the Ranking 
Member for the opportunity to testify on these important 
issues.

    [The prepared statement of Patrick Murray appears in the 
Appendix]

    Mr. Levin. Thank you, Mr. Murray.
    Mr. Henry, you are now recognized for 5 minutes. Oh, wait--
Mr. Lohmann, you are now recognized for 5 minutes.

                   STATEMENT OF LARRY LOHMANN

    Mr. Lohmann. Thank you, Chairman.
    Chairman Levin, Ranking Member Bilirakis, and distinguished 
Members of the Subcommittee, on behalf of National Commander 
Brett P. Reistad and the nearly 2 million members of The 
American Legion, we thank you for the opportunity to testify in 
this Economic Opportunity Subcommittee hearing.
    As we said in the Subcommittee's first hearing of the 
session, the 115th Congress and the Subcommittee on Economic 
Opportunity were very successful passing legislation. The 
success of this Committee is due to its commitment to 
bipartisan cooperation to do what is right for veterans that 
have served.
    Earlier this month before this Committee, we testified that 
we generally support the President's proposed budget for fiscal 
year 2020. Support for the proposed budget is not an 
endorsement that it is the perfect budget or that there is not 
more that we should be doing for our veterans. The American 
Legion believes it is a good faith estimate that funds the VA 
and is responsible to the American taxpayer.
    As VA continues to serve the veterans of this Nation, it is 
vital that the Secretary has the necessary tools and resources 
to ensure veterans receive timely, professional, and courteous 
service. The American Legion calls on this Congress to ensure 
that funding for VA is maintained by implementing the 
President's budget request.
    The American Legion recognizes at a time when most Federal 
agencies are experiencing a decrease in their respective 
budgets under the President's proposal, the VA, with assistance 
from this critical Subcommittee and the whole Committee, will 
receive a much-needed increase.
    While the proposed budget is sufficient, The American 
Legion believes VA must provide greater focus on the economic 
concerns of our veterans and ensure education services meet the 
standards of excellence veterans deserve.
    The American Legion has long been concerned programs in the 
VA that provide assistance related to economic opportunity for 
veterans, their dependents and survivors have been overlooked. 
The landscape of education benefits has evolved rapidly, from 
the Montgomery GI Bill, Post-9/11 GI Bill, to the present with 
the essential implementation requirements of the Harry W. 
Colmery Veterans Educational Assistance Act, named for its 
author and our past National Commander.
    More veterans are using VA Educational and Vocational 
Rehabilitation benefits to go to school than a decade ago, 
which led to the creation of Vets Success On Campus, or VSOC 
program to cater to the growing student veteran population. The 
American Legion believes Congress needs to continue investing 
in on-campus base support resources for student veterans, to 
include expansion of the VSOC program, and other programs 
reinforcing peer-to-peer support or grant funds to develop 
veterans' centers of excellence.
    Congress must also work closely with the Department of 
Education and VA to ensure taxpayer dollars are spent 
responsibly at reputable institutions. Legislation addressing 
the 9010-loophole requiring transparency and regular reporting 
will ensure student veterans are given the right resources to 
utilize their benefits properly, maintaining the fiduciary duty 
to the American taxpayer.
    The American Legion is also pleased to see in VA's budget 
proposal the intention to meet the congressional mandate of a 
1-to-125 counsel-to-client ratio. The American Legion has 
sought this compliance associated with VocRehab and employment 
for some time and notably at our 2016 National Convention 
passed a resolution in support of this goal. However, our 
optimism is guarded, because the compliance in part appears to 
be aided not only by additional funding, but also by a five-
percent decrease in VocRehab participants.
    As we remain concerned with the decrease in participants in 
this beneficial program, we urge Congress to pass legislation 
that would change the 12-year delimiting date for eligibility 
to Chapter 31. The standard period of eligibility for VocRehab 
benefits is limited to 12 years from the date of separation 
from military service or the date of notification by VA of a 
service-connected disability rating. Unfortunately, not all 
disabled veterans are aware of their possible eligibility when 
separating from their service and some may not need VocRehab 
until later in their career.
    Congress must eliminate the 12-year delimiting period for 
VA Chapter 31 services to ensure disabled veterans with 
employment handicaps, including those who qualify for 
independent living services, qualify for VETERANS AFFAIRS&E 
services for the entirety of their employable lives.
    Finally, The American Legion supports VA's request for the 
newly formed Transition and Economic Development Office, to 
support the transition from military to civilian life and 
accelerate the economic empowerment and development of 
transitioning servicemembers, veterans, and their families.
    VA established this office to ensure the entire period of 
military transition starting from 365 days before separation, 
the first year of civilian life is efficient and thorough. TED 
is intended to ensure through a coordinated effort that 
servicemembers leaving the military have an understanding and 
easy access to all benefits and resources they are entitled 
once they are separated from military service.
    Less than 15 percent of transitioning servicemembers have 
attended the 2-day courses. In addition to properly funding 
this program, The American Legion recommends that the course be 
mandated for servicemembers at different intervals of their 
careers before separation or transitioning into the civilian 
sector, along with pre-counseling for those servicemembers 
intending to leave the military.
    We recognize not every servicemembers transitions for the 
same reason. Servicemembers should be afforded the opportunity 
to participate in training that fits their post-service 
objectives.
    The American Legion appreciates the opportunity to comment 
on the budget areas overseen by this Subcommittee and would be 
happy to answer any questions you might have.
    Thank you.

    [The prepared statement of Larry Lohmann appears in the 
Appendix]

    Mr. Levin. Thank you, Mr. Lohmann.
    Mr. Hubbard, you are now recognized for 5 minutes.

                  STATEMENT OF WILLIAM HUBBARD

    Mr. Hubbard. Chairman Levin, Ranking Member Bilirakis, and 
Members of the Subcommittee, thank you for the very warm 
welcome to start with and thank you for inviting Student 
Veterans of American to provide our testimony on the fiscal 
year 2020 budget submission of the Department of Veterans 
Affairs.
    Established in 2008, SVA is a national higher education 
nonprofit founded to empower student veterans as they 
transition back to civilian life. With over 1500 campus 
chapters across the United States and in four countries 
overseas, serving 750,000 student veterans, SVA maintains a 
lifelong commitment to each student's success from campus to 
employment.
    As we often note, we call those who serve student veterans, 
not veteran students, because education is the vehicle of 
empowerment, not the destination. This distinction is 
important, because the way we talk about certain populations 
has an effect on the influence and the legislation that 
ultimately results from those discussions. In fact, in 2018, 
the American Enterprise Institute published findings describing 
this cycle in detail.
    There are several topics which I would like to cover in 
brief, and I look forward to any questions this Committee may 
address afterward.
    To begin, the budget request for VBA's Education Services. 
In VA's current budget proposal, we noticed a startling 
reduction in the request for Education Services funding. Until 
the Forever GI Bill is fully implemented and spikes in workload 
are fully understood, SVA strongly recommends VA to maintain 
the fiscal year 2019 staffing levels.
    Next, VETERANS AFFAIRS&E, short for Vocational 
Rehabilitation and Employment. This program has significant 
progress to make. Currently, VETERANS AFFAIRS&E services 
provide veterans five tracks to employment, including 
employment through long-term services. We are grateful for the 
hard work of VA on seeking to achieve the congressionally-
mandated counselor-to-student ratio, though it is still unclear 
if this ratio is being met.
    More importantly, however, feedback from student veterans 
indicates the quality of counselors varies widely and 
ultimately yields uneven outcomes. We look forward to continued 
work with VA and this Congress on refining the focus of the 
program on outcomes. And we appreciate VA's conscious effort on 
fielding tele-counseling technologies.
    Turning to the GI Bill Comparison Tool. In VA's budget 
justification, the Department cites the GI Bill Comparison Tool 
as an important resource for prospective and current student 
veterans. As it stands, there is a lack of coordination between 
the Department of Education and VA, specifically regarding the 
College Navigator, College Scorecard, and the GI Bill 
Comparison Tool, thus reducing the overall delivery of powerful 
data to veterans.
    Public Law 112-249, mandated in 2013, the statutory 
requirement for VA to launch a centralized mechanism for 
tracking and publishing feedback from students, similar to 
Amazon reviews, yet this functionality is still missing. We 
strongly believe that veterans should be given every 
opportunity to be informed consumers of their benefits and 
these reviews are a missing component of that decision-making 
process.
    On to economic opportunity at VA. Our overall concerns with 
the VA's budget request has one common denominator. At present, 
VA lacks an Under Secretary-level leader exclusively focused on 
economic opportunity. To be clear, this is not a lack of 
leadership due to personality, it is instead a structural gap 
in such programs that VA's current enterprise structure has. As 
such, we strongly support the establishment of an 
Undersecretary of Economic Opportunity at VA, who would report 
directly to the Secretary and maintain accountability to 
Congress. This proposal would flatten and streamline some of 
VA's currently overloaded bureaucracy.
    And, finally, the Montgomery GI Bill. Just last week, we 
reaffirmed our concerns that the practice of deducting $100 per 
month from our newest servicemembers for the Montgomery GI Bill 
is still standard practice at basic training, despite the 
existence of the modernized Forever GI Bill that is provided at 
no monetary cost. In very limited and rare instances, the 
Montgomery GI Bill may be a better option for a few 
individuals, yet the program is being presented as a lucrative 
benefit to all new recruits; this needs to change. For a vast 
majority of those who do not use the Montgomery GI Bill, their 
$1200 is rarely recovered. We hope to work with this Committee, 
VA's transition experts, and the Department of Defense to 
address this disparity undermining the bottom line for our 
troops.
    We thank the Chairman, the Ranking Member, and the 
Subcommittee Members for your time, attention, and devotion to 
the cause of veterans in higher education.
    Thank you.

    [The prepared statement of Willliam Hubbard appears in the 
Appendix]

    Mr. Levin. Thank you, Mr. Hubbard. Thank you to all our 
witnesses. I now recognize myself for 5 minutes to begin our 
questions.
    Mr. Murray, I was glad to meet with you in a group not too 
long ago where we discussed some of our priorities for economic 
opportunity, and one of the issues we discussed was the VA's 
goal of an average of 125 students to one counselor, the ratio 
in the Vocational Rehab and Employment Program, and whether 
that is appropriate considering the amount of time counselors 
need to spend on administrative matters.
    The budget maintains level funding for the VETERANS 
AFFAIRS&E program. We are moving 127 full-time employees to 
management and support. How do you anticipate these factors 
would affect the counselor's workload and their ability to meet 
veterans' employment needs?
    Mr. Murray. So we hope with the addition of the ability to 
do basically teleconferencing it might allow the counselors to 
focus more on the face-to-face interaction, what they call the 
knee-to-knee, providing that valuable feedback. We, again, are 
a little concerned about the dip in the participation. We would 
like to see more up-front kind of information as veterans' 
transition.
    A lot of feedback we keep hearing from student veterans and 
veterans that age that they never knew about this program. So 
we would like to see, you know, the office kind of form a 
little bit more outreach, so that the 1-to-125 ratio with the 
new abilities they have maybe can be revisited after their new 
abilities have kind of been enacted for a little while.
    Mr. Levin. I appreciate that, Mr. Murray.
    I wanted to ask about the GI Bill Comparison Tool. And it 
was launched about 5 years ago and at the time it was a welcome 
step forward to help veterans choose an educational 
institution, but I am sure, as many of you agree, it could be 
improved upon.
    Mr. Hubbard, in your testimony you made a couple of 
recommendations to enhance the tool. The first would be to 
allow veterans to rate their schools and the second, if I got 
it right, would be maintaining data for closed schools. Could 
you elaborate on the second suggestion, that is maintaining 
data for closed schools? And specifically how do you envision 
this change could strength veterans' understanding of their 
options?
    Mr. Hubbard. Thank you for the question, Mr. Chairman.
    It is a really important topic because, as schools close, 
that data at present is essentially disappearing from the 
network, and that is important for researchers to have, it is 
important for the wider community to have. And I think in 
particular, as we look to strengthen protections for student 
veterans, having that ability to see trends of schools closing 
is incredibly important.
    I will also note that this data is separate from what the 
Department of Education has available. And so if it is not 
being found on this tool, it is essentially being lost.
    Mr. Levin. To the rest of the panel--and, Mr. Hubbard, you 
can speak to this as well--what other improvements to the GI 
Bill Comparison Tool should we be considering and what would be 
the most important factors for prospective student veterans 
when choosing where to use their GI Bill benefits?
    Mr. Murray. Chairman, obviously, a better, more informed 
consumer up front removes a lot of the clean-up mess, the 
millions of dollars wasted on these benefits at poor-performing 
universities.
    One thing that we have discussed is adding different 
options so that schools can kind of announce and broadcast the 
benefits they have. If they have priority enrollment for 
veterans, for example, not every school has that, that is kind 
of a recruiting tool. With some oversight, so that they are 
not, you know, completely being fraudulent about what they 
offer, but if they offer additional services that don't meet 
the eligibility for the tool, a way that they can add that in 
to help promote great benefits they offer.
    Mr. Levin. Lastly, I wanted to just touch briefly on 
housing. In the event of a school closure, many veterans are 
losing not only their pursuit of higher learning, but their 
housing as well, which is leading to more and more 
homelessness.
    For any on the panel, would you support continuing housing 
stipend payments to students impacted by school closures? 
Everybody is nodding yes.
    Mr. Hubbard. Mr. Chairman, I think for a period of time 
that is imperative. The ability to maintain housing while 
seeking the next opportunity, whether that is to pursue higher 
education at a separate institution or simply to figure out the 
next step, having that housing stipend available is absolutely 
critical.
    Mr. Levin. Anyone else care to comment?
    Mr. Murray. We wholeheartedly agree.
    [Laughter.]
    Mr. Levin. Thank you. Well, very good.
    I now want to turn my friend Ranking Member Bilirakis, who 
is recognize for 5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman, I appreciate it 
very much.
    Okay, this is for the entire panel. If you had a magic wand 
and could change one thing about the President's budget for 
economic opportunity programs, what would you change and why? 
Let's start from here, please.
    Mr. Murray. With my voodoo magic, I would make sure that 
the IT systems are fully implemented and fully funded up front, 
so that we don't run into problems we have had in the past.
    Mr. Bilirakis. Amen to that.
    Yes, please, sir.
    Mr. Henry. I would concur with my colleague. I would say 
that IT is probably one of the biggest concerns right now.
    Mr. Bilirakis. Very good.
    Mr. Villanueva. And I also concur with my IB partners. And 
we would add that the recommendation for the 50 million 
increase above baseline would be beneficial, if there could be 
a change that we would recommend.
    It should be noted that VA, when they were up here 
previously had just noted that there was a higher demand for IT 
resources than there was funding, and we believe that actually, 
you know, concurs with our statement of the recommendation for 
the 50 million increase.
    Mr. Bilirakis. Very good.
    Mr. Lohmann. I think what important new programs are and 
things we would like to see implemented, one of the things we 
would like to see is oversight of the TAP program as it is now, 
just making sure the money is going to where it is supposed to 
be, and TED is stood up properly.
    Mr. Bilirakis. Very good.
    Mr. Hubbard?
    Mr. Hubbard. Mr. Chairman, I think I am going to join my 
colleagues on the point of IT, but make a specific caveat to 
that, which is that in the past, particularly with the 
implementation of the Forever GI Bill, we found that the IT 
resources were in competition. There was nobody necessarily 
fighting for those IT resources being devoted to the 
implementation initially; though they were authorized, they 
were not appropriated, and they did not find their way to 
making that program happen, which was a major contributing 
factor in the overall challenges that we saw come that 
semester.
    And so I think--well, SVA strongly supports the Independent 
Budget's proposal to have an additional $50 million, but 
specifically we would like to see some caveats that ensure that 
VBA has those resources devoted to those programs.
    Mr. Bilirakis. Very good. Thank you.
    For the entire panel again. One of the legislative 
proposals that are included in the budget request is a proposal 
to cap the amount of tuition and fees paid out under the Post-
9/11 GI Bill to certain public schools for flight training. 
What is your view of this proposal?
    Let's start again from here, please.
    Mr. Murray. Sir, while the GI Bill is a fantastic tool, we 
don't believe it is a blank check, and we see that this is a 
loophole for institutions to partner with public organizations 
and basically charge the Government whatever they want. We 
would like to see that corrected.
    Mr. Bilirakis. So you are in agreement, we need a cap?
    Mr. Murray. Yes, sir.
    Mr. Bilirakis. Okay.
    Mr. Murray. Or a fix.
    Mr. Bilirakis. Okay.
    Mr. Murray. Yes.
    Mr. Bilirakis. Very good. Thank you.
    Mr. Henry. I also concur with my colleague, we feel the 
same.
    Mr. Bilirakis. Yes.
    Mr. Villanueva. At DAV, we are a resolutions-based 
organization and we don't have a resolution that pertains 
specifically to this issue, although we have seen it come up, 
so we don't take a position on that.
    Mr. Bilirakis. All right. Thank you.
    Mr. Lohmann. We agree, we agree with the provisions for the 
caps in the proposal.
    Mr. Hubbard. Mr. Ranking Member, we agree with it. I think 
it is important to also realize that it is really more than a 
flight loophole, it is actually just a wide-open loophole, 
because ultimately, whether it is flight programs or other 
programs, this contract clause that allows schools to take 
advantage of these programs and this very generous benefit 
given to veterans by the American taxpayers, that needs to be 
taken a look at.
    Mr. Bilirakis. Very good. Thank you.
    I guess I have about a minute. What steps does VBA--this is 
for Mr. Hubbard and Mr. Murray--what steps does VBA need to 
take to instill confidence and regain trust of veterans when it 
comes to GI Bill payments? Based on what you would know today, 
do you believe the VA will be ready to successfully implement 
these changes by December 1st, 2019?
    Whoever--well, let's just go with Mr. Hubbard and Mr. 
Murray, if that is okay.
    Mr. Murray. So, sir, I very much hope they are ready to go, 
but I think an outreach campaign to reassure people, whether it 
is traditional mailers, email, social media, whatever it might 
be, to let them know that they are there, and they are going to 
take care of them. A lot of the problem this fall was people 
just didn't know.
    Mr. Bilirakis. Right.
    Mr. Murray. They were left kind of swinging and they were 
unsure of if they were going to receive their benefits or not. 
An aggressive outreach campaign to let them know we are here to 
take care of you I think would help to mitigate that.
    Mr. Bilirakis. Yes, Mr. Hubbard?
    Mr. Hubbard. I am encouraged by our colleagues at the VA's 
responses to some of the questions from various Members of the 
Committee earlier today. I think that, if we can make sure that 
that happens, that would be terrific. I do believe still, 
though, that the additional funding would be necessary to 
ensure that, if only for a cushion. And if that money goes 
unutilized, there are many more things that it should be used 
for. And so ensuring that they have the full breadth of 
resources is imperative, but I do know that my colleagues at 
the VA are highly capable and highly skilled, and I am 
encouraged by their responses.
    Mr. Bilirakis. Very good.
    I yield back, Mr. Chairman. I appreciate it.
    Mr. Levin. Thank you, Mr. Ranking Member.
    Seeing as though there are no further questions, we can 
begin to bring this hearing to a close. However, before I make 
my closing statement, I would like to again recognize the 
Ranking Member for any remarks he would like to make.
    Mr. Bilirakis. No, I think we are done, but I appreciate 
all the testimony and I look forward to working with you. And 
please don't ever hesitate to reach out, because we are--again, 
we are all in it to help our veterans and that is why we sit on 
this Committee, because whatever is good for veterans is what 
we want.
    And I appreciate, Mr. Chairman, you holding this hearing 
and allowing us to ask the appropriate questions. Thank you.
    Mr. Levin. I thank the Ranking Member, in the spirit of 
bipartisanship that this Committee has a long tradition of and 
will continue to have a long tradition of.
    I thank our witnesses for joining us today.
    The VA, along with the Department of Labor and Department 
of Defense, are rapidly implementing the many changes that we 
have made to veterans' benefits. It is not an easy task, and 
their schedule is ambitious and aggressive. I do remain 
concerned that the budget we have considered today would not 
allow the VA to properly implement the Forever GI Bill.
    That being said, our Committee will continue to conduct 
oversight of the programs that we discussed today, and it is my 
hope that agencies will receive every resource they need to 
meet the demands of our servicemembers and veterans.
    With that, I will say that all Members have 5 legislative 
days to revise and extend their remarks, and to include 
additional remarks.
    Again, I thank all of you for coming and, without 
objection, the Subcommittee stands adjourned.

    [Whereupon, at 3:53 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

                 Prepared Statement of Margarita Devlin
    Good morning, Chairman Levin, and distinguished Members of the 
Committee and Subcommittee. Thank you for the opportunity to testify 
today in support of the President's Fiscal Year (FY) 2020 Budget for 
the Veterans Benefits Administration. Accompanying me today is Dominic 
Cussatt, Principal Deputy Assistant Secretary, Office of Information 
and Technology (OIT).

FY 2020 Budget Request

    The President's FY 2020 Budget requests $3 billion in discretionary 
funding. The discretionary request is an increase of $44 million, or 
1.5 percent, over the enacted FY 2019 budget. It will sustain the 
progress we have made to improve Veterans' benefits claims processing 
and the 125:1 Veterans to Vocational Rehabilitation Counselor ratio and 
implement the Case Management Solution. This request will provide 
additional resources to attack burgeoning issues related to fraud, 
waste, and abuse, and expand elements of the Transition Assistance 
Program. The President's FY 2020 Budget also requests $129.5 billion in 
mandatory advance appropriations for FY 2021, $6.3 billion or 5 percent 
over 2020.

    With the resources requested in the 2020 Budget, VA will be able to 
provide:

    <bullet>  Vocational rehabilitation and employment benefits for 
more than 124,000 disabled Veterans;
    <bullet>  Education and training assistance for about 877,000 
Veterans and family members;
    <bullet>  New home loan guaranties for more than 562,000 Veterans, 
Servicemembers, surviving spouses, and members of the Reserves and 
National Guard;
    <bullet>  Life insurance programs for over 5.9 million Veterans, 
Servicemembers, and their families (that is, total lives insured); and
    <bullet>  Transition and economic development assistance to nearly 
400,000 Veterans, Servicemembers, and their families.

    The President's FY 2020 Budget request also includes funding for 
critical technology investments and other initiatives necessary to 
timely provide Veterans, their families, and survivors with the 
benefits and services they earned and deserve.

Business Transformation

    Business transformation is essential if we are to move beyond 
compartmentalization of the past and empower our employees serving 
Veterans in the field to provide world-class customer service. This 
means reforming the systems responsible for claims, appeals, and GI 
Bill benefits. OIT is a critical partner and we collaborating to create 
the best experience for all Veterans. OIT is a critical partner. We 
have developed a Business Plan that prioritizes the IT required for 
success, and we are addressing governance.
    By moving from the Veterans Benefit Management System (VBMS) to the 
Benefits Integration Platform, OIT will leverage existing architectural 
designs and deliver a modern platform with a cloud-based architecture 
in which individual components are delivered as microservices that can 
connect with Application Programming Interfaces. This agile approach 
provides more flexibility and speeds delivery of changes and 
improvements.

Forever GI Bill

    Since the passage of the Harry W. Colmery Veterans Educational 
Assistance Act of 2017 (Colmery Act), VA has implemented 28 of the 
law's 34 provisions. Twenty-two of the law's 34 provisions require 
significant changes to VA IT systems, and VA has 202 temporary 
employees in the field to support this additional workload.
    In accordance with the Forever GI Bill Housing Payment Fulfillment 
Act of 2018, VA established a Tiger Team tasked to resolve issues with 
implementing sections 107 and 501 of the Forever GI Bill. In February 
2019, VA awarded a new contract to develop the right solution for 
implementing sections 107 and 501. By the spring semester of 2020, the 
Veterans Benefits Administration (VBA) expects that all enrollments 
will be processed according to the Colmery Act. VBA will recalculate 
benefits based on where Veterans take classes, and we will work with 
schools to make payments to which Veterans are entitled under sections 
107 and 501 retroactive to the first day of August 2018, the effective 
date for those sections.
    As VA moves forward with implementation, VBA will continue to 
regularly update our Veteran students and their institutions of 
learning on our progress and what to expect. VA has already modified 
its definition of ``campus'' to comply with statutory requirements and 
in doing so has lessened the administrative burden on schools to report 
housing data to VA.
    The FY 2020 Budget request also supports the remaining provisions 
of the Colmery Act. The Veteran Employment Through Technology Education 
Courses (VET TEC) is a 5-year tuition and housing assistance pilot 
program that will help Veterans advance in an IT career. VET TEC pays 
for Veterans to take classes in one of five areas: information science, 
computer programming, data processing, media applications, and computer 
software. VA began accepting training provider applications in March 
2019, and we will begin accepting Veteran applications this month. The 
implementation of the VET TEC program in 2019 and sections 107 and 501 
are projected to increase claims completed for the next 2 years.
    Beginning in August 2019, VA will provide up to 9 months of 
additional Post-9/11 GI Bill benefits to certain eligible individuals 
through the Edith Nourse Rogers STEM scholarship. The additional 
entitlement will assist qualifying beneficiaries to obtain degrees in 
science, technology, engineering, and math; or for graduates of such 
programs to obtain a teaching certificate. Priority will be given to 
individuals who are entitled to 100 percent of Post-9/11 GI Bill 
benefits and to those who require the most credit hours.
    The FY 2020 Budget supports VA's efforts to implement 28 of 34 
provisions of the Colmery Act by August 2020. In August 2020, VA will 
eliminate the 40-percent benefit level and expand the 60-percent 
benefit level under the Post 9/11 GI Bill program. The remaining 
provisions, including the extension of the Yellow Ribbon program to 
Active duty Servicemembers, will go into effect in 2022. The FY 2020 
Budget request will provide sufficient funding and staffing levels for 
Education Service to continue providing access to timely and accurate 
delivery of education benefits.

Claims and Performance

    In 2020, VBA will continue to prioritize Veterans and their 
families first. VA strives to complete all rating claims in fewer than 
125 days. VBA continues to work to modernize the disability claims 
process to increase processing timeliness. It is important to highlight 
that VBA will always have an inventory of claims that take longer than 
other claims because of complexity and VA's legal obligations to 
assist. VBA has completed over 438,000 claims (within 2 percent of last 
year) through the end of January 2019. VBA has completed over 968,000 
non-rating disability claims through January 2019. These claims took an 
average of 83 days to complete, which is a 21-percent decrease in the 
average time to process claims compared to January 2018.
    VBA continues to implement technical improvements to improve the 
speed and accuracy of disability claims while reducing costs. These 
initiatives include the consolidation of centralized mail processing. 
Through this technical improvement, mail is directed to 18 centralized 
locations where it is scanned and becomes part of an electronic 
database. This reduces lost files and allows files to be moved and 
processed rapidly. VBA's other sustained improvement falls under the 
National Work Queue, which continues to prioritize and distribute 
claims to regional offices based on their capacity.
    Through these improvements, VBA has reduced the dependency 
inventory from 87,314 claims in October 2017 to 43,503 claims in 
January 2019 (50-percent reduction). VBA achieved this reduction while 
VBA's overall inventory and Average Days Pending have remained 
relatively static (355,955 and 94.7 days in January 2019, 
respectively), despite an increase in overall receipts.

Transition and Economic Development

    The Office of Transition and Economic Development (TED) maintains 
oversight and management of Military-to-Civilian Transition Services as 
well as the development of economic initiatives that focus on 
empowering future and current Veterans to achieve maximum and 
comprehensive economic well-being. VA requests $82.4 million in budget 
authority to fund the discretionary portions of TED. The 2020 Budget 
will support funding for Transition Assistance Program Military Life 
Cycle classes, a 5-year longitudinal study, and a full day of course 
instruction from 6 to 8 hours.
    VBA created TED in late 2018 to support seamless transition from 
military service to civilian life and accelerate economic empowerment 
and development for transitioning Servicemembers (SM), Veterans, and 
their families. VA is also realigning its Chapter 36 Education and 
Career Counseling program to focus on increasing utilization through an 
improved alignment with military to transition activities and education 
beneficiaries.
    Since the passage of the Veterans Opportunity to Work to Hire 
Heroes Act of 2011 (VOW Act) that mandated participation in the TAP by 
all transitioning SMs (with a few limited exceptions), VA has been 
collaborating with its interagency partners, including the Departments 
of Defense and Labor, to prepare separating, retiring, or demobilizing 
SMs for their transition to Veteran status. By the same token, in 
August 2018, Congress passed, and the President signed, the John S. 
McCain National Defense Authorization Act for Fiscal Year 2019 (2019 
NDAA) that made improvements to TAP, including a mandate for one day of 
instruction on VA benefits and services and a requirement that 
transitioning SMs begin their pre-separation transition counseling no 
later than 365-days before the date of separation.
    Approximately 226,000 SMs are expected to transition from military 
service to civilian life annually over the next 4 years. TED delivers 
mandatory VA Benefits Briefings to 100 percent of eligible 
transitioning SMs at more than 300 military installations worldwide, as 
well as provide individual assistance and support to Department of 
Defense components of Transition Goals, Plans, Success, Military Life 
Cycle, and Capstone events.
    In 2017, attendance at VA TAP events was about 350,000. With the 
expansion of instructional hours in accordance with the 2019 NDAA, as 
well as deployment of additional Military Life Cycle courses made 
available to SMs while still on Active duty, VA expects an increase in 
transition assistance workload to approximately 400,000 (an increase of 
about 15 percent). In order to assess the effectiveness of these 
events, in 2019, VA will begin a 5-year post-separation TAP 
longitudinal study and evaluation of up to 150,000 recently-separated 
Veterans to gain insights on their understanding of, and access to, VA 
benefits.
    Executive Order 13822, ``Supporting Our Veterans During Their 
Transition from Uniformed Service to Civilian Life,'' sets the goal for 
Veteran suicide prevention in which VA will begin, for the first time, 
conducting outbound calls to all Veterans throughout their first year 
of transition to inform them of benefits and services available to 
them. In FY 2020, VA expects to make more than 600,000 outbound calls 
to recently-separated Veterans.
    To accelerate economic empowerment and development for 
transitioning SMs, Veterans, and their families, VBA has focused 
leveraging all VA benefits and services to holistically support their 
economic well-being. To address gaps that cannot be addressed because 
of statutory or fiscal constraints, VBA has aligned economic 
development with transition preparation to foster seamless partnerships 
through community-based economic investment initiatives with external 
organizations so Veterans and their family members are better 
positioned economically.
    The 2020 Budget requested resource level supports performance 
measures that drive continuous improvement and accountability for 
Veterans, Servicemembers, and their families.

Loan Guaranty

    The 2020 Budget request of $200.4 million from Loan Administration 
and $20.8 million in General Operating Expenses funds the discretionary 
costs of the housing loan programs that help support the mission to 
provide home loan guaranty benefits and Specially Adapted Housing 
grants to help buy, build, repair, retain, or adapt a home for personal 
occupancy.
    The VA Home Loan program continues to streamline automation efforts 
to maintain parity with the overall mortgage industry. VA is focused on 
redesigning the Loan Guaranty Program's loan servicing system used to 
ensure, at least to the extent within VA's control, that Veterans and 
Servicemembers retain their homes. The redesigned VA Loan Electronic 
Reporting Interface (VALERI) will transform the entire lifecycle for VA 
loans in three ways. Through ``Automation,'' VA is developing a 
database that will overhaul current program capabilities and will 
further expand the system footprint to include loan origination, 
valuation, property acquisition, and oversight functions to support 
Veterans obtaining VA-guaranteed loans. Through ``Collaboration,'' the 
redesigned VALERI will standardize disparate data sources, integrate 
third party systems, and connect external stakeholders to create a 
transparent and holistic view of a loan's lifecycle. This will enable 
stakeholders to more efficiently and more effectively deliver VA's home 
loan guaranty benefit to Veterans. Finally, the redesigned VALERI will 
allow ``Evaluation'' through advanced data analytics and reporting to 
support more robust oversight and transparency of lender and servicer 
performance. This will enable Veterans to better evaluate loan options 
and status, while VA addresses high-risk programmatic challenges with 
data-driven solutions. These efforts will allow VA Home Loan 
participants a more simplified experience in securing and maintaining a 
VA-guaranteed loan.

Vocational Rehabilitation and Employment (VR&E)

    The VR&E 2020 budget request supports performance measures designed 
to drive continuous improvement and achieve optimal outcomes for 
Veterans. In FY 2018, VA revised VR&E's performance measures to align 
with agency goals and priorities. Per Public Law 115-244, section 244, 
VR&E developed a ratio-based field realignment plan to ensure the ratio 
of Veterans to full-time employment equivalents within any program of 
rehabilitation conducted under chapter 31 of title 38, United States 
Code, does not exceed 125 veterans to one full-time employment 
equivalent (FTEE). To date, 157 of the 169 additional VRC FTEEs were 
hired to reduce the counselor caseload to 125 to 1.
    VR&E Service collaborated with OIT on development of Case 
Management Solution System (CMSS) to replace VR&E's 20-year-old legacy 
system, Corporate WINRS. We anticipate releasing a Request for Proposal 
in mid-FY 2019 to acquire these capabilities via General Operating 
Expense Services. Concurrently, VR&E is pursuing a wide-reaching 
modernization effort that will include numerous opportunities to 
incrementally leverage existing people, processes, and technology to 
more efficiently prepare us to seamlessly transition into the new CMSS.
    As VR&E implements these changes, counselors will be able to manage 
workload more efficiently and effectively, allowing more time to 
provide high-quality counseling and employment services to VR&E 
participants.
    Other VR&E Modernization efforts include the design and deployment 
of a Centralized Mail strategy, Virtual Assistant (Artificial 
Intelligence) tools to streamline and integrate communications with 
VR&E program participants, and Electronic Invoicing (e-Invoicing) also 
known as Invoice Payment Processing System. Additionally, VR&E deployed 
the Competency Based Training System in 2019. This system will deliver 
competency assessments to experienced counselors, and provide a direct 
positive impact to Veterans, as Veterans will receive standardized 
services from well-trained and competent employees. This system will 
need to be maintained for optimal performance.
    VR&E is transforming the Quality Assurance (QA) program. The QA 
case review instruments have been revised to focus on specific issues 
to allow for greater tracking and analysis, identification of training 
needs, and a better reflection of current performance. The QA Web 
system, used to record the results of reviews and generate reports, is 
being updated with the revised review format to allow for regional 
offices to complete Local QA in the system.
    VBA continues to execute the congressionally mandated 20-year VR&E 
Longitudinal Study of Veterans who began VR&E programs in 2010, 2012, 
and 2014. Reports are submitted to Congress annually on the long-term 
benefits of participating in the Chapter 31 program. VR&E will 
continuously analyze trends among Veterans receiving services and 
improve and adapt services to their changing needs.

Conclusion

    Thank you for the opportunity to appear before you today to address 
VBA's FY 2020 Budget. The resources requested in this budget will 
ensure VBA remains on track to meet Congressional intent to serve 
Veterans' needs.
    The budget request is the blueprint for how VBA will focus 
resources to modernize our delivery of benefits and services, become 
more efficient, leverage partnerships to execute our exceptional 
mission, and fulfill our vision to be a top-tier customer-service 
agency. Mr. Chairman, I look forward to working with you and this 
Committee. I am eager to continue building on the successes we have had 
so far and to continue to fulfill the President's promise to provide 
care to Veterans when and where they need it. There is significant work 
ahead of us and we look forward to building on our reform agenda and 
delivering an integrated VBA that is agile and adaptive and delivers on 
our promises to America's Veterans.

                                 <F-dash>
                           MR. BRIAN S. DAVIS
    Chairman Levin, Ranking Member Bilirakis, distinguished members of 
the Committee, thank you for the opportunity to appear before you for 
this oversight hearing on ``Fiscal Year 2020 President's Budget: 
Requests Related to Veterans' Readjustment Benefits.''
    My statement will focus on the implementation of changes made to 
the Transition Assistance Program (TAP) as a result of the Fiscal Year 
2019 National Defense Authorization Act (FY19 NDAA), and how Service 
members will continue to flow from DoD through transition into the 
Departments of Veterans Affairs (VA) and Labor (DOL).Each have a 
primary responsibility for a portion of transition and we will continue 
to work together to prepare transitioning Service members for their 
next steps post-transition.
    The TAP is a collaborative effort among seven federal partners. The 
federal agencies participating in the TAP are committed to supporting 
and facilitating transition success for departing Service members. 
Through robust interagency coordination, the program is overseen and 
monitored via the TAP interagency governance structure. The TAP 
interagency governance structure consists of:

    <bullet>  Executive Council (EC): The EC is composed of senior 
leaders from DoD (including the Military Components), VA, DOL, 
Department of Homeland Security (DHS), Department of Education (ED), 
Office of Personnel Management (OPM) and Small Business Administration 
(SBA) who collaborate and coordinate the delivery of transition 
services to eligible Active and Reserve Component (RC) Service members. 
The EC provides oversight and strategic guidance for the TAP 
Interagency Governance Structure.
    <bullet>  Senior Steering Group (SSG): The SSG consists of members 
from DoD (including the Military Components), VA, DOL, DHS, ED, OPM, 
and SBA. The SSG resolves issues, concerns and friction points among 
agencies providing transition assistance; promotes their alignment of 
effort; measures their progress; applies synergies and improvements; 
ensures legal review of proposed actions; and coordinates with internal 
agency leaders as appropriate. The SSG reports to the EC.
    <bullet>  Transition Assistance Interagency Work Group (TAIWG): The 
TAIWG meets monthly and consists of representatives from all agencies 
participating in the TAP. This work group develops procedures and 
guidance for the operation of the EC, SSG, and other work groups as 
well as makes recommendations to the SSG on matters pertaining to the 
TAP, which cross the TAP governance domain. There are five subordinate 
work groups that report to the TAIWG: the Curriculum, Data Sharing/
Information Technology, Performance Management, Strategic 
Communications, and the Reserve Component Work Groups.

    I will focus the remainder of my statement on the Department's 
implementation of the requirements set in the FY19 NDAA, as it applies 
to the TAP, and provide a few updates since the Department last 
testified about the TAP before this Committee in November 2017. The 
Department places heavy emphasis on the TAP being an adaptive, 
evidence-based program.
    Accordingly, we continuously seek to improve the program to ensure 
it meets the needs of our transitioning Service members and aligns with 
a changing military environment and population.
    I will highlight some of the improvements, which build upon the 
original core objectives of the TAP, and the efforts currently underway 
to make changes to the TAP in compliance with requirements laid out in 
the FY19 NDAA. The Department and our interagency partners continue to 
strengthen the TAP to be a more robust outcome-based program that 
bolsters opportunities, services, and training for transitioning 
Service members and their eligible family members in their preparation 
to meet their post-transition goals.
    The mandatory components of the TAP are applicable for all Service 
members who have served 180 continuous days or more on Active duty 
under Title 10 status. This includes members of the National Guard and 
Reserve transitioning or being released from Active duty.
    This raises the obvious question,'' What will TAP look like in the 
future in accordance with the FY19 NDAA?'' The changes mandated in the 
FY19 NDAA will be implemented starting October 2019.
    First, the transition from military to civilian life will begin no 
later than 365 days prior to transition for those who are separating or 
retiring. It is recommended retirees begin the transition process at 
least two years prior to retirement.
    Second, the TAP will include an individualized initial counseling 
between the Service member and a TAP counselor. This will be done one-
on-one, face-to-face or, in very limited situations that preclude a 
face-to-face meeting, via video conference. During the initial 
counseling session, Service members will complete their personal self-
assessment /Individual Transition Plan (ITP) to identify and discuss 
their unique needs of the transition process and their post-transition 
goals. The self-assessment/ ITP is criterion based and includes the 
following: Health Care, Current Housing Expenses and Relocation Costs, 
Exceptional Family Member Program, assessment for a Post-Transition 
Housing Plan, Post-Transition Transportation, Post- Transition Peer 
Support, Availability of confidential mental health services through 
DoD inTransition Program, Military OneSource, VA Vet Centers, and VA 
Medical Treatment Facilities. In addition, the counselor takes the 
following factors into account when performing initial counseling:

    - rank,
    - term of Service,
    - gender,
    - whether the member was affiliated with an active or reserve 
component of an Armed Force,
    - disability,
    - character of discharge (including expedited discharge and 
discharge under conditions other than honorable),
    - health (including mental health),
    - military occupational code (specialty code),
    - whether the member intends, after separation, retirement, or 
discharge, to:
    (1) seek employment;
    (2) enroll in a program, of higher education;
    (3) enroll in a program of vocational training; or
    (4) become an entrepreneur,
    - the educational history of the member,
    - the employment history of the member and
    - whether the member has secured
    (1) employment,
    (2) enrollment in a program of education; or
    (3) enrolled in a program of vocational training.

    Also during the initial counseling session, the counselor will 
assist the Service member in determining their transition goal(s) and 
the best pathway to achieve his/her desired goal(s).
    Based on the initial counseling session's identified goals, plans, 
challenges and barriers, etc., the Secretaries concerned have 
identified three pathways Service members will be placed in as they 
move forward through the transition process: Tier 1, Tier II, and Tier 
III. Tier I is for those who need little assistance, such as someone 
who already has employment confirmed or plans to completely retire and 
not work. Tier II would provide more assistance than Tier 1 such as 
those who may have employment but are not satisfied with that option, 
or have an idea of the industry but are unsure of the next steps. Tier 
III would be for those who have no post-transition plans or goals and 
thus need the most transition assistance.
    Once the individual counseling is completed, Service members are 
required to complete pre-separation counseling, which must also 
commence no later than 365 days prior to transition. Pre-separation 
counseling is an overview of benefits, entitlements, services, training 
and resources for eligible transitioning Service members. Caregivers of 
Service members with disabilities are especially encouraged to attend 
this pre-separation counseling session.
    Next, Service members will attend the mandatory one day pre-
separation training specific to the Military Component concerned. This 
portion of the TAP includes curriculum modules on managing your own 
transition, provides an in-depth overview of the TAP and building 
resiliency as you transition, a Military Occupational Code (MOC) 
Crosswalk to help define and translate military skills, and a module on 
financially planning for transition, which fulfills the financial 
literacy requirements in statute. On day two, DOL will provide one day 
of instruction regarding preparation for employment. Then on day three, 
the VA will conduct one day of instruction regarding the various 
benefits available under the laws administered by the Secretary of VA.
    Other changes in the TAP include Service members choosing one of 
the following two- day courses of instruction on: Employment, 
Education, Vocational Training, and
    Entrepreneurship. The Service member may elect one or more of these 
tracks during initial counseling to support their ITP and post-
transition goals.
    The Capstone event is the culminating activity where commanders 
verify achievement of career readiness standards and a viable ITP. This 
must occur no later than 90 days prior to separation, retirement or 
discharge.
    DoD's Transition to Veterans Program Office is pursuing an 
enterprise system capability to support and document the FY19 NDAA 
requirements and long term outcomes. It will be a single-source data 
collection tool to support and streamline the TAP enrollment, 
participation, and compliance. The tool includes, but is not limited 
to, an Enterprise Client Tracking System (CTS), which will provide the 
Military Components an IT platform to execute statutory requirements. 
The secure CTS will capture reported data as defined in the new statute 
(Self- assessment/ITP information, etc), enable seamless management of 
Service member transition across all Military Components and 
installations, and provide Installation and Unit Commanders performance 
reports to all Military Components and other Federal Agencies. 
Currently, for those Service members who do not meet career readiness 
standards (e.g., do not have employment, acceptance to an institution 
of higher learning, have not secured housing, or transportation) a 
``warm-handover'' is provided to an appropriate agency such as VA or 
DOL. The current system documents that a ``warm-handover'' was provided 
as well as the agency or organization receiving the warm handover for 
action. The enhanced system will ``close the loop'', with information 
documenting the ``warm-handover'' and information on services provided. 
For example, what services were provided to the Service member by VA? 
Was housing secured? Was a referral made for mental health care?

CURRICULUM AND OTHER ENHANCEMENTS ACROSS THE MILITARY LIFE CYCLE (MLC)

    Two core objectives of the original TAP redesign were to implement 
a revamped TAP curriculum and implement a MLC transition model. While 
both original objectives were achieved, the Department has continued to 
make advancements in these two areas.
    The Department and our partners are committed to continuously 
updating and improving the TAP curriculum across the MLC. The TAP 
interagency governance has established a regular 2-year battle rhythm 
for reviewing, assessing and updating the curriculum, alternating 
between an in-depth and technical review. The annual process uses 
feedback provided by Service members through the Transition Participant 
Assessment, facilitators, subject matter experts, and other key 
stakeholders. This systematic review process is critical if we are to 
stay ahead of the changing needs of our transitioning Service members. 
In turn, we are providing a ``pipeline'' of skilled talent to industry 
and the public sector.
    The TAP interagency governance is currently conducting an in-depth 
curriculum review, with revised curriculum to be implemented in FY20. 
The Department identified improvements to be made in all four DoD 
modules for Preseparation Training Day: Resilient Transitions (renamed 
Managing Your Transition), Financial Planning for Transition, MOC 
Crosswalk, and the Preparing for Education track. Based on Service 
member feedback, recent legislative changes, and recent research on 
challenges transitioning Service members face in their first 12 months 
post-separation, more substantial revisions are planned for the MOC 
Crosswalk and Preparing for Education modules this year. Note that the 
Managing Your Transition (Resilient Transition) and Financial Planning 
for Transition curriculum were substantially revised during the last 
annual review.
    In terms of this year's review, the improved MOC Crosswalk module, 
will focus on determining the hard and soft skills a Service member 
attained while in the service and utilizing those skills in the 
civilian sector. In terms of the Preparation for Education track, this 
module will incorporate information the Service member needs to be 
successful in gaining admittance and as a student in an institute of 
higher education.
    These proposed DoD revisions, which includes the FY19 NDAA changes 
are scheduled to be piloted this summer with planned deployment for 
October 2019. This planned deployment is for the whole of the 
Transition Assistance curriculum to include modules in revision by VA, 
DOL, and SBA.
    We recognize Service members may not always know at 365 days prior 
to separation where they will live post-separation. Therefore, the TAP 
teaches transitioning Service members where to find geographic location 
specific information about benefits and services at a number of points 
throughout the curriculum. Beginning with preseparation counseling, and 
again during VA's benefits briefing, Service members navigate to VA's 
website, in class, with links to the VA facilities in each state, a 
link to every state level veteran's affairs page for state specific 
programs and benefits, and access a page with information on Veterans 
Service Organizations. This same information is replicated across 
multiple platforms, i.e., Military OneSource and the National Resource 
Directory. DOL advises attendees on how to access American Job Centers, 
embedded in nearly 5,000 neighborhoods across the country. DOL also 
provides facilitated classroom instruction for TAP attendees to 
research career and education options by location, online.
    Service members research the potential growth of specific career 
fields in a given geographic area, pay differences for that career 
field in different locations, education availability to support that 
career field, and certification and licensing requirements for that 
career per state. Service members also research the impact of taxes on 
civilian pay versus military pay and how individual states treat 
retirement pay with respect to taxes. Currently, Service members may 
elect to have DD-214 information provided to their state upon issuance 
of the DD-214 at the time of separation. Beginning in October 2019, 
Service members will be able to elect to have their contact information 
forwarded to their State Department of Veteran Affairs much earlier, as 
they complete initial counseling.
    While the TAP interagency governance continues to improve the 
curriculum at the final touchpoint - Transition - within a service 
member's MLC, we are also making advances across other areas of the 
MLC. Through implementation of the MLC transition model, service 
members are engaging in the career preparation and transition 
assistance planning much earlier in their careers - starting at their 
first permanent duty station or home station for the National Guard and 
Reserves. This represents a significant, yet critical, cultural shift 
for the Department. For example, at the first permanent duty station, 
Service members create an Individual Development Plan (IDP), which 
documents professional and personal goals, as well as the training, 
certifications, and higher education needed to achieve those goals. 
Service members are also provided information on apprenticeships, 
instruction on resumes and financial preparedness, and they register 
for eBenefits. As their career progresses, their IDP is continuously 
updated with current certifications, technical training, and 
documentation of higher education. At significant life events, such as 
promotion, military occupational change and/or marriage, Service 
members are provided updated information on impacts to financial 
readiness and career opportunities, among other key touchpoint 
activities. The intent is to ensure thoughtful career planning and 
preparation across one's military career.
    The Air Force (AF) and VA Health Administration (VHA) have been 
piloting a Women's Health Initiative which targets female transitioning 
Service members. The four hour brief provides information on women's 
healthcare services currently available at the VHA. Following the 
brief, if available, an in-person tour is provided for the workshop 
attendees to a local VA Women's Health Care Center. Funding for the 
pilot has been provided by a grant via the VA, and AF has supported the 
initiative by providing marketing, enrollment for the Workshop, 
manpower and facilities. To support all female transitioning Service 
members across the enterprise, the Transition to Veterans Program 
Office has recommended to the Initiative Team to develop a virtual 
capability of the project information, to include a video tour of a VA 
Women's Health Center. This will ensure those female Veterans no matter 
their location, those separating OCONUS and those at remote and 
isolated locations, will have the awareness of the services provided by 
VA to female Veterans.

CAPSTONE EVENT AND ASSISTING AT RISK SERVICE MEMBERS

    The third core objective of the original TAP redesign was to 
implement a Capstone event to ensure: Service members complete the VOW 
Act requirements; meet the CRS, and have a viable ITP, to include 
employment or school acceptance/enrollment or a post-transition housing 
and transportation plan.
    The DoD and VA continue to collaborate in the examining of other 
`at risk' populations that may be better served during their military-
to-civilian transition. This has had implications for changes to the 
TAP curriculum and/or ``warm handover'' processes. For example, one 
effort has been in support of the Executive Order 13822, a joint effort 
between DoD, VA, and DHS, geared toward suicide prevention of Service 
members and veterans. The focus has been on identifying the population 
at risk for suicide following a military-to-civilian transition and 
determining ways in which to better support this high risk population 
prior to separation.
    Finally, the Department continues to take an important look at 
whether we are providing the National Guard (Air and Army National 
Guard) and the Reserves (Army, Navy, Air Force, Marine Corps and Coast 
Guard Reserve) the time, resources, and support to plan for transitions 
unique to those populations. Specifically, the Department is leveraging 
the Status of Forces Survey (SOFS) to pulse RC members' perceptions of 
the TAP and how perceptions may be changing over time. The Department 
recently commissioned the RAND Corporation to conduct a research study, 
entitled ``Needs Assessment of Reserve Component Member Transitions,'' 
in order to more comprehensively investigate the current needs of 
transitioning RC members and to provide recommendations regarding any 
updates needed to the TAP. Study findings are expected in FY20. In 
short, the Department continues to conduct research, gather feedback 
from RC members, and consider potential changes to policy within 
current law to address any identified unique needs of RC members.
    The Department remains fully committed to collaborating with 
Federal, state, industry, education, and community stakeholders to 
ensure continuous coordination and information sharing, while 
protecting the privacy and personal information of all our Service 
members. This ensures Service members receive access to education, 
training, and opportunities that best prepare them for their military-
to-civilian transition. Private and public engagements with employers 
and agencies directly support and enhance stakeholder commitments that 
support successful transition of our service members.
    Over the past nine months DoD, with the TAP interagency partners, 
hosted two Military Service Organizations (MSOs)/Veterans Service 
Organizations (VSOs) events. The forums were an opportunity for the TAP 
interagency partners to share with the MSO/VSO representatives what has 
changed in the TAP and what is coming in FY20. Both events were well 
attended, and the TAP governance received great feedback with very 
useful information in shaping the way ahead.

GAO REPORT

    Additionally, I would like to share some of the improvements 
already in place as a result of the released 2017 GAO Report which was 
discussed with this Committee on November 8, 2017. The GAO Report 18-
23, ``Transitioning Veterans - DoD Needs to Improve Performance 
Reporting and Monitoring for the Transition Assistance Program,'' 
released November 2017, provided the TAP governance an opportunity to 
receive external feedback on ways in which to further advance TAP.
    Congress asked GAO to examine various aspects of the program's 
implementation.
    GAO surveyed 181 DoD Military installations; analyzed DoD 
participation data for Fiscal Year 2016; reviewed and analyzed TAP data 
reports and performance measures; and interviewed officials at DoD, the 
Military Components, Service members, and our interagency partners.
    GAO also visited seven installations (two from Army, Navy, Air 
Force and one Marine Corps). The audit was conducted from February 2016 
to September 2017. As a result, GAO made six recommendations, including 
that DoD improve transparency in reporting the TAP participation and 
career readiness rates and monitor certain key areas of the TAP 
implementation, including timeliness of participation and access to 
supplemental 2-day classes. I would like to provide you a progress 
update on the recommendations from the Report.
    The Transition to Veterans Program Office in partnership with the 
Military Components has successfully had GAO approve two 
recommendations as ``implemented and closed'' of the six 
recommendations noted.

    RECOMMENDATION 1: DoD provides performance and career readiness 
attainment for ALL TAP-eligible service members and members of the 
National Guard and Reserve. A report is provided quarterly on the 
publically available DoDTAP.MIL website, on VOW compliance and 
information on missing or incomplete forms is included.
    RECOMMENDATION 3: GAO recommends that the Secretary of Defense 
monitor and report on the extent to which service members who elect to 
receive supplementary 2-day classes are able to receive training. DoD 
produces a quarterly report on self-reported barriers to attending the 
two-day classes. The report can be accessed specific to a Military 
Department, a Component, an installation, or a Unit. The Military 
Components have been provided training on how to access the information 
as well as provided the tools to accomplish the report.
    GAO approved both recommendations as ``implemented and closed'' in 
October 2018.
    The remaining four recommendations will be presented to GAO for 
closure in the Spring/Summer 2019.

CONCLUSION

    The FY19 NDAA has driven significant changes to the TAP. These 
changes will require substantial adjustments in resource requirements 
for the Military Departments. The Secretaries of the Military 
Departments are developing implementation plans for the legislative 
change and will include in the plan any requirements for additional 
funding and manpower.
    Career readiness and transition assistance preparation is an 
absolute must if Service members are going to have a successful 
transition to civilian life. We recognize that preparing Service 
members throughout their MLC to be career-ready upon transition is 
essential to sustaining the All-Volunteer Force. In order for DoD to 
continue to attract the high quality and dedicated volunteers to serve 
in our Armed Forces, we must return this generation of Service members 
to the Nation with the ability to positively contribute to the national 
workforce and thrive within their civilian communities.
    The Department cannot do this alone. It must have the continued 
strong collaboration with our interagency partners, the support and 
hard work of our Military Components, especially at the installation 
level, and collaborations with other external stakeholders and you, the 
members of Congress. The TAP interagency governance is vibrant, 
effective, responsive, and committed, as evidenced by the 2016 signing 
of our national Memorandum of Understanding (MOU) regarding the 
``Transition Assistance Program for Service Members Transitioning from 
Active Duty.'' As stated in the MOU, ``The parties will support and 
advance the ongoing implementation, assessment, and enhancement of TAP. 
This collaboration will serve to support Service members in pursuing 
employment, higher education, skills and career training, 
credentialing, and entrepreneurship.''
    In closing, Mr. Chairman, I thank you, the Ranking Member, and the 
members of this Subcommittee for your outstanding and continuing 
support of the men and women who proudly wear the uniform in defense of 
our great Nation.

                                 <F-dash>
 JOINT STATEMENT OF THE CO-AUTHORS OF THE INDEPENDENT BUDGET: DISABLED 
 AMERICAN VETERANS, PARALYZED VETERANS OF AMERICA, VETERANS OF FOREIGN 
                                  WARS
    Chairman Levin, Ranking Member Bilirakis, and members of the 
Subcommittee, the co-authors of The Independent Budget (IB) - Disabled 
American Veterans (DAV), Paralyzed Veterans of America (PVA), and the 
Veterans of Foreign Wars (VFW) - are pleased to present our views 
regarding the President's funding request for the Department of 
Veterans Affairs (VA) for Fiscal Year (FY) 2020, including advance 
appropriations for FY 2021.

VR&E Program

    The Vocational Rehabilitation and Employment (VR&E) program, 
provides critical counseling and other adjunct services necessary to 
enable service-disabled veterans to overcome barriers as they prepare 
for, find, and maintain gainful employment. An extension for the 
delivery of VR&E assistance at a key transition point for veterans is 
the VetSuccess on Campus program, deployed at 104 college campuses. 
VetSuccess offers services on five tracks: re-employment, rapid access 
to employment, self-employment, employment through long-term services, 
and independent living. Additional VR&E services are provided at 71 
select military installations for Active duty service members 
undergoing medical separations through the Department of Defense (DoD) 
and VA's joint Integrated Disability Evaluation System (IDES). In 2016, 
Congress enacted legislation (P.L. 114-223) that included a provision 
recognizing the need to provide a sufficient client-to-counselor ratio 
to appropriately align veterans' demand for VR&E services. Section 254 
of that law authorizes the Secretary of Veterans Affairs to use 
appropriated funds to ensure the ratio of veterans to vocational 
rehabilitation counselors does not exceed 125 veterans to one full-time 
employee (FTE) equivalent. For FY 2019, VR&E was authorized to hire an 
additional 174 FTEs. Congress needs to closely review how VR&E is 
implementing this workforce increase and carefully review the 
Administration's FY 2020 budget for VR&E now that it has been 
presented.
    VA budget documents state that the VR&E program will meet and 
sustain the congressionally mandated goal of 1:125 counselor-to client 
ratio. However, the latest data in the VA budget document also shows 
that from 2016 to 2018, the number of VR&E participants fell from 
173,606 to 164,355--more than a five percent decrease. During that same 
period, VR&E's caseload also dropped from 137,097 to 125,513--an 8.4 
percent decline. It would appear that VR&E is able to meet the 1:125 
goal by serving fewer veterans. Given how important and beneficial the 
VR&E program is for disabled veterans by providing many of them with 
the ability to increase their economic independence, why are fewer 
veterans taking advantage of this program? Is the lack of counselors 
impacting veteran utilization? Has VR&E instituted any new policies or 
practices that have deterred disabled veterans from seeking these 
services? What action is VA taking to increase awareness of the 
availability and benefits of VR&E services? We are concerned that the 
lack of counselors over the years has finally caught up to VA and 
participation in VR&E has dropped because of this.

VA Education Services

    The IB veterans service organizations (IBVSOs) are concerned about 
the lower funding request for VA's Education Program. VA requested $6 
million less than the amount appropriated the previous year, and we 
think that is taking a step backwards for this incredibly important 
office. By VA's own projections, they will see an estimated increase of 
almost 800,000 claims over the next two years. There are also additions 
to the GI Bill, such as the STEM extension and the VET TEC program, 
along with implementation of the Basic Allowance for Housing changes 
due to roll out in December. VA's emergency overtime budget was almost 
depleted due to challenges with Forever GI Bill implementation, and the 
IBVSOs believe VA should be ready for additional overtime for 
implementation this time around as well. Additionally, VA's aging 
infrastructure routinely requires additional resources and last minute 
workarounds in order to administer education benefits. With these 
challenges, the IBVSOs believe VA should be seeking more funding to 
make the necessary changes, not less. Historically, VA has struggled to 
implement GI Bill changes on time and under budget dating back to the 
original inception of the GI Bill in 1944. Each iteration of the GI 
Bill has come with its own challenges during implementation, and the 
Forever GI Bill is just another example of that. While it is difficult 
to budget for breakdowns and failures, the method of planning for the 
worst and hoping for the best is something VA should look to do when 
making changes to the GI Bill. This lower budget request seems like VA 
is planning for the best, and hoping for the best, without taking past 
challenges into account.

Information Technology

    Over the past several years, the Veterans Benefits Administration 
(VBA) has developed and implemented new IT systems to support several 
program transformations, including the Veterans Benefits Management 
System, National Work Queue, Case Flow, and eBenefits. Unfortunately, 
VBA must compete with other offices and agencies within VA for the 
limited IT funding available each year, delaying development and 
deployment of critical IT systems and programming. As a result, 
critical IT systems are rarely fully developed before business process 
changes are implemented. Instead, they are phased in over several 
years, forcing VBA to rely on an inconsistent mix of old and new IT 
systems, as well as an endless stream of suboptimal workaround 
solutions. While it may be understandable from a purely budgetary view 
to stretch out development and deployment of new IT systems, it is a 
failure from a functional perspective. Providing only partial IT 
solutions inevitably results in a loss of productivity, and often leads 
to lower quality and less accurate decisions on claims and appeals by 
veterans. For example, similar problems caused by inadequately 
developed technology can be seen in the VR&E's $12 million IT debacle 
and the education service's continuing problems in making accurate 
payments under the new GI Bill program.
    Unfortunately, VBA has a long list of pending IT funding requests, 
forcing it to prioritize and, thereby, delay many IT projects that 
could have led to better, more timely outcomes for veterans. In order 
to achieve the fullest gains of both productivity and quality possible, 
the IBVSOs recommend that Congress provide VBA with full funding 
upfront to develop new IT systems and reprogram existing ones. For FY 
2020, the IBVSOs recommend that an additional $50 million be added to 
the IT budget to accelerate critical IT projects, particularly those 
related to programs within VBA.

Homeless Issues

    VA's homeless programs are comprehensive including medical, dental, 
and mental health services, as well as specialized programs for post-
traumatic stress disorder, sexual trauma, substance use disorder (SUD), 
and vocational rehabilitation. VA adopted a model of housing veterans 
first, rather than requiring them to be in recovery or treatment for 
mental health or SUDs prior to receiving housing assistance. Homeless 
prevention coordinators and peer mentors are essential to the success 
of the program and help veterans navigate the system to get the 
services they need. VA should consider increasing the use of peer 
specialists, particularly those who are in recovery from SUDs and/or 
have experienced homelessness. Peers who have had similar experiences 
are often able to connect on a more personal level and can help 
homeless veterans overcome challenges, actively engage in treatment, 
and maintain healthy, sober lifestyles. While VA's comprehensive 
services, efforts, and approach to ending homelessness among veterans 
is effective overall, the National Coalition for Homeless Veterans 
recommends increased funding for the Supportive Services for Veterans 
Families program - the only program targeted at those at risk of losing 
housing. This would allow VA to maintain these prevention efforts, 
expand the program to new communities, and focus on innovative 
approaches to prevent more veterans from becoming homeless. The IBVSOs 
recommend that VA address the unique risks associated with 
subpopulations of homeless veterans, particularly women, minorities, 
those with serious, chronic mental illness or traumatic brain injuries, 
and aging veterans. VA should also continue to develop relationships 
with community providers that supplement current services and ensure 
its programs remain effective and flexible. The IBVSOs commend VA and 
the Department of Housing and Urban Development (HUD) for establishing 
a new pilot program to provide grants to make housing more accessible 
for low-income veterans with physical disabilities. VA should continue 
to grow its Enhanced Use Lease program, and work in partnership with 
HUD on project-based HUD-Veterans Affairs Supportive Housing vouchers, 
in order to spur the construction of critically needed affordable 
housing for homeless veterans with the highest needs.

Special Adaptive Housing

    VA's Specially Adaptive Housing (SAH) grant program helps veterans 
with certain service-connected disabilities to live independently in a 
barrier-free environment by providing critical housing adaptations. The 
accessibility provided through this program greatly increases the 
quality of life for these veterans, but to qualify, the individuals 
must endure a lengthy and cumbersome process. The controlling 
authorities governing the program are outlined in title 38 United 
States Code 1717, 38 Code of Federal Regulation (CFR) 17.150 and CFR 
17.3100 - 17.3130. Veterans Health Administration (VHA) Directive 
1173.14 entitled, ``Home Improvements and Structural Alterations 
Program,'' establishes uniform policy, processes, and procedures 
governing VA's Home Improvements and Structural Alteration program.
    The IBVSOs' first concern with the SAH program is a veteran's 
inability to locate a responsible and experienced contractor to 
complete SAH modifications. One of the complicating factors with the 
program is that a veteran must submit three bids to VA as part of the 
SAH process. Normally, this would not be difficult for a homeowner who 
is completing a typical project. However, there are very few 
contractors who have experience making home modifications for 
disability access. If a veteran resides in a rural area, it is even 
more difficult to find an appropriate contractor.
    SAH requires a lot of paperwork and procedures, all of which can 
lead to frustrations and delays. VA will often ask repeatedly for the 
same paperwork making the process very redundant. Consequently, many 
contractors are not willing to work with VA. Furthermore, VA is known 
to take a long time to pay SAH contractors, so they must complete the 
work before being compensated. This results in contractors having to 
carry construction costs on their own. Normally, contractors have a 
payment schedule, so they are not forced to do this. To improve the 
relationship between contractors and VA, we recommend that VA work more 
closely with building associations to educate their members about SAH. 
Such relationships would not only ensure that contractors have more 
knowledge about the required paperwork, but they could also lead to 
improved processes as VA learns more from contractors about how to 
facilitate their participation.
    The IBVSOs' second concern is the timeliness of modifications. Our 
field employees say many veterans are waiting an average of 6-8 months 
(up to two years in some cases) to have the modifications completed. 
The ability to safely live independently is a common goal of SAH 
eligible veterans and any processes that foster delays must be 
addressed.
    For example, the average person diagnosed with ALS (Lou Gehrig's 
disease) generally lives two to five years after diagnosis. Many 
veterans represented by our organizations rarely live past one year 
after diagnosis. Therefore, timely completion of SAH modifications is 
imperative. There have been instances where veterans have passed away 
before the modifications have been completed. The very nature of ALS 
presents different circumstances than those present for many other SAH 
eligible veterans. For veterans who have been diagnosed with ALS, their 
health declines so quickly it is imperative they receive modifications 
as soon as possible to improve the quality of what life they have left. 
The IBVSOs believe that the cases of veterans with terminal illnesses, 
like ALS, should be prioritized. If VA is unwilling to do so, then 
Congress must pass legislation directing it.
    Finally, the IBVSOs are concerned about consistency in the 
administration of the SAH program. Often the quality and speed of the 
work seems to depend entirely on the geographic location of the 
veteran. This is troubling based on the fact that compared to other 
programs, SAH is very small. It should not be as difficult for VA to 
maintain a standard across the board. Veterans should not be punished 
for where they choose to live. Instead, they should be able to receive 
quality service regardless of the location of their residence.

Veteran Unemployment

    Veterans with disabilities continue to struggle in the job market 
with lower labor force participation rates compared to veterans without 
disabilities. Employment challenges are even greater for veterans with 
the highest disability ratings. Veterans who have a disability rating 
of less than 30 percent were about 40 percent more likely to be engaged 
in the workforce than veterans with a 60 percent or higher disability 
rating. Only about four in every ten veterans with a 60 percent or 
higher disability rating participated in the labor force in 2017. This 
growing labor force participation disparity exists for veterans (Gulf 
War-era II) who have served on Active duty since September of 2001. 
Bureau of Labor Statistics data showed that Gulf War-era II veterans 
without a disability were 12 percent more likely to be in the labor 
force than Gulf War-era II veterans with disabilities.

Fourth Administration

    In order to further strengthen VA's education/economic 
opportunities and transition programs, the IBVSOs support the Veterans' 
Education Transition, and Opportunity Prioritization Plan Act of 2019 
(VET OPP Act) which would separate from the VBA programs under the 
purview of the Office of Economic Opportunity (OEO) and elevate them by 
creating a new fourth administration within VA with a new Under 
Secretary for Economic Opportunity and Transition. The new Veterans 
Economic Opportunity and Transition Administration (VEOTA) would 
include critical programs such as VR&E, the GI Bill, and the Transition 
Assistance Program (TAP) for transitioning service members.
    At present, VA is comprised of three administrations: VBA, the VHA, 
and the National Cemetery Administration. VBA includes not only 
compensation and pension programs for veterans, but also education 
programs, VR&E, home loan, veteran-owned business programs, and the 
broadly defined transition program, which is shared with DoD and the 
Departments of Labor (DOL) and Homeland Security. All of these programs 
are currently overseen by the OEO which is to be led by a Deputy Under 
Secretary. However, that position has been left vacant for years and it 
does not appear that the vacancy will be filled any time soon.
    Currently, the OEO programs inside VBA must compete for resources 
and focus with the Compensation, Pension and Insurance programs, of 
which compensation is by far the largest and tends to dominate the 
attention of VBA leadership and personnel. Because of the scale and 
scope of the claims and appeals processing reforms in recent years, it 
has too often been hard for VA's economic opportunity (EO) programs to 
compete for adequate funding, specialized resources, and other 
prioritization. For example, while VBA has boosted resources to support 
the modernization and streamlining of the claims and appeals process 
for the past several years, other important programs such as VR&E have 
actually seen a stagnation of resources and oversight. Between 2014 and 
2018, VR&E participation increased by approximately 17 percent while 
the funding rose less than two percent.
    We understand that this type of transformation needs to be done 
carefully, and there are a few concerns that still need to be 
addressed. We question the need to place an arbitrary cap on staffing 
for the new VEOTA in the legislation. In recent years, the IBVSOs have 
often joined other advocates calling for an increase in the staffing 
levels of the VR&E service to help achieve the 1:125 counselor-to-
client ratio mandated by Congress. While the bill's FTE cap of 23,692 
may be sufficient, we believe staffing and funding requests should be 
based on need, not arbitrary caps.
    We understand that VA remains opposed to this legislation. However, 
given the recent management and oversight issues involving 
implementation of the Forever GI Bill, and VR&E IT management, we 
believe the creation of the VEOTA could strengthen VA's oversight of EO 
programs. In addition, there still remain unanswered questions about 
how VA should reorganize the new VEOTA in order to maximize resource 
sharing between employees at VA Regional Offices, minimize duplication 
of services and management, and ensure clear lines of authority and 
oversight. We would recommend that VA be required to put forward a 
comprehensive organizational and operations plan, with measurable 
milestones, prior to the changeover in order to ensure a smooth 
transition.

Department of Labor Veterans' Employment and Training Service (VETS)

    The Department of Labor Veterans' Employment and Training Service 
(VETS) prepares transitioning service members for civilian careers 
through the TAP employment workshops. More than 6,000 workshops are 
conducted each fiscal year and VETS works closely with the DoD, VA, and 
other stakeholders to help meet the employment needs of transitioning 
service members and their spouses. TAP employment workshops are 
provided on military installations, both domestically and abroad, and 
are facilitated by an all-contract staff. If fully funded, VETS plans 
to deliver services to approximately 150,000 transitioning service 
members and spouses in FY2020 - a rate that is expected to remain 
fairly constant for several years.
    FY 2020 will be the first full year implementing changes to TAP 
enacted in the FY 2019 National Defense Authorization Act, and extra 
resources were requested in both TAP and federal administration budgets 
to oversee these improvements. The additional funding would enhance the 
quality of employment support services for transitioning service 
members, with a focus on improved outcomes. It also allows VETS to 
develop and implement a course curriculum to help military spouses 
which, in turn, would help reduce the number of military families that 
are at risk for homelessness. At a minimum, Congress should fund DOL's 
FY2020 request of $29,379,000 for the VETS program, but additional 
resources may be warranted upon closer examination of the program and 
its planned expansion projects.
    Many veterans who served honorably and were discharged in good 
health, later acquire significant disabilities. As a consequence, 
eligible veterans qualify for the VA nonservice-connected pension. VA 
pension is often likened to Supplemental Security Income (SSI) under 
Social Security. However, SSI recipients have access to a work 
incentive program whereby their public benefit is gradually reduced as 
their earned income rises. Unlike SSI recipients, VA pensioners face a 
``cash cliff'' in which benefits are terminated once an individual 
crosses an established earnings limit. Because of a modest work record, 
many of these veterans or their surviving spouses may also receive a 
small Social Security Disability Insurance (SSDI) benefit that 
supplements their VA pension. If these individuals attempt to return to 
the workforce, not only is their SSDI benefit terminated, but their VA 
pension benefits are reduced dollar for dollar by their earnings.
    In 1984, under Public Law 98-543, Congress authorized VA to 
establish a four-year pilot program of vocational training for veterans 
awarded a VA pension. Modeled on the Social Security Administration's 
trial work period, veterans in the pilot program were allowed to retain 
eligibility for VA pension up to 12 months after obtaining employment. 
Also, they remained eligible for VA health care up to three years after 
their pension terminated because of employment. The pilot program ran 
from 1985 to 1989, and achieved some modest success. However, the pilot 
was discontinued before VA implemented eligibility reform, because most 
catastrophically disabled veterans were reluctant to risk their access 
to VA health care by working. The VA Office of Policy, Planning, and 
Preparedness examined the VA pension program in 2002 and, though small 
in number, seven percent of unemployed veterans on a pension and nine 
percent of veteran spouses on a pension cited the dollar-for-dollar 
reduction in VA pension benefits as a disincentive to work. Now that 
veterans with catastrophic nonservice-connected disabilities retain 
access to VA health care, loss of access to medical care is no longer 
an impediment to work, but the VA pension cash cliff remains a barrier. 
Congress should reexamine work disincentives in the VA pension program, 
and policies toward earnings should be changed to parallel those in the 
SSI program.

Proposed Legislation

    Finally the IBVSOs would like to address some of the proposed 
legislation from VA contained within this year's budget request.
    VA is proposing to expand the scope of VA's EUL authority to 
include projects that provide supportive housing, and projects that 
provide services and/or mixed uses, which incorporate other important 
benefits to veterans. The IBVSOs support expansion of EUL in any 
substantive efforts to curb the homeless veterans issue facing far too 
many of our brothers and sisters. Expanding VA's EUL authority to allow 
for redevelopment of other types of facilities will allow VA to attract 
private financing to address its infrastructure needs.
    VA is seeking to amend title 38 U.S.C. Sec.  3699 to extend the 
restoration of entitlement to educational assistance for veterans 
affected by school closure or disapproval, implemented by section 109 
of the Howard W. Colmery Veterans Educational Assistance Act of 2017 
(Forever GI Bill), to apply to vocational rehabilitation programs 
provided under chapter 31. The IBVSOs believe any veteran affected by 
sudden school closures should have their benefits restored, and 
supports the inclusion of Chapter 31 benefits to section 109 of the 
Forever GI Bill.
    Lastly, the IBVSOs strongly oppose all legislative proposals 
included in the budget that would reduce benefits to veterans that were 
earned through their service. The round down of the cost of living 
adjustment for five years proposal is a not an acceptable option. 
Veterans earn their benefits from years of service to our nation, and 
decreasing those benefits to balance a budget is a proposal that the 
IBVSOs oppose. The federal budget should not seek financial savings at 
the expense of benefits earned by veterans and their families.
    Mr. Chairman, this concludes our testimony. Again, the IBVSOs thank 
you and the Ranking Member for the opportunity to testify on these 
important issues before this Subcommittee. We are prepared to take any 
questions you or the Subcommittee members may have.

                                 <F-dash>
                     STATEMENT OF LARRY L. LOHMANN
    Chairman Levin, Ranking Member Bilirakis, and Members of the 
Committee; on behalf of Brett P. Reistad, National Commander of the 
largest veteran service organization in the United States representing 
nearly two million members; we welcome the opportunity to comment on 
specific funding programs of the Department of Veterans Affairs (VA) in 
the federal budget.
    The American Legion is a resolution-based organization directed and 
driven by active Legionnaires who dedicate their money, time, and 
resources to the continued service of veterans and their families. Our 
positions are guided by 100 years of advocacy and resolutions that 
originate at the grassroots level of the organization - local American 
Legion posts and veterans in every congressional district across the 
United States. The headquarters staff of The American Legion works 
daily on behalf of veterans, military personnel, and our communities 
through our roughly 20 national programs and thousands of outreach 
programs led by our posts across the country.
    As VA continues to serve the veterans of this nation, it is vital 
the Secretary has the necessary tools and resources to ensure they 
receive timely, professional, and courteous service - they have earned 
it. The American Legion calls on this Congress to ensure that funding 
for VA is maintained by implementing the president's budget request. At 
a time when most federal agencies are experiencing a decrease in their 
respective budgets, the hope of The American Legion is that VA, with 
assistance from these critical committees, receive a much-needed 
increase.
                               Education
 VA requests $223.5 million in budget authority to fund discretionary 
 portions of Education Service to include administrative expenses for 
                               1,985 FTE.
    The American Legion supports the President's FY 2020 Budget request 
for Education. Though the President's budget requests $6.1 million less 
(-2.7%) than the 2019 current estimate; this request will provide 
sufficient funding and staffing levels for Education Service to 
continue providing access to timely and accurate delivery of education 
benefits.
    Since the passage of the Harry W. Colmery Veterans Educational 
Assistance Act of 2017, VBA hired an additional 202 temporary employees 
to implement multiple provisions of the bill. The additional Full-Time 
Employees (FTE) primarily focused on processing claims resulting from 
significant changes to eligibility criteria and expanding program 
usage. In the summer of 2018, problems began when VA's benefit-
processing system buckled under complex new formulas for GI Bill 
students. As a result, scores of veterans waited weeks or months to be 
paid and fell victim to VA's decades-old technology that The American 
Legion and lawmakers warned for months would do what it did, fail.
    To address these IT issues, VA determined additional FTE would be 
required for the entirety of 2019. This change increased FTE by 65, 
which is the net effect of having the 202 employees onboard longer 
throughout 2019 than initially planned. Recognizing the temporary 
necessity of these additional FTE, The American Legion does not see an 
issue with the 2.7% decrease for education funding in FY 2020.
    While the proposed budget is sufficient, The American Legion shares 
the sentiment of many in Congress and among the major stakeholders that 
VA must provide greater focus on the economic concerns of our veterans, 
and ensure education services meet the standards of excellence veterans 
deserve.
    The American Legion has long been concerned programs in the VA that 
provide assistance related to economic opportunity to veterans, their 
dependents, and survivors have been overlooked. The landscape of 
education benefits has evolved rapidly from the Montgomery to the Post-
9/11 GI Bill and the essential implementation requirements of the Harry 
W. Colmery Veterans Educational Assistance Act.
    More veterans are using VA educational and vocational 
rehabilitation benefits to go to school than a decade ago, which led to 
the creation of VetSuccess on Campus (VSOC) to cater to the growing 
student veteran population. Congress needs to continue investing on 
campus-based support resources for student veterans to include 
expansion of the VSOC program or additional programs reinforcing peer-
to-peer support or grant funds to develop Veteran Centers of 
Excellence.
    Congress must also work closely with the Department of Education 
and VA to ensure taxpayer dollars are spent responsibly at reputable 
institutions. Legislation addressing the 90/10 loophole, requiring 
transparency, and regular reporting will ensure student veterans are 
given the right resources to utilize their benefits properly, 
maintaining the fiduciary duty to the American taxpayer.
                                Housing
   VA requests $154.0 million in reimbursement authority from credit 
   administration accounts, $441 thousand in reimbursements from the 
 United States Department of Agriculture (USDA), and $20.8 million in 
  budget authority to fund the discretionary portion of the Specially 
                     Adapted Housing (SAH) program.
    The American Legion supports the President's FY 2020 Budget request 
for housing, but requests Congress review procedures. Too many of our 
veterans and their families face significant housing challenges, 
aggravated by issues like unemployment, age, and service-related 
disabilities. The Special Housing Adaptation (SHA) grant and Special 
Adaptive Housing (SAH) grant processes have many requirements. Some 
requirements have cumbersome and lengthy procedures.
    Once eligibility has been established, VA assigns a SAH agent to 
each veteran to provide guidance and assistance in preparing and 
collecting required documents and exhibits. After the grant is 
approved, SAH agents deliver the SAH grant benefit by meeting with 
veterans at their existing or desired future residence to provide an 
overview of the grant process. SAH staff members assess the residences 
and provide hands-on guidance and suggestions for incorporating home 
modifications to improve mobility and promote independence. The primary 
focus of the grant program is to provide safe and reliable options for 
getting in and out of the home, provide accessible bathroom and shower 
facilities, and ensure the home has adequate space in passageways 
(doors, open areas, hallways, etc.) for accessible entry and exit to 
and from the home. Other adaptations can be incorporated based on the 
veteran's disability.
    After identifying the needs of the veteran, SAH staff provide 
guidance and oversight for new or existing home construction to ensure 
the completion of required adaptations. SAH staff manages projects 
during ongoing development and serves as a liaison between the veteran 
and the contractor completing the construction. SAH staff completes the 
project by conducting final field reviews to assess the outcome and 
ensure the veteran's unique mobility needs were addressed.
    Unfortunately, the SAH grant and the SHA grant processes may take a 
considerable amount of time. Veterans with terminal illnesses and 
severely restricting disabilities do not have time to wait. Veterans 
with terminal illnesses often do not survive long enough to receive the 
SAH benefits they have earned.
    Although VA will expedite the claims for veterans who have terminal 
illnesses, they do not prioritize cases. Congress should pass 
legislation to provide VA with the authority to prioritize the SAH 
claims of terminally ill veterans. Further, through Resolution No. 357, 
Support Veterans Housing Repair and Modification for Pilot Program, The 
American Legion urges Congress to create a veterans housing pilot 
program for home rehabilitation and modification to augment programs 
like the Specially Adaptive Housing Program, to allow veterans service 
organizations and housing nonprofits to combine their resources with 
other federal funding by applying for grants through the Department of 
Housing and Urban Development. \1\
---------------------------------------------------------------------------
    \1\ The American Legion Resolution No. 357: Support Veterans 
Housing Repair and Modification Pilot Program (Aug 2016)
---------------------------------------------------------------------------
    Through partnerships and hands-on volunteering, The American Legion 
works hard every day to improve the lives of veterans and their 
families. Through partnerships like Team Depot, a collaboration with 
The Home Depot, volunteer Legionnaires, as well as other stakeholders, 
devote thousands of hours each year to building and repairing homes for 
those who have served. Instituting a pilot program that allows veterans 
service organizations to help veterans who are low-income or disabled 
and who own their homes or are living in the owner-occupied home of a 
family member would be beneficial to local communities and the country 
as a whole.
                          Employment Benefits
 VA requests $245.4 million in budget authority to fund discretionary 
  portions of the VR&E Program to include administrative expenses for 
                               1,663 FTE.
    The American Legion supports the President's FY 2020 Budget request 
for Employment benefits. The Vocational Rehabilitation and Employment 
(VR&E) Program provides comprehensive services and assistance enabling 
veterans with service-connected disabilities and employment handicaps 
to achieve maximum independence in daily living, become employable, and 
maintain suitable employment. After a veteran is found to be entitled 
to VR&E, a vocational rehabilitation counselor helps the veteran 
identify a proper employment goal and determines the appropriate 
services necessary to achieve their goal. Once a veteran's claim has 
been adjudicated through the appeals process, the next step is approval 
and access to utilize the VR&E program.
    The American Legion is pleased to see in VA's budget proposal the 
intention to meet the congressional mandate of a 1:125 counselor-to-
client ratio. The American Legion has sought this compliance associated 
with VR&E for some time and notably at our 2016 National Convention 
passed Resolution No. 345: Support for Vocational Rehabilitation and 
Employment Program Hiring More Counselors and Employment Coordinators. 
\2\ However, our optimism is guarded because the compliance, in part 
appears to be aided not only by additional funding but also by a 5% 
decrease in VR&E participants. \3\
---------------------------------------------------------------------------
    \2\ The American Legion Resolution No. 345: Support for Vocational 
Rehabilitation and Employment Program Hiring More Counselors and 
Employment Coordinators (Aug 2016)
    \3\ Volume III Benefits and Burial Programs and Departmental 
Administration, U.S Department of Veteran Affairs, https://www.va.gov/
budget/docs/summary/
fy2020VAbudgetvolumeIIIbenefitsBurialProgramsAndDeptmentalAdministration
.pdf (last visited Apr 26, 2019).
---------------------------------------------------------------------------
    The American Legion is thankful and proud to have worked closely 
with this committee and others in Congress to reach this goal. We 
remain concerned with the decrease in participants in the program as it 
is a beneficial program for disabled veterans. In the same vein, we 
urge Congress through Resolution No. 336 to Support Legislation that 
Would Change the 12-Year Delimiting Date for Eligibility to Chapter 31 
Benefits, to eliminate the 12-year expiration date for chapter 31 
benefits. \4\
---------------------------------------------------------------------------
    \4\ The American Legion Resolution No. 336: Support Legislation 
that Would Change the 12-Year Delimiting Date for Eligibility to 
Chapter 31 Benefits (VA's Vocational Rehabilitation and Employment 
Program) (Aug 2016)
---------------------------------------------------------------------------
    The standard period of eligibility for VR&E benefits is limited to 
12-years from the date of separation from military service or the date 
of notification by VA of a service-connected disability rating. 
Unfortunately, not all disabled veterans are aware of their possible 
eligibility when separating from their service and some may not need 
VR&E until later in their career. Congress must eliminate the 12-year 
delimiting period for VA Chapter 31 Vocational Rehabilitation and 
Employment (VR&E) services to ensure disabled veterans with employment 
handicaps, including those who qualify for independent living services, 
qualify for VR&E services for the entirety of their employable lives.
                      Assisting Homeless Veterans
    VA requests $1.8 billion for homeless programs, maintaining the 
   significant funding provided in 2019 and increasing funds by $179 
  million above the 2018 level, to provide the type of resources most 
         needed where they are most needed across the country.
    The American Legion believes that homeless veteran programs should 
be granted sufficient funding to provide supportive services such as, 
but not limited to: outreach, healthcare, rehabilitation, case 
management, personal finance planning, transportation, vocational 
counseling, employment, and education. In that vein, we support the 
proposed funding in the president's budget and urge Congress to 
appropriate the funds.
    Furthermore, The American Legion continues to place particular 
priority on the issue of veteran homelessness. With veterans making up 
approximately 9% of our nation's total adult homeless population, there 
is plenty of reason to give this issue special attention. Along with 
various community partners, The American Legion remains committed to 
seeing VA's goal of ending veteran homelessness come to fruition. Our 
goal is to ensure that every community across America has programs and 
services in place to get homeless veterans into housing (along with 
necessary healthcare/treatment) while connecting those at-risk veterans 
with the local services and resources they need. We hope to see that 
with the expansion of assistance afforded to homeless veterans and 
their dependents, there will also be an increase in funding to support. 
We estimate that an additional $10 million annually will be sufficient 
to accomplish this goal.
    Additionally, we have concerns about cuts to the Supplemental 
Nutritional Assistance Program (SNAP). SNAP is the largest nutritional 
assistance program administered by the United States Department of 
Agriculture and serves as a critical social safety net program in the 
United States. While veterans' homelessness programs remain unchanged 
in the FY20 budget, many other programs outside of VA have seen 
proposed reductions in their funding. Almost 1.4 million veterans live 
in households that participate in SNAP, according to the analysis of 
data performed by the Center on Budget and Policy Priorities from the 
Census Bureau's American Community Survey. \5\ While not intended to 
impact veterans directly, cuts across the social network could make a 
negative impact contributing to veterans' quality of life and 
homelessness.
---------------------------------------------------------------------------
    \5\ Brynne K Jennings , SNAP Helps Almost 1.4 Million Low-Income 
Veterans, Including Thousands in Every State Center on Budget and 
Policy Priorities (2018), https://www.cbpp.org/research/food-
assistance/snap-helps-almost-14-million-low-income-veterans-including-
thousands-in#--ftn1 (last visited Apr 26, 2019).
---------------------------------------------------------------------------
                         Transitioning Programs
VA requests $82.4 million in budget authority to fund the discretionary 
     portions of TED to include administrative expenses for 37 FTE.
    The American Legion supports VA's request for $82.4 million but 
urges Congress to exercise its oversight powers to ensure appropriate 
spending. VA's Transition and Economic Development (TED) office was 
newly established in 2018 to support the transition from military-to-
civilian life and accelerate the economic empowerment and development 
of transitioning servicemembers, veterans, and their families. VA 
established this office to ensure the entire period of military 
transition readiness, from 365 days before separation through the first 
year of civilian life is efficient and thorough. TED is intended to 
ensure through a coordinated effort that servicemembers leaving the 
military have an understanding of, and easy access to, all benefits and 
resources they are entitled once they have separated from military 
service.
    A key area of focus for TED is the Transition Assistance Program 
(TAP), a joint program administered by the U.S. Departments of Defense 
(DoD), Department of Labor (DoL) and VA. TAP is charged with providing 
veterans a successful transition from military to civilian life. The 
American Legion supports the President's proposed budget, however, is 
still wary about whether TED is sufficiently staffed as the budget 
equates to approximately $2.4 million per FTE. We urge Congress to 
exercise its oversight powers to ensure prudent management of taxpayer 
dollars.
    Further, we urge Congress to pass legislation optimizing the TAP 
program. As stated, the goal of TAP is to ease the adjustment of 
separating servicemembers during the difficult transition from Active 
duty into civilian life by offering job search assistance, medical/
health services, the advising of available benefits, and other related 
counseling. The American Legion believes TAP represents an essential 
step toward providing transitioning servicemembers, and their families, 
with the information they need to transition into civilian life 
successfully.
    TAP is now mandated for all servicemembers and optional for their 
spouses. However, TAP provides a tremendous amount of information, 
which at times can be incredibly intricate, overwhelming, or even 
excessive to a particular participant. DoL's portion, which is three-
days long, is responsible for most of that information. The American 
Legion recommends that the course be mandated for servicemembers at 
different intervals of their careers before separation or transitioning 
into the civilian sector along with pre-counseling for those 
servicemembers intending to leave the military.
    The American Legion recognizes the vast difference between a 
transitioning servicemember who served one enlistment in contrast to a 
transitioning servicemember who is retiring after 20 years of service. 
This difference includes, but is not limited to, servicemembers who are 
being separated for medical reasons and other unexpected reasons. TAP 
is presently five-days long with an optional two-day class. According 
to a November 2017 GAO report, less than 15 percent of transitioning 
servicemembers have attended the two-day courses. Not every 
servicemember transitions for the same reason, servicemembers should be 
afforded the opportunity to participate in training that fits their 
post-service objectives.
                               Conclusion
    The American Legion thanks this committee for the opportunity to 
elucidate the position of the nearly 2 million veteran members of this 
organization. For additional information regarding this testimony, 
please contact Mr. Larry Lohmann, Senior Associate of The American 
Legion Legislative Division at (202) 861-2700 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="86eaeae9eeebe7e8e8c6eae3e1efe9e8a8e9f4e1a8">[email&#160;protected]</a>

                                 <F-dash>
                            WILLIAM HUBBARD
    Chairman Levin, Ranking Member Bilirakis and Members of the 
Subcommittee:

    Thank you for inviting Student Veterans of America (SVA) to submit 
our testimony on the fiscal year 2020 budget submission of the 
Department of Veterans Affairs (VA). Established in 2008, SVA is a 
national nonprofit founded to empower student veterans as they 
transition to civilian life by providing them with the resources, 
network support, and advocacy needed to succeed in higher education.
    With over 1,500 Campus Chapters across the U.S. and in four 
countries overseas, serving over 750,000 student veterans and military-
connected students, SVA establishes a lifelong commitment to each 
student's success, from campus life to employment, through local 
leadership workshops, national conferences, and top-tier employer 
relations. As the largest chapter-based student organization in 
America, we are a force and voice for the interests of veterans in 
higher education, and SVA places the student veteran at the top of our 
organizational pyramid.
    Edward Everett, our nation's 20th Secretary of State, and the 
former President of Harvard University was famously quoted as stating, 
``Education is a better safeguard of liberty than a standing army.'' 
While we have the finest military that the world has ever known, the 
sentiment remains; the importance of education to our nation's national 
security continues to be critical.
    We will discuss our general concerns with the current budgetary 
process' impact on student veterans, concerns specific to VA's budget 
request, and suggestions to strengthen how VA supports student 
veterans.

The Current Budget Process

    Concerns with the lack of regular order around the budget and 
appropriations processes are consistent talking points among the larger 
veteran advocacy community, and even more broadly throughout 
Washington; nevertheless, the need for consistent and predictable 
government funding is more than worth reiterating. Even with VA's 
robust advance appropriation funding cycle, the step-and-repeat of 
continuing resolutions and looming threats of government shutdowns 
leave student veterans with many questions and uncertainty, with recent 
examples demonstrating the timeliness of these discussions. \1\
---------------------------------------------------------------------------
    \1\ Emily Wax-Thibodeaux, 11,000 disabled student veterans left 
without rent and expense money due to computer glitch, THE WASHINGTON 
POST, Feb. 2, 2018, https://www.washingtonpost.com/news/checkpoint/wp/
2018/02/02/11000-disabled-student-veterans-left-without-rent-and-
expense-money-due-to-computer-glitch/?utm--term=.4cf294f50380.
---------------------------------------------------------------------------
    Student veterans and their families frequently interact with 
multiple government agencies, which makes the need for reliable 
government funding an issue that transcends the silos of VA. The need 
for regular order is especially apparent when considering the cycle of 
GI Bill payments, which typically ebb and flow in conjunction with the 
beginning of each semester. The ability of the Veterans Benefits 
Administration (VBA) to project upcoming increases in demand for GI 
Bill approvals is indirectly linked to appropriate IT funding, as we 
publicly witnessed during the rollout of several crucial provisions of 
the Forever GI \2\Bill \3\.
---------------------------------------------------------------------------
    \2\ Wentling, Nikki, ``Federal watchdog: VA leadership failures are 
to blame for GI Bill payment issues,'' March 21, 2019, https://
www.stripes.com/federal-watchdog-va-leadership-failures-are-to-blame-
for-gi-bill-payment-issues-1.573672
    \3\ Natalie Gross, Here's what a government shutdown could mean for 
GI Bill users, MILITARY TIMES, Jan. 19, 2018, https://
www.militarytimes.com/education-transition/education/2018/01/19/heres-
what-a-government-shutdown-could-mean-for-gi-bill-users/.
---------------------------------------------------------------------------
    SVA supports the recommendation of the Independent Budget to 
include an additional $50 million for IT infrastructure. \4\ We applaud 
the full committee's continued commitment to ensure VA's budget, and 
the programs and services veterans use across government, remains a 
priority for the whole of Congress.
---------------------------------------------------------------------------
    \4\ The Independent Budget: Budget Recommendations Fiscal Years 
2020 and 2021, Feb. 11, 2019. http://www.independentbudget.org/pdf/
funding.pdf

---------------------------------------------------------------------------
Readjustment Benefits and Education Services in VA's Budget Request

    Through a combination of funding sources, the majority of which is 
newly appropriated funds, VA's budget request calls for an estimated 
$14.06 billion in Readjustment Benefits obligations in 2020 and $12.58 
billion in Readjustment Benefits obligations in 2021. \5\ These figures 
do not include discretionary funds necessary to administer these 
benefits.
---------------------------------------------------------------------------
    \5\ U.S. Department of Veterans Affairs, Office of Budget. FY 2020 
Budget Submission. Available: https://www.va.gov/budget/products.asp
---------------------------------------------------------------------------
    Largely comprised of the education benefits which VA's Education 
Services manages, Readjustment Benefits serve as some of the most 
proactive and empowering benefits available to veterans and their 
families. Readjustment benefits equip veterans to return to the 
civilian workforce as the leaders and problem-solvers upon which the 
future of our country's economic prosperity desperately depends.
    SVA acknowledges VA's justification for reducing their baseline 
personal services budget line item from $190.5 million in 2019 to 
$183.8 million in the 2020 request due to a cut in Forever GI Bill 
implementation support staff. However, until the new law is fully 
implemented, we encourage VA, and this congress, to provide the full 
resources necessary, as the Department historically lacked the 
appropriate support and resulted in unacceptable late payments. \6\
---------------------------------------------------------------------------
    \6\ Stewart, Emily. Vox. The VA's latest issues paying student 
veterans their benefits, explained. Dec. 11, 2018. https://www.vox.com/
policy-and-politics/2018/12/7/18129508/forever-gi-bill-student-
veterans-housing-wilkie
---------------------------------------------------------------------------
    Through increased access to and participation in these benefits, 
budget obligations should naturally continue to increase. We encourage 
the Subcommittee to think of Readjustment Benefits as an integral part 
of the whole of VA when advocating for appropriated funds-a 
macroeconomic net benefit in the truest sense of the concept. While 
healthcare and disability compensation make up part of VA's 
foundational services, Readjustment Benefits are also a cornerstone of 
VA's foundation.
    As we noted during the Joint Veterans Committee annual hearing on 
policy priorities for 2019, student veterans have led the way for all 
non-traditional students in higher education, and this unique 
population is succeeding at remarkable rates. \7\ In many ways, the 
original GI Bill democratized higher education to all Americans. Prior 
to 1944, the most Americans interested in pursuing higher education 
faced unrealistic prospects; less than seven percent of Americans in 
1944 had a bachelor's degree at the time. The GI Bill changed that by 
educating 49 percent of returning World War II veterans from Europe and 
the Pacific.
---------------------------------------------------------------------------
    \7\ Jared Lyon, Student Veterans of America Legislative Priorities 
of 2019, March 7, 2019, https://www.veterans.senate.gov/imo/media/doc/
5%20-%20SVA%20Testimony%2003.07.19.pdf
---------------------------------------------------------------------------
    These amazing women and men returned to the college campuses on the 
GI Bill and led the democratization of higher education. \8\ The 
Readjustment Benefits in place today build on that storied history. 
They are at the core of what VA does best for veterans and this 
country; we strongly encourage Congress to remember the importance of 
Readjustment Benefits and Education Services when defining priorities 
and aligning resources.
---------------------------------------------------------------------------
    \8\ Id.

---------------------------------------------------------------------------
Vocational Rehabilitation and Education (VR&E) in VA's Budget Request

    The VR&E program provides services to veterans with service-
connected disabilities to prepare, find, and maintain employment. 
Currently, VR&E rehabilitation services provide veterans five tracks to 
employment, including employment through long-term services. This track 
largely focuses on the necessary training and education needed to meet 
a veteran's employment goals. \9\ According to VA's budget request, the 
VR&E program will see an increase in program participation and 
administration resource needs over the next two years. \10\
---------------------------------------------------------------------------
    \9\ U.S. Department of Veterans Affairs, Eligibility and 
Entitlement, VOCATIONAL REHABILITATION AND EMPLOYMENT (VR&E), https://
www.benefits.va.gov/vocrehab/eligibility--and--entitlement.asp.
    \10\ U.S. Department of Veterans Affairs, Office of Budget. FY 2020 
Budget Submission. Available: https://www.va.gov/budget/products.asp
---------------------------------------------------------------------------
    SVA tracks student veterans concerns and feedback associated with 
the VR&E program to better understand how the program could be 
strengthened. Themes within this feedback collected included: the large 
caseloads Vocational Rehabilitation Counselors (VRC) must manage, the 
inconsistent VRC decisions, and frequent turnover of VRCs. \11\ We 
believe it is necessary to meet the current appropriations demand that 
VA outlined; however, congress could also address some of the 
underlying resource issues that are contributing to those concerns and 
proactively improve the VR&E program. \12\
---------------------------------------------------------------------------
    \11\ Paul R. Varela, ``A Review of VA's Vocational Rehabilitation 
and Employment Program,'' HOUSE COMMITTEE ON VETERANS' AFFAIRS 
SUBCOMMITTEE ON ECONOMIC OPPORTUNITY, July 8, 2015, https://
www.gpo.gov/fdsys/pkg/CHRG-114hhrg98685/pdf/CHRG-114hhrg98685.pdf 
(turnover discussion on pg. 18).
    \12\ Benjamin L. Krause, J.D., National Association of Veterans 
Program Administrators (NAVPA) Statement for Hearing - ``A Review of 
VA's Vocational Rehabilitation and Employment Program,'' HOUSE 
COMMITTEE ON VETERANS' AFFAIRS, July 8, 2015, https://archives-
veterans.house.gov/submission-for-the-record/mr-benjamin-l-krause-jd.
---------------------------------------------------------------------------
    Given the highly individualized nature of the program, there is 
strong need to ensure proper VRC to veteran ratios as mandated in 
Public Law 114-223, which requires one full-time employment equivalent 
(FTEE) for every 125 veterans. \13\ It is unclear if those ratios are 
being met currently, and we encourage this Subcommittee to hold VA 
accountable to that ratio in their budget request, though we appreciate 
VA's focus on achieving this target over the past fiscal year. Also, we 
continue to urge this committee to encourage VA to increase the capped 
pay of VRCs to match higher salary caps of similar Department of 
Education (ED) positions to aid in the turnover of \14\VRCs. \15\
---------------------------------------------------------------------------
    \13\ Continuing Appropriations and Military Construction, Veterans 
Affairs, and Related Agencies Appropriations Act, 2017'' Public Law 
114-223, https://www.congress.gov/114/plaws/publ223/PLAW-
114publ223.pdf.
    \14\ Glassdoor, US Department of Veterans Affairs Vocational 
Rehabilitation Counselor Salaries, https://www.glassdoor.com/Salary/US-
Department-of-Veterans-Affairs-Vocational-Rehabilitation-Counselor-
Salaries-E41429--D--KO34,69.htm (Indicating range of salaries from 
$49,799-$95,000 based on salary reports and statistical methods).
    \15\ See generally National Association of Veterans' Program 
Administrators, 2017 NAVPA Legislative Agenda, http://www.navpa.org/
2017-navpa-legislative-agenda/.

---------------------------------------------------------------------------
Forever GI Bill Implementation in VA's Budget Request

    In 2017, SVA led a coalition of more than 60 organizations to pass 
the most expansive higher education legislation in nearly a decade, and 
also the largest improvement of the Post-9/11 GI Bill-the Forever GI 
Bill. Signed into law on August 16th that year, the Forever GI Bill, 
officially titled the Harry W. Colmery Veterans Education Assistance 
Act, made history thanks to this committee and the current \16\congress 
\17\.
---------------------------------------------------------------------------
    \16\ Harry W. Colmery Veterans Education Assistance Act of 2017. 
Pub. L 115-48. 16 August 2017. Available: https://www.congress.gov/
bill/115th-congress/house-bill/3218
    \17\ Gross, Natalie (2017). Military Times. ``Trump signed the 
`Forever GI Bill.' Here are 11 things you should know'', https://
www.militarytimes.com/education-transition/education/2017/08/16/trump-
signed-the-forever-gi-bill-here-are-11-things-you-should-know/
---------------------------------------------------------------------------
    The Forever GI Bill includes dozens of provisions that increase 
access to higher education, reduce inequities within the benefit, and 
turn the GI Bill into a benefit of service far beyond the current 
generation. Nearly all of the law's provisions are already in effect 
and benefiting student veterans across the country. While SVA was proud 
to work alongside many members of this Subcommittee and their staffs to 
pass the Forever GI Bill, we remain concerned about the success of the 
law's ongoing implementation, which must include sufficient 
appropriations and continued vigilance to the implementation process. 
\18\ The fall 2019 semester will be a crucial indicator of this 
process, as many of the technically complex provisions should have 
taken effect by this date.
---------------------------------------------------------------------------
    \18\ Hubbard, William, Testimony for Legislative Hearing on the 
Topic Of ``An Update on the Implementation of the Forever GI Bill,'' 
Dec. 12, 2017, HOUSE COMMITTEE ON VETERANS' AFFAIRS SUBCOMMITTEE ON 
ECONOMIC OPPORTUNITY, http://docs.house.gov/meetings/VR/VR10/20171212/
106695/HHRG-115-VR10-Wstate-HubbardW-20171212.pdf.
---------------------------------------------------------------------------
    In several oversight hearings this committee held last year, senior 
VA officials assured the nation's student veterans and this congress 
that late payments and failures associated with a lack of 
accountability at VA have been sufficiently addressed. \19\ At the 
time, student veterans expressed the dire straits of the situation, 
noting, ``I'm about to lose everything that I own and become homeless. 
I don't want to be that veteran on the street begging for change 
because I haven't received what I was promised.'' \20\
---------------------------------------------------------------------------
    \19\ Wentling, Nikki, ``Federal watchdog: VA leadership failures 
are to blame for GI Bill payment issues,'' March 21, 2019, https://
www.stripes.com/federal-watchdog-va-leadership-failures-are-to-blame-
for-gi-bill-payment-issues-1.573672
    \20\ McCausland, Phil, NBC News, Veterans haven't received GI Bill 
benefits for months due to ongoing IT issues at VA, Nov. 11, 2018, 
https://www.nbcnews.com/news/us-news/veterans-haven-t-receive-gi-bill-
benefits-months-due-ongoing-n934696
---------------------------------------------------------------------------
    SVA commends VA and its staff for public outreach efforts to spread 
awareness, and we commend the obvious dedication to successfully 
implementing the Forever GI Bill; we remind all stakeholders that 
students, administrators, and advocates all have a vested interest in 
transparent and timely communication. Most recently, school 
administrators have communicated a lack of information from VA on how 
these changes will affect the schools, and we encourage congress to 
work with VA on addressing this crucial gap.
    As detailed in VA's budget request, the Department needs sufficient 
resources appropriated to meet that goal. \21\ Specifically, while we 
appreciated the Forever GI Bill's language authorizing funds to meet 
some of the IT needs to implement the new law, these funds have yet to 
be appropriated. We encourage the inclusion of such appropriations to 
meet that need as soon as possible given the short implementation 
window student veterans face.
---------------------------------------------------------------------------
    \21\ Department of Veterans Affairs, Office of Budget. FY 2020 
Budget Submission. Available: https://www.va.gov/budget/products.asp

---------------------------------------------------------------------------
Improving the GI Bill Comparison Tool

    In VA's budget justification, the Department cites the GI Bill 
Comparison tool as an important resource for prospective and current 
student veterans. \22\ Since inception in 2014, the GI Bill Comparison 
Tool has proved to be an invaluable source of information for veterans 
trying to understand the value of their GI Bill as they considered 
different education options. There are, however, important improvements 
that would make the process of considering education options 
significantly better. Additional IT budget resources should be devoted 
to implementing important congressional mandates, and the GI Bill 
Comparison Tool is no exception.
---------------------------------------------------------------------------
    \22\ Id.
---------------------------------------------------------------------------
    As it stands, there is a lack of coordination between ED and VA 
with the College Navigator, College Scorecard, and GI Comparison Tool, 
reducing the overall delivery of powerful data \23\to \24\veterans. 
\25\ The Comparison Tool has unique and important data, necessitating a 
separate tool from ED's current options; no less, the underlying data 
is not being effectively shared to deliver prospective students a 
complete view of their options.
---------------------------------------------------------------------------
    \23\ College Navigator, National Center for Education Statistics, 
US Department of Education, https://nces.ed.gov/collegenavigator/, 
Accessed 01 March 2019
    \24\ College Scorecard, US Department of Education, https://
collegescorecard.ed.gov/, Accessed 01 March 2019
    \25\ GI Bill Comparison Tool, US Department of Veterans Affairs, 
https://collegescorecard.ed.gov/, Accessed 01 March 2019
---------------------------------------------------------------------------
    The current data running the Comparison Tool is largely limited to 
VA's internally available data, which is severely limited, notably 
excluding many student veterans who run out of benefits or elect 
alternative funding sources. Student veterans should be able to rate 
their schools, thereby affording future student veterans direct 
consumer feedback similar to Amazon's verified user rating system.
    In 2013, Public Law 112-249 mandated the statutory requirement for 
VA to launch, ``centralized mechanism for tracking and publishing 
feedback from students,'' similar to `Amazon reviews,' yet this 
functionality is still missing. \26\ SVA appreciates the continued 
availability to the raw data powering the GI Bill Comparison Tool, 
which affords external entities to run complementary research and 
analysis to support additional feedback to VA and policymakers.
---------------------------------------------------------------------------
    \26\ Public Law 112-249, ``Comprehensive Veterans Education 
Information Policy'', https://www.govinfo.gov/content/pkg/PLAW-
112publ249/pdf/PLAW-112publ249.pdf
---------------------------------------------------------------------------
    Finally, we encourage VA to develop a mechanism to maintain closed 
schools within the tool, versus having them merely disappear. This 
disappearance of schools from the tool also applies to associated data, 
leaving significant gaps in the overall picture.

Strengthening VA to Support Student Veterans

    SVA is a solution-oriented organization and we appreciate the 
willingness to collaboratively address our concerns alongside the 
members of this Subcommittee. Our concerns with VA's budget request 
have a common dominator: at present, VA is lacking dedicated Under 
Secretary-level leadership on behalf of economic opportunity programs. 
To be clear, this is not a lack of leadership due to personality, but 
instead a void of a sufficient leadership role for such programs in 
VA's current enterprise structure. In other words, the VA bureaucracy 
is not currently designed to properly support programs of future-
focused empowerment.
    Economic opportunity programs, largely comprised of readjustment 
benefits, should be thought of as an integral part of the empowering, 
whole health model of care VA prioritizes. Programs encompassed under 
the economic opportunity umbrella, like the GI Bill and home loan 
guarantees, are proven success stories that not only benefit veterans 
but the larger American economy. Specifically looking at the GI Bill, 
in 2017 SVA released the National Veteran Education Success Tracker 
(NVEST) in partnership with VA, which focuses on outcomes of student 
veterans and demonstrates the return on investment of student veterans. 
\27\ The first of its kind, it studied 854,000 individual records - 
every Post-9/11 GI Bill user from 2009 until the summer of 2015 - and 
showed the success of student veterans on campus.
---------------------------------------------------------------------------
    \27\ Cate, C. A., Lyon, J. S., Schmeling, J., & Bogue, B. Y. 
(2017). National Veteran Education Success Tracker: A report on the 
academic success of student-veterans using the Post-9/11 GI Bill. 
Washington, D.C.
---------------------------------------------------------------------------
    NVEST outlines the many ways student veterans outperform their 
peers on campus. From higher grade point averages, a higher success 
rate, and a propensity to obtain degrees in high demand fields, the 
data makes clear student veterans are worth the investment America has 
made in them through the GI Bill. \28\ Based on this research, we 
support aligning economic opportunity-focused programs into a distinct 
lane within VA known as the Economic Opportunity and Transition 
Administration. Presently, economic opportunity programs such as the GI 
Bill, home loan guaranty, and many other empowering programs for 
veterans are buried within the bureaucracy of VBA and functionally in 
competition against disability compensation policy for internal 
resources.
---------------------------------------------------------------------------
    \28\ Id.
---------------------------------------------------------------------------
    On their public data site, VA proudly and rightly pronounces, 
``Economic competitiveness isn't just about employment; it encompasses 
overall employment, wealth, independent living, housing, career 
mobility and educational attainment. VA is proud to work alongside 
employment experts at the Department of Labor and policy leaders in DoD 
to ensure we are in alignment with relevant trends and services they 
offer to transitioning service members and veterans.'' \29\ With 
economic opportunity as a stated priority of VA, we strongly support 
the establishment of an Under Secretary of Economic Opportunity at VA, 
who would report directly to the Secretary.
---------------------------------------------------------------------------
    \29\ Department of Veterans Affairs, ``Understanding Economic 
Competitiveness in Relation to Their Non-Veteran Counterparts.'' 
Accessed March 16, 2018. https://www.data.va.gov/story/economic-
opportunities-veterans.
---------------------------------------------------------------------------
    These programs are buried within the bureaucracy of VA and lack a 
true champion at the level of leadership these programs warrant, as 
demonstrated this past year in VA's failure to successfully implement 
the congressional mandates of the Forever GI Bill a timely and 
transparent manner. SVA appreciates the recent creation of the Office 
of Transition and Economic Development (TED) within VBA, yet this step 
further demonstrates VA's lack of commitment to providing economic 
opportunity programs an Under Secretary-level leader to administer 
these programs for veterans.
    Over the past century, VA evolved to focus on compensating veterans 
for loss, which worked for previous generations of veterans, but fails 
to address the future needs of veterans, nor those of our nation. The 
reality of the 21st century and beyond demands the additional goal of 
empowering veterans to excel post-service. Critically, this will 
further advance our nation's goals of enhancing economic 
competitiveness; a focus on veteran contributions to business and 
industry, to governments, to non-profit organizations, and to 
communities, and preparation through the best education programs in our 
country will result in imperative returns on the taxpayer's 
investments.
    To truly achieve ``whole health'' for veterans in the future 
economy, it is essential we afford VA the opportunity to enrich the 
lives of veterans through the primacy of VA's economic opportunity 
programs, which may also play an important role as a gateway to VA 
through exceptional interactions and services in programs important to 
the future of veterans post-service. During several House Committee on 
Veterans' Affairs hearings in the last Congress, we've articulated our 
commitment to elevating the economic opportunity programs at VA and 
identified the need to address a lack of resource-focus on economic 
opportunity programs within the greater scope of the overall \30\VA 
\31\budget. \32\
---------------------------------------------------------------------------
    \30\ Hubbard, William. Testimony for Legislative Hearing on the 
Topic of ``Legislative Hearing on H.R. 1206, H.R. 3023, H.R. 3940, H.R. 
4451, H.R. 4830, H.R. 4835, H.R. 5044, and a draft bill entitled, `VA 
Home Loan Improvement Act of 2018'.'' March 20, 2018, House Committee 
on Veterans' Affairs Subcommittee on Economic Opportunity, https://
docs.house.gov/meetings/VR/VR10/20180320/108011/HHRG-115-VR10-Wstate-
HubbardW-20180320.pdf.
    \31\ Augustine, Lauren. Testimony for Legislative Hearing on the 
Topic of ``U.S. Department of Veterans Affairs Fiscal Year 2019 Budget: 
Veterans Benefits Administration and the Board of Veterans' Appeals.'' 
March 15, 2018, House Committee on Veterans' Affairs Subcommittees on 
Disability Assistance and Memorial Affairs, Economic Opportunity, 
http://docs.house.gov/meetings/VR/VR09/20180315/106968/HHRG-115-VR09-
Wstate-AugustineL-20180315.pdf.
    \32\ Vangellow, Cassandra. Testimony for Oversight Hearing on the 
Topic of ``A Review of VA's Vocational Rehabilitation and Employment 
Program.'' May 17, 2018, House Committee on Veterans' Affairs 
Subcommittee on Economic Opportunity, https://veterans.house.gov/
calendar/eventsingle.aspx?EventID=2160.
---------------------------------------------------------------------------
    This proposal would flatten and streamline some of the bureaucracy 
of VA. With proper safeguards in place, it would curb any expansion of 
government while providing economic opportunity and transition programs 
an accountable champion, resulting in abundant improvements to support 
veterans:

    <bullet>  Increases Accountability. This proposal would provide for 
greater accountability and access to issues that empower veterans. It 
further prevents these issues from being reduced in priority with 
shifting VBA leadership. At present, the VBA leadership team has shown 
a commitment to economic opportunity programs, but that support is tied 
to existing leadership. The creation of an Economic Opportunity and 
Transition Administration would cement the importance of such programs 
with guaranteed leadership and accountability.
    <bullet>  Elevates Economic Opportunity Issues. Directly relevant 
to President Trump's Executive Order 13822, ``Supporting Our Veterans 
during Their Transition from Uniformed Services to Civilian Life'', 
this proposal supports the importance of transition, education, 
employment, and well-being \33\. Further, it sends a strong message to 
veterans and the American public that economic opportunity issues truly 
matter and are important enough to have the leadership of an Under 
Secretary. Giving a national voice to issues like home ownership, 
education, training, and employment is a critically important measure. 
Further, it provides a champion to engage with the Department of 
Education (DoEd) in advancing higher education interests for veterans.
---------------------------------------------------------------------------
    \33\ Executive Order 13822. Supporting Our Veterans During Their 
Transition From Uniformed Service to Civilian Life. January 9, 2018. 
https://www.federalregister.gov/documents/2018/01/12/2018-00630/
supporting-our-veterans-during-their-transition-from-uniformed-service-
to-civilian-life
---------------------------------------------------------------------------
    <bullet>  Reduces Bureaucracy. Bureaucracy at VA has historically 
led to serious national challenges, and keeping economic opportunity 
issues buried at the bottom of VBA is not the answer. This proposal 
flattens the bureaucracy of VA in favor of the veteran, versus creating 
additional layers in the current structure or overloading the 
structure. This was painfully apparent during the initially botched 
implementation of certain provisions of the Forever GI Bill, as a lack 
of leadership within VBA resulted in technical failures and a dearth of 
accountability.
    <bullet>  Establishes Direct Counterpart. The Department of Labor 
(DoL) and the Department of Defense (DoD) presently lack a direct and 
dedicated counterpart within VA's Under Secretary leadership for the 
programs that overlap the agencies-any significant initiative must 
achieve multiple layers of approval before reaching the customers: our 
country's veterans. This proposal provides DoD and DoL with a political 
appointee who can move important programs into the modern age, while 
supporting their missions more broadly for positive, holistic 
interagency solutions.
    <bullet>  Supports ``Whole Health.'' A tragically elastic narrative 
exists around veterans as either ``broken or damaged.'' In reality, 
veterans are fundamentally the same as all other Americans-hard-
working, community-oriented neighbors who want what's best for their 
families, and who thrive in higher education and career when they have 
opportunity to access economic opportunity programs. Creation of an 
Under Secretary of Economic Opportunity will empower veterans to be 
successful as they transition through improved education programs and 
better employment opportunities. One of the major challenges facing 
veterans today is ``transition stress,'' an issue an Under Secretary of 
Economic Opportunity would be keen to address via a robust portfolio of 
programs and services veterans can rely on during transition to advance 
their, and our country's, economic interests. \34\ With better service 
and stronger outcomes, more veterans will be apt to actually ``Choose 
VA.''
---------------------------------------------------------------------------
    \34\ Clark, James. For Most Vets, PTSD Isn't the Problem, 
`Transition Stress' Is. Here's What It Means, January 25, 2018, http://
taskandpurpose.com/what-is-transition-stress/

    We unabashedly recognize that bold initiatives are required to 
ensure our country delivers the best outcomes possible for veterans, 
yet some apparently continue to prefer to the status quo of heavily 
layered bureaucracy. Some have cited concerns regarding ``increased 
resource costs and creation of redundant roles.'' Uniquely, this 
proposal achieves the exact opposite outcome as it will streamline 
these programs given a dedicated leader. Others have argued for 
continuing to give current leaders at VA the chance to address and 
elevate these issues through their own work. For decades VA has had the 
opportunity to elevate economic opportunity issues.
    The approach of ``wait and see'' is really not an approach at all, 
but instead a waiting game meant to guard the current system which 
continues to miss the mark on providing veterans the level of service 
they deserve for the benefits they earned. Waiting for the bureaucracy 
to change itself is ultimately misguided and unacceptably short-
sighted, as personality-dependent success is not a long-term solution 
to these structural challenges.
    Veterans' organizations came out in force to support this overall 
concept when it was previously introduced in congress, including: The 
Disabled American Veterans (DAV), The Veterans of Foreign Wars (VFW), 
Vietnam Veterans of America (VVA), and Iraq and Afghanistan Veterans of 
America (IAVA). \35\ Today, the current proposal further simplifies the 
proposal of a Veteran Economic Opportunity and Transition 
Administration with no intention of statutorily affecting the DoL VETS 
program, a valued partner for transition and employment programs like 
VR&E. The Independent Budget, an authoritative annual presentation of 
recommended funding levels produced by American Veterans (AMVETS), DAV, 
Paralyzed Veterans of America (PVA), and VFW has called for this change 
for years. \36\
---------------------------------------------------------------------------
    \35\ United States. Cong. House. Committee on Veterans Affairs. 
Legislative Hearing on H.R. 356; H.R. 832; H.R. 1994; H.R. 2133; H.R. 
2275; H.R. 2344; H.R. 2360; H.R. 2361; and a draft bill. Hearings, June 
2, 2007. 114th Cong. 1st sess.
    \36\ The Independent Budget for the Department of Veterans Affairs 
Budget (FY2012), 112th Congress, http://www.independentbudget.org/2012/
IB--FY2012.pdf
---------------------------------------------------------------------------
    Last year, the American Enterprise Institute (AEI) published a 
compelling argument for restructuring VA in a piece titled, ``Economic 
Opportunity, Transition Assistance, and the 21st-Century Veteran: The 
Case for a Fourth VA Administration.'' \37\ AEI's research concluded 
legislative language related to veterans creates a powerful and 
sustained narrative related to this population; notably, language 
consistent with a ``deficit model;'' words such as `broken', `wounded', 
`helpless', etc., damage overall perceptions of this population 
wreaking further havoc on a wider audience of veterans.
---------------------------------------------------------------------------
    \37\ Burgess, Rebecca. American Enterprise Institute (2018). 
``Economic Opportunity, Transition Assistance, and the 21st-Century 
Veteran: The Case for a Fourth VA Administration,'' http://www.aei.org/
wp-content/uploads/2018/03/Economic-Opportunity-Transition-Assistance-
and-the-21st-Century-Veteran.pdf.
---------------------------------------------------------------------------
    Conversely, language consistent with an ``asset model,'' such as 
`civic asset,' `successful,' `leaders,' etc., has the effect of 
improving the likelihood of achieving positive transition and long-
range experiences. This proposal is strongly in favor of a positive 
narrative of veterans, as it proposes elevating issue areas the public 
widely views as empowering such as education, employment, home 
ownership, and others.
    We encourage this committee to consider investing significant data 
authorities in this office to be able to effectively track, and one day 
project, the true impact empowered veterans have on the country's 
economic health. For example, it's known that the Servicemen's 
Readjustment Act of 1944, known as the original GI Bill, had an 
economic output of $7 for every $1 dollar invested in that program. 
\38\ Insights such as these will be vital to establishing the long-term 
understanding of these programs. Further, we recommend this office 
produce a consolidated annual report reviewing program efficacy, 
tracking key metrics tied to outcomes instead of outputs.
---------------------------------------------------------------------------
    \38\ 100th United States Congress, Joint Economic Committee, 
Subcommittee on Education and Health of the Joint Economic Committee. 
``A Cost-Benefit Analysis of Government Investment in Post-Secondary 
Education Under the World War II GI Bill,'' December 14, 1988.
---------------------------------------------------------------------------
    VA publicly declares they, ``[have] a mission to help veterans 
maximize their economic competitiveness and thus, increase the number 
of economic opportunities for veterans and their families.'' \39\ This 
proposal will maximize the notion VA publicly espouses in empowering 
veterans to lead successful lives. Further demonstrating this idea, the 
1996 Congressional Commission on Servicemembers and Veterans Transition 
Assistance once stated, ``If employment is the door to a successful 
transition to civilian life, education will be the key to employment in 
the information age.'' \40\ Future generations of veterans are counting 
on the success of this proposal, and we are eager to work with this 
Congress and the White House to make it a reality.
---------------------------------------------------------------------------
    \39\ Department of Veterans Affairs, Understanding Economic 
Competitiveness in Relation to Their Non-Veteran Counterparts. Accessed 
March 16, 2018. https://www.data.va.gov/story/economic-opportunities-
veterans.
    \40\ https://ntrl.ntis.gov/NTRL/dashboard/searchResults/
titleDetail/PB2006113212.xhtml
---------------------------------------------------------------------------
    In addition to the proposed points for consideration outlined 
above, SVA supports VA's interest in amending 38 U.S.C. Sec.  3699 to 
extend the restoration of entitlement to educational assistance for 
Veterans affected by school closure or disapproval, implemented by 
Section 109 of the Forever GI Bill, to apply to VR&E programs provided 
under \41\Chapter \42\31. Any veteran affected by sudden school 
closures should have their benefits restored to afford them the 
opportunity for continued success.
---------------------------------------------------------------------------
    \41\ 38 U.S. Code Sec.  3699. Effects of closure or disapproval of 
educational institution, https://www.law.cornell.edu/uscode/text/38/
3699
    \42\ Public Law 115-48, Section 109, https://www.congress.gov/115/
plaws/publ48/PLAW-115publ48.pdf
---------------------------------------------------------------------------
    We thank the Chairman, Ranking Member, and the Subcommittee members 
for your time, attention, and devotion to the cause of veterans in 
higher education. As always, we welcome your feedback and questions, 
and we look forward to continuing to work with this Subcommittee, the 
House Veterans' Affairs Committee, and the entire Congress to ensure 
the success of all generations of veterans through education.

                                 <F-dash>
              SAM SHELLENBERGER DEPUTY ASSISTANT SECRETARY
    VETERANS' EMPLOYMENT AND TRAINING SERVICE
    U.S. DEPARTMENT OF LABOR STATEMENT FOR THE RECORD
                              Introduction
    Chairman Levin, Ranking Member Bilirakis, and distinguished Members 
of the Subcommittee, thank you for the opportunity to provide a 
statement for the record for this hearing, ``Fiscal Year (FY) 2020 
President's Budget: Requests Related to Veterans' Readjustment 
Benefits.'' I commend the Committee for its efforts to ensure that 
America fulfills its obligations to its veterans, their families, and 
their caregivers. The Department of Labor (DOL or Department) provides 
training, employment services, and information related to the economic 
health of all workers within an integrated network that continues to 
generate positive employment outcomes for the men and women who have 
served our country.
    The President's FY 2020 budget reflects the Administration's 
priorities to support the American workforce. The President's vision 
for America and the American workforce is to empower our economy to 
each day create jobs that are safe and family sustaining. The 
Department is working hard to: keep Americans safe in the workplace; 
prevent discriminatory employment practices; safeguard retirement 
savings; increase employment opportunities for all Americans; level the 
playing field for working Americans through fair trade; collect, 
analyze, and disseminate essential economic information; promote 
private-sector union democracy and financial integrity; protect the 
interest of workers, and their families, who were injured or became ill 
on the job; and ensure workers are paid what they have earned.
               Veterans' Employment and Training Service
    The Veterans' Employment and Training Service (VETS) is an integral 
part of the Department and a budget priority for the Secretary. VETS' 
mission is to prepare America's veterans, service members, spouses, and 
caregivers for meaningful careers, provide them with employment 
resources and expertise, protect their employment rights, and promote 
their employment opportunities. The new HIRE Vets Medallion Program 
will encourage more employers to recruit, hire, and retain veterans. 
Expanded apprenticeship opportunities will assist veterans in finding 
meaningful and family-sustaining careers. VETS employees are dedicated 
to the mission of providing transitioning service members, veterans, 
and their spouses the employment services they deserve.
    In March, the Department's Bureau of Labor Statistics (BLS) 
released its annual report on the ``Employment Situation of Veterans.'' 
Some highlights from the report include:

    <bullet>  The unemployment rate for all veterans fell to an 18-year 
low of 3.5 percent in 2018.
    <bullet>  Unemployment for veterans who served on Active duty in 
the U.S. Armed Forces since September 2001 dropped from 4.5 percent in 
2017, to 3.8 percent in 2018-the lowest rate recorded since BLS began 
collecting the data in 2006.
    <bullet>  The unemployment rate for women veterans fell to 3.0 
percent in 2018. \1\
---------------------------------------------------------------------------
    \1\ Bureau of Labor Statistics. ``Employment Situation of 
Veterans.'' March 2019. https://www.bls.gov/news.release/vet.nr0.htm.4
---------------------------------------------------------------------------
    Unfortunately, military spouse unemployment is estimated to be at 
least two times higher than the national average, and in a survey 
conducted in 2017, 50 percent of military and recent veteran spouse 
respondents who were working part time indicated a desire to work full 
time. \2\ Even with more than 7 million open jobs in the country right 
now, these reports suggest well- qualified and credentialed military 
spouses encounter challenges both with maintaining careers and 
transferring their industry-recognized credentials between states. \3\ 
The Administration, including the Department, are working to improve 
the employment prospects for these spouses.
---------------------------------------------------------------------------
    \2\ The Council of Economic Advisors. ``Military Spouses in the 
Labor Market''. https://www.whitehouse.gov/wp- content/uploads/2018/05/
Military-Spouses-in-the-Labor-Market.pdf.
    \3\ Bureau of labor Statistics. Job Openings and Labor Turnover 
Survey Results, February 2019. https://www.bls.gov/news.release/
jolts.htm.
---------------------------------------------------------------------------
    Recognizing that the veteran unemployment rate continues to reach 
historic lows, the budget would provide an opportunity to modernize the 
ways we address the employment needs of transitioning service members, 
veterans, their spouses, and caregivers by providing more targeted and 
tailored delivery of employment services.
    For FY 2020, VETS is requesting $306,041,000, an increase of 
$6,000,000 from the FY 2019 enacted level. The requested funding by 
program is:

    <bullet>  $29,379,000 for Transition Assistance Program
    <bullet>  $180,000,000 for Jobs for Veterans State Grants
    <bullet>  $3,414,000 for the National Veterans' Training Institute
    <bullet>  $50,000,000 for Homeless Veterans' Reintegration Program
    <bullet>  $43,248,000 for Federal Administration-USERRA Enforcement
                  Transition Assistance Program (TAP)
    Transitioning service members are a valuable resource to American 
communities, and they bring the technical skills and leadership traits 
that employers look for. The TAP for separating and retiring service 
members and their spouses, provided under 10 U.S.C. 1144, helps to 
smooth the transition from Active duty to civilian life. TAP is a 
cooperative effort among DOL, the Department of Defense (DoD), the 
Department of Education, the Department of Homeland Security, the 
Department of Veterans Affairs (VA), the Small Business Administration, 
and the Office of Personnel Management.
    VETS estimates that approximately 150,000 transitioning service 
members will attend the DOL Employment Workshops this year. In FY 2018, 
VETS provided 5,769 DOL Employment Workshops, both domestic and 
overseas, to 154,580 transitioning service members and their spouses.
    To improve TAP, President Trump signed H.R. 5515, the ``John S. 
McCain National Defense Authorization Act (NDAA) for Fiscal Year 
2019,'' (Pub-Law 115-232), into law on August 13, 2018. DOL will alter 
the delivery of employment-related workshops in FY 2020 to align with 
the new legislative requirements. VETS would also provide additional 
employment related services to transitioning service members beyond the 
classroom and those services could include career counseling, resume 
preparation, and job search assistance. For example, VETS' FY 2020 
budget requests additional funding to revise the course curriculum to 
provide one-day employment preparation that is mandatory for all 
transitioning service members, an optional two- day workshop for 
apprenticeship/technical career preparation, and an optional general 
employment preparation. These changes to TAP are designed to help 
transitioning service members make the best career choices among those 
available to them, taking into account individual skills and high-
demand career fields. Better matching veterans to career opportunities 
prior to transition could reduce job turnover rates among recently-
transitioned veterans.
    Additional funding would enhance the quality of employment support 
services for transitioning service members, with a focus on improved 
outcomes.
    VETS will also administer the Veteran Apprenticeship Pilot, funded 
in the FY 2019 appropriation. This pilot will prepare transitioning 
service members to qualify for and enter into high quality 
apprenticeship programs. This initiative supports the Administration's 
priority to expand apprenticeship opportunities by connecting service 
members to prospective employers before their transition through 
apprenticeship placement counselors. Intended outcomes include more 
transitioning service members embarking in high-paying careers, while 
employers gain veterans as valuable employees.
    The requested funding would also allow VETS to develop and 
implement a course curriculum specific to military spouses who are 
transitioning with their service member out of the service or to 
another installation. The course curriculum would use components of the 
current curriculum for military members, such as resume development and 
interviewing techniques. It could also include components more specific 
to the needs of military spouses as a result of their frequent moves 
and the complexities associated with state licensing and credentialing 
requirements. As an example, last year, DOL developed a military spouse 
web portal where military spouses can efficiently search for specific 
points of contact, guidelines, and state laws on professional 
licensing, including information on how occupational licenses from one 
state can be recognized in another. While developing the new course 
curriculum, VETS will evaluate delivery options with DoD to determine 
the most effective and efficient format, likely hybrid models that 
allow face-to- face programming and digital delivery. This investment 
would help military spouses build careers.
    The President's FY 2020 Budget includes a legislative proposal to 
provide the Department with broader access to National Directory of New 
Hires (NDNH) data that would enable VETS, in collaboration with the 
Department's Chief Evaluation Office, to track the employment outcomes 
of transitioning service members. Meanwhile, VETS receives data on 
transitioning service members daily from DoD. This growing database 
contains demographic information, highest education level achieved, 
military base geographic data, and a full list of all the courses each 
service member participated in during the transition process.
                 Jobs for Veterans State Grants (JVSG)
    VETS funds employment and training services for veterans at State 
Workforce Agencies nationwide through JVSG, as authorized under 38 
U.S.C. 4102A(b)(5). This program assists veterans with significant 
barriers to employment and other eligible individuals to help them 
attain family-sustaining careers, and to assist employers in filling 
their workforce needs with job-seeking veterans. VETS awards JVSG grant 
funds by formula to each state, the District of Columbia, Guam, Puerto 
Rico, and the U.S. Virgin Islands. The formula, governed under 38 
U.S.C. 4102A(c)(2) and the implementing regulations, is based on the 
following factors:

    <bullet>  The number of unemployed individuals in the general 
population in each state, compared with the total number of unemployed 
individuals in the general population across all states; and
    <bullet>  The number of veterans in the civilian labor force in 
each state, compared with the total number of veterans in the civilian 
labor force across all states.

    VETS provides JVSG funds to states to support three types of staff 
positions: Disabled Veterans' Outreach Program (DVOP) specialists, 
Local Veterans' Employment Representatives (LVER) staff, and 
Consolidated Positions (positions which perform the functions of both 
the preceding staff positions).
    The primary duty of DVOP specialists is to provide specialized 
services to veterans and eligible spouses with significant barriers to 
employment that are designed to mitigate an individual's particular 
barriers to employment. Since FY 2014, appropriation language has 
allowed DVOP specialists to provide services to transitioning service 
members who have participated in TAP and are in need of intensive 
services and to wounded, ill, or injured service members and their 
caretakers. These intensive services, now referred to as individualized 
career services under the Workforce Innovation and Opportunity Act 
(WIOA), include comprehensive and specialized job readiness 
assessments, interview preparation, development of individual 
employment plans, and career guidance through group or individual 
counseling. From July 2017 to June 2018, 99,296 eligible veterans 
received services from DVOP specialists. Nearly 60 percent of these 
individuals were employed within ninety days of service.
    LVER staff promote veteran hiring through outreach activities that 
build relationships with local employers with the goal of connecting 
employers across the country with career-ready veterans. LVERs 
coordinate with DVOP specialists and other AJC staff to transition 
veteran clients into employment in the local community. Consolidated 
positions allow states flexibility to provide appropriate employment 
services for veterans and employer support in areas currently 
underserved or where the assignment of only full-time DVOP specialists 
or LVER staff would be impractical.
    The FY 2020 budget requests $180,000,000 for the JVSG program to 
continue providing employment and training services at American Job 
Centers (AJCs) nationwide. The JVSG program will continue to fund DVOP 
specialists to assist veterans with significant barriers to employment 
and other eligible individuals, to help them attain family-sustaining 
careers, and to fund LVER staff to assist employers in filling their 
workforce needs with job-seeking veterans. Within the funding request, 
JVSG staff will be able to expand the awareness of the HIRE Vets 
Medallion Program (HVMP).
      National Veterans' Employment and Training Institute (NVTI)
    The NVTI was established in 1986 to increase the level of 
proficiency and training of staff that provide employment services to 
veterans. NVTI provides training to veteran service providers and 
Federal staff, including DVOP specialists and LVER staff who provide or 
oversee grant services, and Federal staff who perform compliance and 
enforcement activities under the Uniformed Services Employment and 
Reemployment Rights Act of 1994 (USERRA) and the Veterans' Employment 
Opportunities Act. At the requested level, NVTI will maintain the 
current curriculum, increase digital delivery, and train veteran 
service providers in order to meet the training requirements at 38 USC 
4102A(c)(8)(A).
            Homeless Veterans' Reintegration Program (HVRP)
    The Homeless Veterans' Reintegration Program (HVRP), authorized 
under 38 U.S.C. 2021, provides services to help veterans experiencing 
homelessness obtain meaningful employment and to develop effective 
service delivery systems to address the complex problems they 
encounter. Funds are awarded on a competitive basis to eligible 
applicants, including: state and local Workforce Development Boards, 
public agencies, for-profit/commercial entities, and nonprofit 
organizations, including faith- and community-based organizations.
    The FY 2020 budget requests $50,000,000 to allow HVRP grantees to 
provide employment and training services that help thousands of 
homeless veterans successfully re-enter the labor force. Direct 
services include placement in employment, skills training, job 
development, career counseling, and resume writing. Support services 
may include clothing, referral to medical substance abuse treatment and 
housing, and transportation assistance. As a member of the United 
States Interagency Counsel on Homelessness, DOL collaborates with the 
VA, as well as other Federal and local entities serving homeless 
veterans. In FY 2018, HVRP provided services to 17,958 homeless 
veterans and of those veterans who obtained employment, their average 
wage was $13.50 per hour.
    VETS also provides HVRP funding for ``Stand Down'' events in local 
communities. A ``Stand Down'' event is a community-based event in which 
organizations come together to serve veterans who are experiencing 
homelessness, connecting them with support services to help them 
reenter the workforce, gain permanent housing, and access healthcare 
services.
    President Trump signed S. 2248, the ``Veterans Benefits and 
Transition Act of 2018,'' (Pub-Law 115-407) into law on December 31, 
2018. This bill covered a range of veterans' issues, including 
provisions that would increase veterans' benefits and those that would 
improve the transition process from military to civilian life. Specific 
to DOL, Pub-Law 115-407 amends Section 2021(a) of title 38, U.S.C., by 
expanding eligible participants under HVRP. VETS included these 
additional populations in the grant announcement which closed on April 
26.
Federal Administration- Uniformed Services Employment and Reemployment 
                    Rights Act (USERRA) Enforcement
    The FY 2020 budget requests $43,248,000 for Federal Administration. 
The requested amount would provide for the salary and benefits, travel, 
and training for all of VETS' current staff in the national office, six 
regional offices, and offices in each state, the District of Columbia, 
and Puerto Rico.
    VETS is responsible for administering, interpreting, and helping 
enforce the USERRA, pursuant to 38 U.S.C. 4301, et seq. VETS staff 
conduct formal investigations of complaints received from individuals 
who believe their employment or reemployment rights were violated. Upon 
completion of an investigation, if the evidence supports the 
allegations raised in the complaint, VETS will work with both the 
employer and complainant to obtain the appropriate relief under the 
law. If the complainant is dissatisfied with the results of the 
investigation, he or she may request that the case be referred to 
either the U.S. Department of Justice for non- Federal cases, or to the 
U.S. Office of Special Counsel for Federal cases for consideration of 
representation in either U.S. District Court or before the Merit 
Systems Protection Board, as appropriate.
    VETS is also responsible for investigating complaints received from 
preference-eligible veterans who allege that their veterans' preference 
rights in Federal employment were violated, pursuant to the Veterans' 
Employment Opportunities Act of 1998 (VEOA), 5 U.S.C. 3330a, et seq. In 
addition, VETS receives and collects Federal contractor data reporting 
pursuant to the Vietnam Era Veterans Readjustment Assistance Act. In-
depth summaries of VETS' USERRA enforcement activities, including data 
on cases opened during the last fiscal year, are provided in the 
Department's USERRA Annual Report to Congress. \4\
---------------------------------------------------------------------------
    \4\ https://www.dol.gov/vets/programs/userra/index.htm.
---------------------------------------------------------------------------
    VETS conducts public outreach to educate service members, 
employers, and others on their rights and responsibilities under 
USERRA. At the requested funding level, VETS provides an online USERRA 
advisory tool to assist veterans in understanding employee eligibility, 
job entitlements, and obligations, as well as benefits, remedies, and 
employer obligations under USERRA. \5\ This electronic advisory tool 
helps veterans determine the types of preferences and benefits to which 
they may be entitled, explains the process for filing a complaint, and 
provides an electronic claim form.
---------------------------------------------------------------------------
    \5\ http://www.dol.gov/elaws/userra.htm.
---------------------------------------------------------------------------
                      HIRE Vets Medallion Program
    The Honoring Investments in Recruiting and Employing (HIRE) 
American Military Veterans Act of 2017, P.L. 115-31 (Division O) (HIRE 
Vets), required DOL to establish a program to recognize employer 
efforts to recruit, employ, and retain veterans. The HIRE Vets 
Medallion Award is the only Federal-level veterans' employment award 
that recognizes a company or organization's commitment to veteran 
hiring and retention. As set forth in the Act, the program is intended 
to be entirely fee-funded and comprises different award criteria for 
large employers (500-plus employees), medium employers (51-499 
employees), and small employers (50 or fewer employees). This is a fee-
funded program and participants pay a non-refundable application fee. 
On November 13, 2017, the Department published the Final Rule 
establishing the HIRE Vets Medallion Program, at 82 FR 52186, and is 
actively promoting the program, including providing guidance and 
technical assistance to the public workforce system in order to ensure 
that local employers are aware of this opportunity for recognition.
    In 2018, VETS established the standard operating procedures and 
criteria for the HIRE Vets Medallion Program through a demonstration 
project, developed new IT systems to capture and analyze the 
applications, selected the awardees for the demonstration project, and 
presented the demonstration medallions to the recipients at a ceremony 
on November 9th. The demonstration was limited to 300 applicants, 239 
of which met the eligibility requirements to receive a demonstration 
award. The demonstration award recipient list, along with additional 
information about the program is available at www.hirevets.gov. Full 
implementation of the program began in January of this year and the 
open application period closes this month. We look forward to 
announcing the award recipients on a date to coincide with Veterans' 
Day.
                               Conclusion
    The Department looks forward to working with the Subcommittee to 
ensure that our transitioning service members, veterans, their spouses, 
and care providers have the resources and training they need to be 
successful in the civilian workforce. The improving employment 
situation for veterans is a testament to the nationwide recognition 
from stakeholders-both public and private, at the national level and 
within local communities-of the value that veterans bring to the 
civilian workforce. Chairman Levin, Ranking Member Bilirakis, and 
members of the Subcommittee, this concludes my statement for the 
record. Thank you for the opportunity to provide this statement for the 
record.

                                 <F-dash>
                        STATEMENT FOR THE RECORD
            U.S. Department of Housing and Urban Development
Introduction

    Chairman Levin, Ranking Member Bilirakis, and members of the 
Subcommittee, the Department of Housing and Urban Development (HUD) 
appreciates the opportunity to provide a written statement on HUD's 
Fiscal Year 2020 budget request for programs aimed at ending veteran 
homelessness in the United States.

General HUD Homeless Assistance Programs

    HUD's Office of Community Planning and Development (CPD) provides 
about $2.4 billion annually to communities to help end homelessness. 
Funding is primarily used for permanent supportive housing, which 
successfully houses people with long histories of homelessness and 
significant disabilities. Permanent supportive housing has proven to 
reduce hospitalization and emergency room utilization while 
dramatically improving the well-being of the people it serves.
    HUD also provides funding for rapid re-housing, a cost-effective 
strategy that helps people move quickly into housing. This strategy 
combines short-term financial assistance and supportive services to 
help the formerly homeless stabilize in their housing, increase their 
employment and income, and connect to community supports. HUD also 
supports emergency shelter, transitional housing, and many other types 
of assistance dedicated to ending homelessness.
    In 2017, the last year for which data is available, approximately 
17,000 veterans were served using $97 million through HUD's Continuum 
of Care (CoC) program. Most of that funding is for permanent supportive 
housing that houses approximately 10,000 veterans with disabilities.
    Thousands more veterans are served with rapid re-housing, emergency 
shelter, and other assistance.

HUD-Veterans' Affairs Supportive Housing (HUD-VASH)

    The HUD-VASH program, administered by HUD's Office of Public and 
Indian Housing (PIH), is dedicated to housing homeless veterans.
    HUD-VASH has been successful in its approach to addressing veteran 
homelessness by providing long-term housing assistance to the most 
vulnerable veterans experiencing homelessness. It combines housing 
choice voucher (HCV) rental assistance for homeless veterans with case 
management and clinical services provided by the Department of Veterans 
Affairs (VA). VA provides these services for participating veterans at 
VA medical centers (VAMCs) and community-based outreach clinics.
    In the HUD-VASH program, the local VA case managers screen and 
determine veteran eligibility for the program. Eligible veterans are 
then referred to the partnering Public Housing Authority (PHA) to 
receive their housing voucher assistance. By agreeing to administer the 
HUD-VASH program, the PHA is relinquishing its authority to determine 
the eligibility of families in accordance with regular Housing Choice 
Voucher program rules and PHA policies with one exception: PHAs are 
required to prohibit admission of any member of the household subject 
to a lifetime registration requirement under a state sex offender 
registration program.
    To date, Congress has appropriated $755 million in HUD-VASH 
funding. HUD-VASH vouchers are renewed based on actual leasing, as with 
the HCV program generally. When a household leaves the program, their 
voucher is reissued to another eligible household.
    Every year since 2008, HUD and VA have collaboratively awarded new 
HUD-VASH vouchers based on a community's geographic need (meaning the 
size of its eligible veteran population) and administrative capacity. A 
total of 97,576 HUD-VASH vouchers have been awarded to PHAs between 
2008 and 2018. Of these, about 4,700 were awarded through a competitive 
set- aside as project-based vouchers (PBV), in which the rental subsidy 
is assigned to a specific housing unit rather than provided to a 
veteran to find a unit in the private market to rent. PBVs have proven 
to be an effective tool to help address the need for HUD-VASH in high-
cost rental markets or where there is a lack of affordable housing 
stock. In addition to the HUD-VASH vouchers specifically awarded as 
PBV, PHAs, with the support of their local VA partners, have the 
ability to convert any of their existing HUD-VASH vouchers to PBV.
    HUD will be awarding approximately 5,000 new HUD-VASH vouchers with 
the additional $40 million in HUD-VASH funding that was appropriated in 
FY2019. HUD is working with VA and United States Interagency Council on 
Homelessness (USICH) to determine the processes and priorities for this 
award.
    HUD did not request new HUD-VASH vouchers in FY 2020 because, based 
on an analysis conducted jointly by HUD and the VA, the turnover of 
these existing HUD-VASH vouchers and the FY 2019 appropriation of $40 
million is enough to meet the demand of current referrals of VA 
eligible veterans who are experiencing homelessness and require the 
intensive services and support of a HUD-VASH voucher.
    To fulfill our shared commitment to ending veteran homelessness, it 
is important to remember that HUD must serve all veterans experiencing 
homelessness, including those not eligible for VA services. To achieve 
this, HUD has been working with VA and CoC-funded local supportive 
service providers to create a process that allows PHAs to partner with 
local, VA-designated service-providers and use a portion of their 
existing HUD-VASH vouchers to assist those homeless veterans with an 
other-than-dishonorable discharge who do not qualify for VA healthcare. 
This flexibility also helps communities better maximize the utilization 
of their HUD- VASH resources.
    These efforts around HUD-VASH demonstrate HUD's commitment to 
optimize the effectiveness of the HUD-VASH program and allow for local 
flexibility in addressing the homeless veteran population. HUD is also 
exploring options to ensure maximum utilization of these vouchers to 
ensure the highest number of veterans are being served across the 
country.
    Congress has provided HUD flexible authority to design the HUD-VASH 
program in ways that would best serve homeless veterans. As HUD-VASH is 
a joint program between HUD and the VA, both Departments are working 
collaboratively on this reallocation effort to ensure that existing 
HUD-VASH resources are being used as efficiently and effectively as 
possible to serve the maximum number of eligible veterans across the 
country. Therefore, HUD and VA are focusing on changes to maximize 
effectiveness in the allocation of new vouchers and supporting PHAs in 
their efforts to improve utilization, as opposed to the recapture and 
reallocation of existing vouchers.

Tribal HUD-VASH

    The Tribal HUD-VASH pilot program provides rental assistance and 
supportive services to veterans who are Native American and 
experiencing homelessness, or at risk of homelessness, while living on 
or near a reservation or other Indian areas. Veterans participating in 
this program are provided housing assistance through HUD and supportive 
services through VA to foster long-term stability and prevent a return 
to homelessness.
    The pilot was first authorized in the Consolidated and Further 
Continuing Appropriations Act, 2015 (Public Law 113-235) - and Congress 
has continued its support in subsequent years by enacting funds for 
renewal grants and modest expansion. In all, 26 Indian tribes or 
tribally designated housing entities (TDHE) currently participate in 
the program. These recipients were initially awarded grants totaling 
$5.9 million based on their level of need and administrative capacity. 
HUD provided a first round of renewal funding to these recipients in 
2018 and expects to do so again in 2019. HUD will also award additional 
funding to expand the program using funds provided in the Consolidated 
Appropriations Act of 2017.
    Implementation of the program is overseen by HUD's Office of Native 
American Programs (ONAP) within PIH, and VA is responsible for 
providing case management services and referring eligible veterans for 
housing assistance. As of April 2019, approximately 400 veterans have 
received case management services, and of those, 330 veterans are also 
currently being housed under the Tribal HUD-VASH program. The program 
is producing tangible results, housing Native American veterans and 
their families who were living in severely inadequate units - without 
running water, heat or electricity - or in overcrowded living 
conditions.
    The President's Budget for FY 2020 requests authority to set aside 
up to $4 million of Tenant Based Rental Assistance funds for necessary 
renewal funding for the Tribal HUD-VASH program. While HUD believes 
there is sufficient carryover funding appropriated in previous years to 
provide renewal grants, this authority will allow the Department to 
ensure that all veterans remain stably housed in the event that renewal 
funding needs are higher than anticipated.

Continued Collaboration with VA and USICH

    HUD has worked closely with VA for many years administering HUD-
VASH. Together, HUD, VA and the USICH have implemented a joint 
decision-making structure known as Solving Veterans Homelessness as One 
(SVHO) where the agencies jointly administer the programs and policies 
related to veteran homelessness and develop and implement a range of 
strategies for preventing and ending veteran homelessness. This 
structure allows us to jointly review data on HUD-VASH and other 
programs and to coordinate policymaking to ensure our assistance is 
integrated and impactful.
    This collaboration has also helped us improve utilization in the 
HUD-VASH program, coordinate the implementation of the Tribal HUD-VASH 
program, better target available assistance to those with the highest 
needs, and ensure resources are prioritized for communities with 
greater numbers of veterans experiencing homelessness.
    HUD, VA and USICH have also used the structure of SVHO to jointly 
create standards for evaluating whether communities have ended veteran 
homelessness. Since 2014, more than 880 mayors, city and county 
officials, and governors have set a goal of ending veteran homelessness 
in their communities. As of April 17, 2019, 71 communities across 30 
states have achieved the goal.
    The agencies also collaborate on the implementation of Coordinated 
Entry Systems, meaning a system that is easy for veterans and other 
persons experiencing homelessness to access. Coordinated Entry ensures 
that a homeless person has simple access to housing and other 
homelessness resources. The collaboration between HUD and VA ensures 
that veterans have access to all the resources in a community, 
including VA dedicated resources, no matter where and how they access 
assistance.

Technical Assistance for Communities

    Because the ability of any community to end veteran homelessness 
depends on the strength of each community's leadership and successful 
implementation of proven strategies, HUD and its federal partners are 
committed to helping communities get there. In addition to providing 
homeless assistance funds, HUD supports several technical assistance 
initiatives that have helped reduce veteran homelessness. The Built for 
Zero and <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="613704151221290e0c04">[email&#160;protected]</a> initiatives help communities implement best 
practices and learn from the successes of other communities. Both 
initiatives were designed with the explicit goal of helping communities 
end veteran homelessness.
    In 2012, HUD and VA partnered with the 100K Homes Campaign and 
Rapid Results Institute to hold ``bootcamps'' for 13 HUD-VASH 
communities. The events brought together PHA, VA, CoC, and HUD staff as 
community-centered groups to map their processes and identify creative 
and collaborative ways to improve them. These bootcamps were extremely 
successful and helped to get the HUD-VASH program utilization to where 
it is today. This bootcamp model has since been used to inform the 
continuing collaborative process for HUD-VASH and the roll out of 
Tribal HUD-VASH.
    Some best practices have included incorporating HUD-VASH in a 
larger coordinated entry system to ensure there are multiple access 
points for veterans seeking help, coordinated outreach efforts to 
locate all veterans in need of assistance, and better data sharing 
across systems to ensure veterans do not fall through the cracks.
    HUD has worked with our partners to identify specific strategies 
for utilizing HUD-VASH vouchers in high-cost, low-vacancy communities. 
These are often the same communities with the greatest need. In 
addition to converting HUD-VASH to project based vouchers, PHAs have 
used their flexibility to increase their payment standard, including 
the adoption of exception payment standards, to be competitive in the 
private market. Another strategy has been intensive landlord outreach 
and maintaining landlord relationships. PHAs have also been able to 
connect with local service providers that assist veterans in their 
housing search.
    HUD continues to help communities with targeted assistance. HUD has 
launched a technical assistance initiative focused on helping 
communities with high numbers of unsheltered people experiencing 
homelessness, including high numbers of unsheltered veterans. The 
initiative focuses on helping those communities implement best 
practices that have helped end veteran homelessness in cities such as 
Houston, New Orleans, and Las Vegas. HUD is also providing assistance 
to rural communities to help increase their capacity and address 
challenges unique to veterans living in rural areas, such as access to 
transportation.

Results

    Each year, communities across the country conduct point in time 
counts of people experiencing homelessness. The count, held annually in 
January, includes people living in shelters as well as people sleeping 
on sidewalks, in parks, in cars, or in other places not meant for human 
habitation. Based on the 2018 count, veteran homelessness decreased by 
5.4 percent between 2017 and 2018 bringing the overall decline in 
veteran homeless to 49 percent (a decrease of 36,209 veterans) since 
2010. This kind of reduction is historic, and HUD-VASH has been a 
primary reason for this progress.
    A robust body of evidence shows that the combination of permanent 
supportive housing, rapid re-housing, and other targeted interventions 
can indeed end homelessness. The long-term national trend and the 
results in the many communities that have ended veteran homelessness 
show the positive results of a coordinated effort.

Conclusion

    A great deal of progress has been made in the way HUD works with 
other agencies to address veteran homelessness. The HUD-VASH program 
continues to be a model for interagency collaboration and one of the 
best tools for ending veteran homelessness. Nonetheless, HUD must 
continue to find ways to maximize the effectiveness of the HUD-VASH 
program, while also assisting communities in utilizing all available 
homeless assistance resources.
    Thank you again for this opportunity to discuss HUD's efforts to 
end veteran homelessness.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
